No. _____
IN THE

Supreme Court of the United States
___________

TRADING TECHNOLOGIES INTERNATIONAL, INC.,
v.

Petitioner,

IBG, LLC, and INTERACTIVE BROKERS, LLC,
___________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Federal Circuit
___________

PETITION APPENDIX
___________

STEVEN F. BORSAND
TRADING TECHNOLOGIES
INTERNATIONAL
222 S. Riverside
Plaza, Ste. 1100
Chicago, IL 60606

ANDREW M. GROSSMAN
Counsel of Record
RENEE KNUDSEN
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

App. i
TABLE OF APPENDICES
Appendix A: Federal Circuit Decision,
Trading Technologies International, Inc.,
v. IBG LLC, et al. ......................................... App. 1
Appendix B: PTAB Decision on ’056 Patent,
IBG LLC, et al. v. Trading Technologies
International, Inc....................................... App. 24
Appendix C: PTAB Decision on ’374 Patent,
IBG LLC, et al. v. Trading Technologies
International, Inc....................................... App. 93
Appendix D: PTAB Decision on ’999 Patent,
IBG LLC, et al. v. Trading Technologies
International, Inc..................................... App. 119
Appendix E: Relevant Statutory
Provisions................................................. App. 151
Appendix F: Patent No. 7,533,056 .......... App. 157
Appendix G: Patent No. 7,904,374.......... App. 226
Appendix H: Patent No. 7,212,999 ......... App. 293

App. 1
UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS, LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2017-2257
______________________
Appeal from the United States Patent and Trademark Office, Patent Trial and Appeal Board in No.
CBM2015-00179.
-------------------------------------------------TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2017-2621

App. 2
______________________
Appeal from the United States Patent and Trademark Office, Patent Trial and Appeal Board in No.
CBM2016-00051.
-------------------------------------------------TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2018-1063
______________________
Appeal from the United States Patent and Trademark Office, Patent Trial and Appeal Board in No.
CBM2016-00032.
______________________
Decided: April 18, 2019
______________________
MICHAEL DAVID GANNON, Baker & Hostetler
LLP, Chicago, IL, argued for appellant. Also represented by LEIF R. SIGMOND, JR., JENNIFER
KURCZ; ALAINA J. LAKAWICZ, Philadelphia, PA;
COLE BRADLEY RICHTER, McDonnell, Boehnen,

App. 3
Hulbert & Berghoff, LLP, Chicago, IL; STEVEN
BORSAND, JAY QUENTIN KNOBLOCH, Trading
Technologies International, Inc., Chicago, IL. BYRON
LEROY PICKARD, Sterne Kessler Goldstein & Fox,
PLLC, Washington, DC, argued for appellees. Also
represented by ROBERT EVAN SOKOHL, RICHARD
M. BEMBEN, JON WRIGHT; MICHAEL T.
ROSATO, Wilson, Sonsini, Goodrich & Rosati, PC, Seattle, WA. KATHERINE TWOMEY ALLEN, Appellate Staff, Civil Division, United States Department
of Justice, Washington, DC, argued for intervenor.
Also represented by MARK R. FREEMAN, SCOTT R.
MCINTOSH, JOSEPH H. HUNT; THOMAS W.
KRAUSE,
JOSEPH
MATAL,
FARHEENA
YASMEEN RASHEED, Office of the Solicitor, United
States Patent and Trade-mark Office, Alexandria,
VA.
______________________
Before MOORE, MAYER, and LINN, Circuit Judges.
MOORE, Circuit Judge.
Trading Technologies International, Inc., (“TT”) is
the owner of U.S. Patent Nos. 7,533,056, 7,212,999,
and 7,904,374. Each patent relates generally to a
graphical user interface (“GUI”) for electronic trading.
The ’056 and ’999 patents, which share a specification, disclose “a user interface for an electronic trading system that allows a re-mote trader to view trends
in the orders for an item, and provides the trading information in an easy to see and interpret graphical
format.” ’999 patent at 1:3–6. The ’374 patent, which
is from a different patent family, discloses “a display

App. 4
and trading method to ensure fast and accurate execution of trades by displaying market depth on a vertical or horizontal plane, which fluctuates logically up
or down, left or right across the plane as the market
prices fluctuate[].” ’374 patent at 3:54–58.
IBG LLC and Interactive Brokers LLC (collectively, “Petitioners”) petitioned for review of claims 1–
15 of the ’056 patent, claims 1–35 of the ’999 patent,
and claims 1–36 of the ’374 patent pursuant to the
Transitional Program for Covered Business Method
Patents (“CBM review”). Leahy-Smith Am. Invents
Act, Pub. L. No. 112-29, § 18(a) 125 Stat. 284, 329–31
(2011) (“AIA”). In each case, the Pa-tent Trial and Appeal Board instituted CBM review and issued final
written decisions holding that the patents meet the
criteria to be eligible for CBM review and the claims
are ineligible under 35 U.S.C. § 101. The Board additionally held that the claims of the ’056 patent would
have been obvious.
TT appeals from each decision. We have jurisdiction under 28 U.S.C. § 1295(a)(4)(A). For the following
reasons, we affirm.
DISCUSSION
I.

CBM Eligibility

Pursuant to § 18(a)(1)(E) of the AIA, the Board
may only institute CBM review for a patent that is a
CBM pa-tent. A CBM patent is “a patent that claims
a method or corresponding apparatus for performing
data processing or other operations used in the practice, administration, or management of a financial
product or service, except that the term does not include patents for technological inventions.” Id.

App. 5
§ 18(d)(1) (emphasis added). Pursuant to its authority
under § 18(d)(2), the Patent and Trademark Office
(“PTO”) promulgated 37 C.F.R. § 42.301(b), which requires the Board to consider the following on a caseby-case basis in determining whether a patent is for a
technological invention: “whether the claimed subject
matter as a whole recites a technological feature that
is novel and unobvious over the prior art” and
whether it “solves a technical problem using a technical solution.” We review the Board’s reasoning “under the arbitrary and capricious standard and its factual determinations under the substantial evidence
standard.” SightSound Techs., LLC v. Apple Inc., 809
F.3d 1307, 1315 (Fed. Cir. 2015).
The only issue of CBM eligibility that TT contests
is whether its patents are for technological inventions.
A. The ’999 and ’056 Patents
The Board relied on claim 1 of the ’999 patent and
claim 1 of the ’056 patent to determine that those patents are directed to a covered business method.
Claim 1 of the ’999 patent recites:
1. A computer based method for facilitating the
placement of an order for an item and for displaying transactional information to a user regarding the buying and selling of items in a system where orders comprise a bid type or an offer type, and an order is generated for a quantity of the item at a specific value, the method
comprising:
displaying a plurality of bid indicators,
each corresponding to at least one bid

App. 6
for a quantity of the item, each bid indicator at a location along a first scaled
axis of prices corresponding to a price
associated with the at least one bid;
displaying a plurality of offer indicators,
each corresponding to at least one offer
for a quantity of the item, each offer indicator at a location along the first
scaled axis of prices corresponding to a
price associated with the at least one offer;
receiving market information representing a new order to buy a quantity of
the item for a specified price, and in response to the received market information, generating a bid indicator that
corresponds to the quantity of the item
bid for and placing the bid indicator
along the first scaled axis of prices corresponding to the specified price of the
bid;
receiving market information representing a new order to sell a quantity of
the item for a specified price, and in response to the received market information, generating an offer indicator
that corresponds to the Quantity of the
item for which the offer is made and
placing the offer indicator along the first
scaled axis of prices corresponding to
the specified price of the offer;

App. 7
displaying an order icon associated with
an order by the user for a particular
quantity of the item;
selecting the order icon and moving the
order icon with a pointer of a user input
device to a location associated with a
price along the first scaled axis of prices;
and
sending an order associated with the order icon to an electronic trading exchange, wherein the order is of a bid
type or an offer type and the order has a
plurality of order parameters comprising the particular quantity of the item
and the price corresponding to the location at which the order icon was moved.
Claim 1 of the ’056 patent is similar. It recites:
1. A method of operation used by a computer for
displaying transactional information and facilitating trading in a system where orders comprise a bid type or an offer type, the method
comprising:
receiving bid and offer information for a
product from an electronic exchange,
the bid and offer information indicating
a plurality of bid orders and a plurality
of offer orders for the product;
displaying a plurality of bid indicators
representing quantity associated with
the plurality of bid orders, the plurality

App. 8
of bid indicators being displayed at locations corresponding to prices of the plurality of bid orders along a price axis;
displaying a plurality of offer indicators
representing quantity associated with
the plurality of offer orders, the plurality of offer indicators being displayed at
locations corresponding to prices of the
plurality offer orders along the price
axis;
receiving a user input indicating a default quantity to be used to determine a
quantity for each of a plurality of orders
to be placed by the user at one or more
price levels;
receiving a user input indicating a desired price for an order to be placed by
the user, the desired price being specified by selection of one of a plurality of
locations corresponding to price levels
along the price axis; and
sending the order for the default quantity at the desired price to the electronic
exchange.
We agree with the Board that these claims are directed to a covered business method and thus CBM
review was appropriate. These claims are directed to
a financial trading method used by a computer. We
see no technological invention in this software method
for trading. The claims require receiving bid and offer
information from an electronic exchange, displaying

App. 9
such information (“bid indicators” and “offer indicators”), and sending an order to the electronic exchange
based on a user input. The two claims differ mainly in
the way the user places the order (clicking and dragging an “order icon” to a location on the price axis versus selecting a point on the price axis). In each case,
the Board applied the considerations of § 42.301(b)
and found that the claims do not recite a technological
feature that is novel and unobvious over the prior art
and do not solve a technical problem with a technical
solution for essentially the same reasons.
TT argues the Board erred in applying the first
consideration of § 42.301(b) based on our decision in
Versata Development Group Inc. v. SAP America, Inc.,
793 F.3d 1306 (Fed. Cir. 2015). According to TT, Versata set aside the novelty and nonobviousness language of the regulation, leaving the definition of a
technological invention as one having a technological
feature that solves a technical problem using a technical solution. E.g., Appellant Br. 24–25, No. 18-1063
(citing 793 F.3d at 1326). We need not decide this issue because we agree with the Board that the considered claims do not solve a technical problem using a
technical solution. See Apple, Inc. v. Ameranth, Inc.,
842 F.3d 1229, 1240 (Fed. Cir. 2016) (“We need not
address this argument regarding whether the first
prong of 37 C.F.R. § 42.301(b) was met, as we affirm
the Board’s determination on the second prong of the
regulation….”).
TT argues the inventions addressed technical
problems in the way prior art GUI tools were constructed and operated. It claims the ’999 patent ad-

App. 10
dressed problems related to speed, efficiency, and usability, and the ’056 patent addressed problems related to intuitiveness, visualization, and efficiency.
We agree with the Board that the patents relate to the
practice of a financial product, not a techno-logical invention. The specification states that a successful
trader anticipates the market to gain an advantage,
’999 patent at 1:20–26, but doing so is difficult because it requires assembling data from various
sources and processing that data effectively, id. at
1:51–54. The invention solves this problem by displaying trading information “in an easy to see and interpret graphical format.” Id. at 2:3–6. The specification makes clear that the invention simply displays
information that allows a trader to process information more quickly. Id. at 1:59–62 (“[A] system is
needed in which trend information of market demand
for an individual item is provided to traders in an intuitive format which allows traders to quickly interpret how market demand is changing to an item.”); id.
at 2:39–41 (“The user interface of the present invention presents this information in an intuitive format,
allowing the trader to make in-formed decisions
quickly.”); id. at 2:57–62 (noting that displaying the
user’s trades in a different color “allows the trader to
quickly determine his or her relative position in the
marketplace”); id. at 3:37–44 (noting that “the trader
is able to make instantaneous decisions regarding an
item while receiving critical information about other
items or the past performance of the current item and
other indices,” which “is a major advantage over conventional methods of trading in which this information is not provided concurrently, and if presented
at all, is difficult to process quickly”). This invention

App. 11
makes the trader faster and more efficient, not the
computer. This is not a technical solution to a technical problem.
TT argues that the Board erred in the CBM review
of the ’999 patent when it declined to consider the testimony of its expert Mr. Christopher Thomas. Even if
TT was correct, the error would be harmless as
Mr. Thomas’ declaration acknowledges that conventional GUIs for electronic trading dynamically displayed trading information and permitted users to
trade directly from the interface. J.A. 8610–12, No.
18-1063. Nothing in his declaration asserts that the
claimed interface did anything other than present information in a new and more efficient way to traders.
Even if the Board had considered this testimony, it
could not have reached a different conclusion.
Accordingly, we agree that the ’999 and ’056 patents are not for a technological invention and thus
are eligible for CBM review.
B. The ’374 Patent
The Board relied on claim 1 of the ’374 patent to
determine that the patent is directed to a covered
business method. Claim 1 of the ’374 patent recites:
1. A method for facilitating trade order entry,
the method comprising:
receiving, by a computing device, market data for a commodity, the market
data comprising a current highest bid
price and a current lowest ask price
available for the commodity;

App. 12
identifying, by the computing device, a
plurality of sequential price levels for
the commodity based on the market
data, where the plurality of sequential
price levels includes the current highest
bid price and the current lowest ask
price;
displaying, by the computing device, a
plurality of graphical locations aligned
along an axis, where each graphical location is configured to be selected by a
single action of a user input device to
send a trade order to the electronic exchange, where a price of the trade order
is based on the selected graphical location;
mapping, by the computing device, the
plurality of sequential price levels to the
plurality of graphical locations, where
each graphical location corresponds to
one of the plurality of sequential price
levels, where each price level corresponds to at least one of the plurality of
graphical locations, and where mapping
of the plurality of sequential price levels
does not change at a time when at least
one of the current highest bid price and
the current lowest ask price changes;
and
setting a price and sending the trade order to the electronic exchange in response to receiving by the computing device commands based on user actions

App. 13
consisting of: (1) placing a cursor associated with the user input device over a
desired graphical location of the plurality of graphical locations and (2) selecting the desired graphical location
through a single action of the user input
device.
The Board determined that claim 1 of the ’374 patent does not recite a novel and unobvious technical
feature and does not solve a technical problem with a
technical solution. For purposes of our technological
invention analysis, we see no meaningful difference
between the ’374 claims and the ’999 and ’056 claims.
TT argues the ’374 invention solves a technical
problem with the design of conventional electronic
trading GUIs. According to TT, this GUI solves a
problem that might cause the trader to submit an order at a price he did not intend.
We agree with the Board that claim 1 does not
solve the alleged technical problem of missing an intended price. Claim 1 recites “displaying…a plurality
of graphical locations aligned along an axis” and
“mapping, by the computing device, the plurality of
sequential price levels to the plurality of graphical locations.” The only information required to be displayed are the plurality of graphical locations. The
Board explained that its institution decision set forth
its understanding that claim 1 “provide[s] no indication to a user of market information, such as price,
order quantity, or order type[,] and the graphical locations simply could be ‘black boxes’ with price values
associated with them, and no information provided to

App. 14
the user indicating that price value, the order quantity, or the order type.” J.A. 14–15, No. 17-2621 (internal quotation marks omitted). TT did not dispute
this characterization of the claim. Even if the specification recites an embodiment that solves this problem, as TT alleges, claim 1 does not.
Claim 1 also recites that “mapping of the plurality
of sequential price levels does not change at a time
when at least one of the current highest bid price and
the current lowest ask price changes.” This limitation
differs from what is stated in the specification when
discussing Figures 3 and 4, where it explains that
“[t]he values in the price column are static,” i.e., “they
do not normally change positions unless a re-centering command is received.” ’374 patent at 7:32–34. We
are not convinced that maintaining the same mapping “at a time” when the price changes solves the
purported problem, as it does not specify what happens immediately after the price changes.
TT also argues that the claimed invention improves speed, accuracy, and usability compared to
prior art GUI tools, which are necessarily rooted in
computer technology. As discussed, these purported
improvements are not technological. The specification
states that the invention “provide[s] the trader with
improved efficiency and versatility in placing, and
thus executing, trade orders for commodities in an
electronic exchange.” ’374 patent at 3:21–24. This is
focused on improving the trader, not the functioning
of the computer. Indeed, the specification acknowledges that the invention “can be implemented on any
existing or future terminal with the processing capability to perform the functions described,” id. at 4:4–

App. 15
6, and “is not limited by the method used to map the
data to the screen display,” which “can be done by any
technique known to those skilled in the art,” id. at
4:64–67.
We conclude that the Board’s reasoning that claim
1 did not solve a technical problem with a technical
solution was not arbitrary and capricious.
II. PATENT ELIGIBILITY
We review the Board’s legal conclusions de novo
and its factual findings for substantial evidence.
Ameranth, 842 F.3d at 1236.
“Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,”
may obtain a patent. 35 U.S.C. § 101. As a judicially
created exception to this provision, “[l]aws of nature,
natural phenomena, and abstract ideas are not patent
eligible.” Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573
U.S. 208, 216 (2014) (quoting Assoc. for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 589
(2013)). All inventions at some level “embody, use, reflect, rest upon, or apply” these concepts, but if an invention applies these concepts to a new and useful
end, it is patent eligible. Id. at 217. The Supreme
Court has established a two-step framework for “distinguishing patents that claim laws of nature, natural
phenomena, and abstract ideas from those that claim
patent-eligible applications of those concepts. Id.
“First, we determine whether the claims at issue are
directed to” a patent-ineligible concept. Id. If so, “we
consider the elements of each claim both individually
and ‘as an ordered combination’ to determine whether

App. 16
the additional elements ‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66, 78–79 (2012)).
A. The ’999 Patent
At Alice step one, we must “determine whether the
claims at issue are directed to a patent-ineligible concept.” Alice, 573 U.S. at 218. Under this inquiry, we
evaluate “the focus of the claimed advance over the
prior art” to determine if the character of the claim as
a whole, considered in light of the specification, is directed to excluded subject matter. Intellectual Ventures I LLC v. Capital One Fin. Corp., 850 F.3d 1332,
1338 (Fed. Cir. 2017) (quoting Affinity Labs of Tex.,
LLC v. DIRECTV, LLC, 838 F.3d 1253, 1257 (Fed.
Cir. 2016)).
The parties treat claim 1 of the ’999 patent as representative. The Board determined claim 1 is directed
to “the abstract idea of graphing (or displaying) bids
and offers to assist a trader to make an order.” J.A.
22, No. 18-1053. We agree. The claim’s preamble
states that it is a “computer based method for facilitating the placement of an order for an item and for
displaying transactional information to a user regarding the buying and selling of items.” The method steps
require “displaying” a plurality of bid and offer indicators along a “scaled axis of prices,” “receiving market information,” displaying that information along
the axis, and “displaying” information pertaining to a
user’s order. This essentially describes receiving information, which the specification admits was already
available to “market makers,” ’999 patent at 1:35–41,
and displaying that information. “[W]e have treated

App. 17
collecting information, including when limited to particular content (which does not change its character
as information), as within the realm of abstract
ideas.” Electric Power Grp., LLC v. Alstom S.A., 830
F.3d 1350, 1353 (Fed. Cir. 2016).
Claim 1 also recites sending an order by “selecting”
and “moving” an order icon to a location along the
price axis. This does not change our determination
that the claims are directed to an abstract idea. As the
Board determined, placing an order based on displayed market information is a fundamental economic practice. J.A. 23–24, No. 18-1063 (citing J.A.
3379–80, No. 18-1063). The fact that the claims add a
degree of particularity as to how an order is placed in
this case does not impact our analysis at step one. See
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 715
(Fed. Cir. 2014) (“Although certain additional limitations, such as consulting an activity log, add a degree
of particularity, the concept embodied by the majority
of the limitations de-scribes only the abstract idea of
showing an advertisement before delivering free content.”).
The fact that this is a “computer-based method”
does not render the claims non-abstract. The specification indicates the claimed GUI is displayed on any
computing de-vice. ’999 patent at 4:34–37, 6:6–8. As a
general rule, “the collection, organization, and display
of two sets of information on a generic display device
is abstract.” Interval Licensing LLC v. AOL, Inc., 896
F.3d 1335, 1345 (Fed. Cir. 2018). Relying principally
on Core Wireless Licensing S.A.R.L. v. LG Electronics,
Inc., 880 F.3d 1356 (Fed. Cir. 2018), TT argues the
claimed invention provides an improvement in the

App. 18
way a computer operates. We do not agree. The claims
of the ’999 patent do not improve the functioning of
the computer, make it operate more efficiently, or
solve any technological problem. Instead, they recite
a purportedly new arrangement of generic information that assists traders in processing information
more quickly. E.g., ’999 patent at 2:39–41. We conclude that the claims are directed to the abstract idea
of graphing bids and offers to assist a trader to make
an order.
At step two, we “consider the elements of each
claim both individually and ‘as an ordered combination’ to deter-mine whether the additional elements
‘transform the nature of the claim’ into a patent eligible application.” Alice, 573 U.S. at 218 (quoting Mayo,
566 U.S. at 78–79). Step two “looks more precisely at
what the claim elements add” to determine if “they
identify an inventive concept in the application of the
ineligible matter to which…the claim is directed.”
SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161, 1167
(Fed. Cir. 2018) (internal quotation marks omitted).
The abstract idea itself cannot supply the inventive
concept, “no matter how groundbreaking the advance.” Id. at 1171.
The Board held that the claims do not contain an
inventive concept. It determined that receiving market information is simply routine data gathering, and
displaying information as indicators along a scaled
price axis is well-understood, routine, conventional
activity that does not add something significantly
more to the abstract idea. J.A. 28, No. 18-1063 (citing,
e.g., J.A. 2804, 3301, 3379–80, No. 18-1063). It likewise determined that selecting and moving an icon is

App. 19
well-understood, routine, conventional activity. J.A.
28–29, No. 18-1063 (citing J.A. 3871–73, No. 181063). It considered the elements both individually
and as an ordered combination and concluded they
did not transform the claim into a patent eligible application of the abstract idea. We agree.
B. The ’056 Patent
The parties treat claim 1 of the ’056 patent as representative except as to dependent claims 5–7. Like
the ’999 patent, the Board at step one determined
claim 1 is directed to “the abstract idea of graphing
(or displaying) bids and offers to assist a trader to
make an order.” J.A. 20–21, No. 17-2257. We agree.
In claim 1 of the ’056 patent, the preamble states the
claim is a “method of operation used by a computer for
displaying transactional information and facilitating
trading.” The method steps require “receiving bid and
offer information,” “displaying” bid and offer indicators associated with the information, “receiving a user
input indicating a default quantity,” “receiving” a selection of a price along the price axis, and “sending”
the order.
We see no meaningful difference between these
limitations and the similar limitations of claim 1 in
the ’999 patent and thus reach the conclusion that it
too is directed to an abstract idea. While the claims
disclose different ways of submitting orders and use
slightly different terminology, these differences have
no effect on our eligibility determination at step one.
At step two, the Board held the elements, both individually and as an ordered combination, do not re-

App. 20
cite an inventive concept. TT argues the claims improve computer functionality by improving on the intuitiveness and efficiency of prior GUI tools. The specification makes clear that this invention helps the
trader process information more quickly. This is not
an improvement to computer functionality, as alleged
by TT. We see no merit to TT’s argument and affirm
the Board’s conclusion that claims 1–4 and 8–15 are
patent ineligible.
TT separately argues that the additional limitations of dependent claims 5–7 render the claims eligible. Claim 5 depends from claim 1 and further recites
“displaying an or-der icon at a location that corresponds to the desired price level along the price axis,
the order icon indicating the user’s order at the electronic exchange.” Claims 6 and 7 each depend from
claim 5 and recite further details about the bid and
offer indicators and the order icon. TT argues the “order icon” of claim 5 must be a distinct icon from the
bid and offer indicators. These limitations do not
change our analysis, as simply displaying all the bids
and offers in the aggregate, including the user’s bids
and offers, is not enough.
We have considered TT’s arguments and find them
to be without merit.
C. The ’374 Patent
At step one, the Board held that claim 1 of the ’374
patent is directed to the abstract idea of receiving user
input to send a trade order. It explained that “claim 1
only minimally requires collecting and analyzing information and includes no requirement that any of
that information is displayed. J.A. 16, No. 17-2621.

App. 21
This is because the claims require “displaying…graphical locations along an axis” but do not require the graphical locations to display the price levels that are mapped to them. Based on the Board’s
understanding, the graphical locations need not provide any information to the user. This understanding
of claim 1 was laid out in the institution decision, and
TT did not dispute it.
Much of TT’s argument at step one is the same as
its argument that the patent is for a technological invention. It argues claim 1 recites a specific, structured
GUI that solves the price-flipping problem of prior art
interfaces. It argues that such an improvement over
prior art interfaces inherently improves the functioning of a computer. These arguments are unavailing.
TT had an opportunity to dispute the Board’s characterization of the claims after institution but chose
not to do so. We agree with the Board that claim 1 is
directed to the abstract idea of receiving a user input
to send a trade order.
At step two, the Board held the elements of claim
1, individually or as an ordered combination, do not
add an inventive concept. It noted that the specification discloses that the invention can be implemented
“on any existing or future terminal or device” and describes the programming as insignificant. J.A. 20, No.
17-2621 (citing ’374 patent at 4:4–7, 4:60–67). It also
noted that TT acknowledged that conventional GUIs
for electronic trading permitted a trader to send an
order electronically. J.A. 20, No. 17-2621 (citing J.A.
269, No. 17-2621).

App. 22
TT repeats its argument that claim 1 improves
computer functionality by solving technological problems with prior art electronic trading interfaces. But
as previously explained, claim 1 does not solve any
purported technological problem. We have considered
TT’s remaining arguments with regard to claim 1 and
the dependent claims and find them to be without
merit.
III. Prior Decisions
TT argues that because non-precedential decisions
of this court held that other TT patents were for technological inventions or claimed eligible subject matter, we should too. We are not bound by non-precedential decisions at all, much less ones to different patents, different specifications, or different claims.
Each panel must evaluate the claims presented to it.
Eligibility depends on what is claimed, not all that is
disclosed in the specification. See Data Engine Techs.
LLC v. Google LLC, 906 F.3d 999, 1011–12 (Fed. Cir.
2018) (holding a claim from one patent ineligible and
claims from other patents that shared a specification
eligible).
IV. Constitutionality of CBM Review
TT argues the decisions should all be vacated because CBM review is unconstitutional. In a total of
four sentences in each of its opening briefs, TT raises
challenges based on a right to a jury under the Seventh Amendment, separation of powers under Article
III, the Due Process Clause, and the Taking Clause.
Such a conclusory assertion with no analysis to the
underlying challenge is insufficient to preserve the issue for appeal. See United States v. Great Am. Ins. Co.

App. 23
of N.Y., 738 F.3d 1320, 1328 (Fed. Cir. 2013) (“It is
well established that arguments that are not appropriately developed in a party’s briefing may be
deemed waived.”); SmithKline Beecham Corp. v. Apotex Corp., 439 F.3d 1312, 1320 (Fed. Cir. 2006) (holding that “mere statements of disagreement…do not
amount to a developed argument” sufficient to preserve the issue). We decline to address TT’s constitutional challenges.
CONCLUSION
We have considered TT’s other arguments and find
them unpersuasive. For the foregoing reasons, we
conclude that the patents at issue are CBM eligible
and that claims 1–15 of the ’056 patent, claims 1–35
of the ’999 patent, and claims 1–36 of the ’374 patent
are ineligible. In light of this conclusion, we need not
address Petitioners’ separate ground that the claims
of the ’056 patent would have been obvious.
AFFIRMED

App. 24
UNITED STATES PATENT AND
TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
_______________
IBG LLC, INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., TRADESTATION
SECURITIES, INC., TRADESTATION
TECHNOLOGIES, INC., and IBFX, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES
INTERNATIONAL, INC.,
Patent Owner.
____________
CBM 2015-00179
Patent 7,533,056 B2
_______________
Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and JEREMY M. PLENZLER, Administrative
Patent Judges.
MEDLEY, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

App. 25
I. INTRODUCTION
IBG LLC, Interactive Brokers LLC, TradeStation
Group, Inc., TradeStation Securities, Inc., TradeStation Technologies, Inc., and IBFX, Inc. (collectively,
“Petitioner”) filed a Petition requesting a covered
business method patent review of claims 1–15 of U.S.
Patent No. 7,533,056 B2 (Ex. 1001, “the ’056 patent”).
Paper 9 (“Pet.”).1 In response, Trading Technologies
International, Inc. (“Patent Owner”) filed a Patent
Owner Preliminary Response. Paper 21 (“Prelim.
Resp.”). Upon consideration of the Petition and Preliminary Response, we instituted trial as to claims 1–
15 of the ’056 patent. Paper 23 (“Dec.”).
Subsequent to institution, Patent Owner filed a
Corrected Patent Owner Response (Paper 81 (“PO
Resp.”)) and Petitioner filed a Reply (Paper 110 (“Pet.
Reply”)). Petitioner filed a Motion to Exclude (Paper
116 (“Pet. Mot. to Exclude”)) Exhibits 2300, 2301,
2304–2316, 2318–2324, 2326–2330, 2030, and 2032.
Patent Owner filed an Opposition to the Motion to Exclude (Paper 117 (“PO Exclude Opp.”)), and Petitioner
filed a Reply (Paper 120 (“Pet. Exclude Reply”)).
Patent Owner filed a Motion to Exclude (Paper 114
(“PO Mot. to Exclude”)) Exhibits 1003, 1007, and portions of Exhibits 1059 and 1060. Petitioner filed an
Opposition to the Motion to Exclude (Paper 118 (“Pet.
Exclude Opp.”)), and Patent Owner filed a Reply (Paper 121 (“PO Exclude Reply”)).

CQG, Inc. and CQGT, LLC, originally part of “Petitioner,” settled with Patent Owner. The proceeding was terminated with
respect to CQG, Inc. and CQGT, LLC. Paper 27.

1

App. 26
An oral hearing was held on October 19, 2016, and
a transcript of the hearing is included in the record
(Paper 134 (“Tr.”)).2
For the reasons that follow, we determine that Petitioner has shown by a preponderance of the evidence
that claims 1–15 of the ’056 patent are unpatentable.
A. Related Matters
The ’056 patent is involved in the following lawsuit: TT v. BGC Partners, Inc., et al., No. 1:10-cv00715 (N.D. Ill.). Pet. 3. In compliance with 37 C.F.R.
§ 42.302(a), Petitioner certifies that it has been sued
for infringement of the ’056 patent. Id. Patent Owner
does not challenge Petitioner’s certification that it has
been sued for infringement of the ’056 patent.
B. The ’056 Patent
The Specification of the ’056 patent describes a
user interface for an electronic trading system that allows a remote trader to view trends for an item, which
assists the trader to anticipate demand for an item.
Ex. 1001, 2:8–26.

After oral hearing, the Federal Circuit issued a decision, Trading Technologies International, Inc., v. CQG, INC., No. 20161616, 2017 WL 192716 (Fed. Cir. Jan. 18, 2017), determining
that the subject matter claimed in two other tangentially related
patents to the ’056 patent are patent-eligible under § 101. Petitioner and Patent Owner, with authorization (Paper 137), each
filed supplemental briefing addressing the impact of that decision on this proceeding. Paper 138 (“PO Br.”); Paper 140 (“Pet.
Br.”).
2

App. 27
C. Illustrative Claim
Claim 1 of the ’056 patent is the only independent
claim:
1. A method of operation used by a computer for displaying transactional information and facilitating
trading in a system where orders comprise a bid type
or an offer type, the method comprising:
receiving bid and offer information for a
product from an electronic exchange,
the bid and offer information indicating
a plurality of bid orders and a plurality
of offer orders for the product;
displaying a plurality of bid indicators
representing quantity associated with
the plurality of bid orders, the plurality
of bid indicators being displayed at locations corresponding to prices of the plurality of bid orders along a price axis;
displaying a plurality of offer indicators
representing quantity associated with
the plurality of offer orders, the plurality of offer indicators being displayed at
locations corresponding to prices of the
plurality of offer orders along the price
axis;
receiving a user input indicating a default quantity to be used to determine a
quantity for each of a plurality of orders
to be placed by the user at one or more
price levels;

App. 28
receiving a user input indicating a desired price for an order to be placed by
the user, the desired price being specified by selection of one of a plurality of
locations corresponding to price levels
along the price axis; and
sending the order for the default quantity at the desired price to the electronic
exchange.
D. Grounds of Unpatentability
We instituted review of claims 1–15 on the following grounds:
References
n/a
TSE3, Togher4,
Schott5, and
Cooper6
Silverman7,
Togher, Cooper,
and Hogan8

Basis
§ 101
§ 103

Challenged Claims
1-15
1-15

§ 103

1-15

TOKYO STOCK EXCHANGE OPERATION SYSTEM DIVISION, FUPURCHASING SYSTEM TRADING TERMINAL OPERATION GUIDE (1998) (EX. 1004) (“TSE”).
4 U.S. Patent No. 5,375,055, issued Dec. 20, 1994 (Ex. 1008)
(“Togher”).
5 U.S. Patent No. 5,619,631, issued Apr. 8, 1997 (Ex. 1009)
(“Schott”).
6 Alan Cooper, ABOUT FACE: THE ESSENTIALS OF USER INTERFACE DESIGN, First Edition (1995) (Ex. 1015) (“Cooper”).
7 U.S. Patent No. 5,136,501, issued Aug. 4, 1992 (Ex. 1010) (“Silverman”).
8 U.S. Patent No. 5,414,809, issued May 9, 1995 (Ex. 1011) (“Hogan”).
3

TURES/OPTION

App. 29
E. Covered Business Method Patent
A covered business method patent is “a patent that
claims a method or corresponding apparatus for performing data processing or other operations used in
the practice, administration, or management of a financial product or service, except that the term does
not include patents for technological inventions.”
Leahy-Smith America Invents Act, Pub. L. No. 11229, 125 Stat. 284, 329 (2011) (“AIA”) § 18(d)(1); see 37
C.F.R. § 42.302. To determine whether a patent is for
a technological invention, we consider “whether the
claimed subject matter as a whole recites a technological feature that is novel and unobvious over the prior
art; and solves a technical problem using a technical
solution.” 37 C.F.R. § 42.301(b). For purposes of determining whether a patent is eligible for a covered business method patent review, the focus is on the claims.
A patent need have only one claim directed to a covered business method to be eligible for review.
1. Financial Product or Service
Petitioner argues that the ’056 patent is a patent
that claims a method for performing data processing
or other operations used in the practice, administration, or management of a financial product or service.
Pet. 4–5. In particular, Petitioner argues that claim 1
requires receiving bid and offer information of a product from an electronic exchange, displaying the bid
and offer information to a user, receiving a user input
indicating a default quantity and price for an order(s),
and sending the order(s) to an electronic exchange. Id.
Petitioner asserts that each of these activities are inherently financial in nature, such as receiving bid and

App. 30
offer information and displaying it to a trader. Displaying market information, Petitioner asserts, is a
financial activity. Id. Receiving trader inputs for a
trade and sending a trade order to an exchange, Petitioner asserts, involves trading on an exchange, a financial activity. Id. (citing Ex. 1044, 324–325).
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by Petitioner’s showing, which we adopt as our own, that the
’056 patent is directed to a method for performing
data processing or other operations used in the practice, administration, or management of a financial
service. Here, Petitioner asserts, and we agree, that
claim 1 is directed to a method for displaying (e.g.,
“other operations”) market information to a trader,
which is a financial activity. Petitioner further asserts, and we agree, that claim 1 also is directed to
receiving trader inputs for a trade and sending a
trade order to an exchange (e.g., trading on an exchange, which also lies under the “other operations”
prong of CBM), which is a financial activity.
Patent Owner argues that neither the Petitioner
nor this panel has proposed any definition of the CBM
“data processing,” and that the claims of the ’056 patent are directed to a specific GUI tool, and not directed to data processing. PO Resp. 33. Patent
Owner’s argument is misplaced because the definition
for a covered business method patent is “a patent that
claims a method or corresponding apparatus for performing data processing or other operations used in
the practice, administration, or management of a financial product or service….” See, e.g., 37 C.F.R.

App. 31
§ 42.301(a), (emphasis added). It is clear to us that Petitioner relies on the “other operations” part of the definition to make its case. This is exemplified in showing that it is the displaying and trading on an exchange elements of claim 1 that Petitioner relies on
as showing “other operations” which are used in the
practice of a financial service (trading on an exchange). Patent Owner does not rebut this showing.
In any event, we are not persuaded by Patent
Owner’s argument that the claims are directed to a
specific GUI tool that displays information on a computer in a specified manner, but not concerned with
processing the information that is displayed. PO
Resp. 33–34 (citing Ex. 2168 ¶¶ 25–28). Claim 1 is directed to “[a] method of operation used by a computer
for displaying transactional information and facilitating trading in a system.” Patent Owner has not explained why a method of operation used by a computer does not include data processing. Rather, the
argument, and the testimony to which we are directed
(e.g., Ex. 2168 ¶¶ 25–28) are not commensurate in
scope with the claims. Indeed, neither Patent Owner
nor Eric Gould-Bear account for or discuss the specific
claim language. For all of these reasons, we are not
persuaded by Patent Owner’s arguments. We determine that Petitioner has shown sufficiently that claim
1 claims a method for performing data processing or
other operations used in the practice, administration,
or management of a financial product or service.
2. Exclusion for Technological Inventions
As indicated above, even if a patent includes
claims that would otherwise be eligible for treatment
as a covered business method, review of the patent is

App. 32
precluded if the claims cover only “technological invention[s],” as defined by 37 C.F.R. § 42.301(b). Petitioner asserts that the ’056 patent claims fail to recite
any technological feature that is novel and unobvious
over the prior art, and do not solve a technical problem with a technical solution. Pet. 5–9. In particular,
Petitioner argues that the claims recite trading software that is implemented using conventional computer hardware, servers, and networks, directing attention to a description in the ’056 patent that generically refers to “personal computers, terminals as part
of a network, or any other computing device” and no
specific hardware to carry out the invention. Id. at 6–
7 (citing Ex. 1001, 4:34–36). Petitioner also argues
that electronic trading was well known as of the filing
date. Id. (citing Ex. 1006, 1).
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by Petitioner’s showing, which we adopt as our own, that the
claimed subject matter as a whole does not recite a
technological feature that is novel and unobvious over
the prior art. We agree with Petitioner that claim 1 is
directed to well-understood, routine, and conventional steps of receiving market information and displaying it graphically to a trader, who uses the information to facilitate trading a commodity. Id.
For example, the “BACKGROUND OF THE INVENTION” section of the ’056 patent explains that it
was well known for an exchange to record all transactions for a particular item and to replay or post to the
individual traders outstanding bids with the highest
values and outstanding offers with the lowest value,

App. 33
along with a quantity specified for each order, to facilitate trading a commodity. Ex. 1001, 1:37–41.
There is no indication in the ’056 patent that the inventors invented gathering market information, displaying it to a trader, and using the information to
facilitate trading a commodity. The use of a computer
to perform these functions also was known in the art
at the time of the invention, and the ’056 patent does
not claim any improvement of a computing device.
Patent Owner argues that the ’056 patent is for a
technological invention because the claims, previously allowed by the Office, are directed to a novel and
nonobvious GUI tool. PO Resp. 29–30. Patent Owner
argues that it is irrelevant that the claimed invention
can be implemented on a conventional computer and
that use of known technologies does not render claims
non-technical. Id. at 29–30, 31–32. Rather the inquiry, Patent Owner argues, relates to the claimed
software solution (e.g., an improved GUI tool), which
here is “technology that improves, even transforms,
the computer so it performs functions it previously
could not.” Id. at 29–30. Patent Owner argues that
Petitioner ignores the claimed GUI improvement. Id.
We disagree with Patent Owner that Petitioner ignored the claimed GUI improvement. Petitioner need
not have addressed what is not present in the claims.
As explained above, claim 1 is directed to gathering
market information, displaying it to a trader, and the
trader using the information to facilitate trading a
commodity, features that were well known at the time
of the invention. Moreover, there is no specific computer, program, or processing described in the ’056
patent beyond what was known in the art at the time

App. 34
of the invention. Conversely, Patent Owner does not
explain how broad claim 1 recites a GUI improvement. Our reviewing court has held that “the presence
of a general purpose computer to facilitate operations
through uninventive steps” does not render a claim a
technological invention within the meaning of the
statute. See Versata dev. Grp., Inc. v. SAP Am., Inc.,
793 F.3d 1306, 1327 (Fed. Cir. 2015); SightSound
Techs., LLC v. Apple Inc., 809 F.3d 1307, 1315 (Fed.
Cir. 2015). So it is here.
Petitioner also argues that the claimed subject
matter does not solve a technical problem using a
technical solution, because the problem is a financial
one and the solution is to rearrange available market
data on a display. Pet. 8–9. Notwithstanding Patent
Owner’s arguments, which we address below, we are
persuaded by Petitioner’s showing, which we adopt as
our own, that the problem noted in the Specification
of the ’056 patent is not a technical one and no technical solution is used. The ’056 patent Specification
highlights the problem and importance of informing a
trader of certain stock market events so that the
trader may use such information to facilitate trading
a commodity. Ex. 1001, 2:19–26. However, informing
a trader of certain stock market trends or events is
more of a financial problem than a technical problem
to which there is not a technical solution.
Patent Owner argues that the problem solved was
with existing computer-trader interfaces, which is a
technical problem. PO Resp. 31. Patent Owner argues
that the claims recite a new GUI design addressing
the problem with the old GUI design and that the

App. 35
claimed GUI improvement necessarily claims a technical solution to a technological problem. Id. We are
not persuaded by Patent Owner’s arguments that the
claims are directed to solving a technical problem using a technical solution because Patent Owner’s arguments are not commensurate in scope to the breadth
of the claims.
For all of the foregoing reasons, the subject matter
of at least claim 1 is not a “technological invention”
under 37 C.F.R. § 42.301(b), and the ’056 patent is eligible for a covered business method patent review.
II. ANALYSIS
A. Claim Construction
In a covered business method patent review, claim
terms in an unexpired patent are given their broadest
reasonable construction in light of the specification of
the patent in which they appear. 37 C.F.R.
§ 42.300(b); Cuozzo Speed Techs., LLC v. Lee, 136 S.
Ct. 2131, 2142–46 (2016). Under the broadest reasonable interpretation, claim terms are generally given
their ordinary and customary meaning, as would be
understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic Tech.,
Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). Any special
definition for a claim term must be set forth with reasonable clarity, deliberateness, and precision. In re
Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). Only
terms which are in controversy need to be construed,
and only to the extent necessary to resolve the controversy. Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200
F.3d 795, 803 (Fed. Cir. 1999).

App. 36
Petitioner proposes constructions for “(offer and
bid) indicators representing quantity” and “indicators, icons, and tokens.” Pet. 15–16, 18–20. In our Decision to Institute, we determined that Petitioner’s
proposed interpretations for these terms were consistent with the broadest reasonable construction,
and, therefore, adopted Petitioner’s proposed interpretations. Dec. 11. Neither party has indicated that
our interpretations were improper and we do not perceive any reason or evidence that now compels any
deviation from our initial determinations. Accordingly, the following constructions apply to this Decision:
Claim Term

Construction

(offer and bid) indicators representing quantity

includes alphanumeric
and graphical indicators

indicators, icons, and tokens

a symbol such as an alphanumeric character
or a graphic representation of an item

For purposes of this decision, we find it necessary
to construe “price axis” (claim 1) and “order icon indicating the user’s order” (claim 5).
Price Axis
Claim 1 recites a price axis in several instances.
For example, claim 1 recites bid and offer indicators
being displayed along a price axis. Ex. 1001, 14:1–10.
Petitioner proposes that “price axis” be interpreted to
mean “a reference line for plotting prices, including
labeled, unlabeled, visible and invisible reference

App. 37
lines.” Pet. 14–15. Patent Owner does not disagree
with Petitioner’s proposed interpretation. Rather, Patent Owner argues that Petitioner’s proposed interpretation requires clarification “that a price axis cannot be a mere ordered list of prices that omits prices
when there are no orders at that price.” PO Resp. 5.9
Patent Owner urges a “clarification” to Petitioner’s
proposed interpretation that would require a price
axis to include intervening price levels even when
there are no bids/asks at those price levels. PO Resp.
4–7. This clarification, Patent Owner argues, is supported by the Specification of the ’056 patent and the
prosecution history. Id. For the following reasons, we
are not persuaded that Patent Owner’s proposed
“clarification” to Petitioner’s proposed interpretation
results in the broadest reasonable interpretation of
the term “price axis.”
We begin with the words of claim 1. Claim 1 recites
a price axis, but does not otherwise further expand on
what constitutes a price axis. At the outset, it appears
to us that Patent Owner does not dispute that a price
axis is a reference line for plotting prices, including
labeled, unlabeled, visible and invisible reference
lines. PO Resp. 7, n.1. We agree with Petitioner and
Patent Owner that the broadest reasonable interpretation of “price axis” is a reference line for plotting
In our Decision to Institute, and upon taking into consideration
the parties’ arguments and supporting evidence, we interpreted
“price axis” to mean “a reference line for plotting prices, including labeled, unlabeled, visible and invisible reference lines.” Dec.
11. Petitioner agrees with that interpretation, while Patent
Owner seeks to clarify the interpretation. Pet. Reply 1–12; PO
Resp. 4–7.

9

App. 38
prices, including labeled, unlabeled, visible and invisible reference lines for the reasons discussed in the
Petition and supported by record evidence. Pet. 14–
15; Ex. 1032 ¶ 71; Ex. 1016, 123–137. Patent Owner,
however, would additionally add that a list of prices
that do not contain gaps in between prices is not a
price axis. Id. at 5. In support of its contentions, Patent Owner argues that the vertical axis (the “value
axis”) seen in Figures 3A, 3B, 3C, and 4 of the ’056
patent describes that when there are no orders at a
particular value or price, the value or price level remains displayed. Id. at 5–6 (citing Ex. 2169 ¶¶ 37–
43).
We do not agree with Patent Owner that the term
“price axis” requires reading into the claim the additional “clarification” that a list of prices that do not
contain gaps in between prices is not a price axis.
There is nothing in the claim language itself that describes gaps or how data is arranged along the price
axis or what contains a price axis. The passages and
figures of the ’056 patent that Patent Owner (and Mr.
Thomas) directs attention to are examples or embodiments of what is claimed, and do not indicate that Patent Owner disclaimed or limited price axis to consist
of a list of prices that contains gaps in between prices.
Moreover, Mr. Thomas’ illustration of what constitutes a price axis is conclusory and not supported by
record evidence. Ex. 2169 ¶¶ 41–42. He has not directed attention to any evidence in support of his testimony as to what does and does not constitute a price
axis as illustrated in paragraph 41 of his declaration.
As pointed out by Petitioner, an axis may be represented by scale breaks or logarithmic scales, and thus,
need not retain an order of gaps as Patent Owner and

App. 39
Mr. Thomas contend. Pet. Reply 11–12; Ex. 1058,
103–109.
We also have considered Patent Owner’s arguments and evidence that remarks made by the then
applicant during prosecution of the application that
matured into the ’056 patent amount to an express
and clear disclaimer of the meaning for price axis. PO
Resp. 6–7 (citing Ex. 1002, 178–179; Ex. 2169 ¶ 39).
We are not persuaded by such arguments because the
comments made during prosecution have not been
shown to amount to a disclaimer of having a price axis
without gaps in between prices. For example, Patent
Owner directs attention to page 178 of Exhibit 1002
from the prosecution file in support of its disclaimer
argument. On that page, however, is quoted language
from several lines of the claim with an argument just
prior stating that Silverman does not describe an axis
of prices and all that is contained in the quoted language. Patent Owner has not explained sufficiently
why we should construe such general remarks as a
disclaimer. We also have reviewed the remarks made
by the then applicant that the applied prior art displayed prices for which orders exist, but do not agree
that Patent Owner has shown why such comments
amount to a clear disclaimer or disavowal of the scope
of the term “price axis.” To disavow claim scope, “the
specification or prosecution history [must] make clear
that the invention does not include a particular feature.” GE Lighting Sols., LLC v. AgiLight, Inc., 750
F.3d 1304, 1309 (Fed. Cir. 2014) (internal citation,
quotation, and alterations omitted).
For all of these reasons, we are not persuaded by
Patent Owner’s arguments regarding the claimed

App. 40
price axis. Based on the record before us, the broadest
reasonable interpretation in light of the specification
of a “price axis” is a reference line for plotting prices,
including labeled, unlabeled, visible and invisible reference lines.
Order Icon Indicating the User’s Order
Claim 5 depends directly from claim 1 and recites
“displaying an order icon at a location that corresponds to the desired price level along the price axis,
the order icon indicating the user’s order at the electronic exchange.” (Emphasis added). Patent Owner
argues that an “order icon indicating the user’s order
at the electronic exchange” should be interpreted to
mean “an icon indicating to the user that the user has
an order at a particular level along the price axis, distinct from other orders at the same level.” PO Resp. 9.
Petitioner argues that no construction of the phrase
is necessary and that Patent Owner’s construction is
inconsistent with Figure 3A, which shows the user’s
order aggregated with other users. Pet. Reply 12. Petitioner further argues that any icon that indicates a
user’s order, whether aggregated with other orders or
separate, meets the claim term. Id.
We agree with Petitioner. There is nothing in the
language of claim 5 that requires indicating the specific user order (separating it out from all other orders) or indicating to the user that it is his order. If
an order is placed by a user, resulting in the total
quantity of orders placed at that same price to increase, the total number would indicate an increase,
and thus, indicate the user’s order. Patent Owner argues that because claim 1 recites bid indicators and

App. 41
offer indicators, an order icon must represent something distinct from the bid/offer indicators. PO Resp.
7–8. But even Patent Owner does not explain why an
order icon cannot be one of the offer or bid indicators.
Indeed, for the embodiment that Patent Owner directs attention to there is no distinction between offer
and bid indicators with order icons (an order icon is
one of the indicators). Id. We agree with Petitioner
that a person of ordinary skill in the art would have
understood the ’056 patent to use “icons” and “indicators” interchangeably. See, e.g., Pet. 18–20. Thus, we
disagree with Patent Owner that the “order icon” of
claim 5 cannot be one of the offer or bid indicators.
For all of the above reasons, we decline to interpret an “order icon indicating the user’s order at the
electronic exchange” to mean “an icon indicating to
the user that the user has an order at a particular
level along the price axis, distinct from other orders
at the same level.”
B. The Level of Ordinary Skill in the Art
Notwithstanding the parties’ submissions of the
level of ordinary skill in the art10, we find that the
level of ordinary skill in the art is reflected by the
prior art of record. See Okajima v. Bourdeau, 261 F.3d
1350, 1355 (Fed. Cir. 2001); In re GPAC Inc., 57 F.3d

The parties’ submissions focus primarily on the degrees, occupations, and experience, as opposed to what the hypothetical
person of ordinary skill in the art would have known at the time
of the invention. As such, and as the triers of fact, based on the
record before us, we do not find such information particularly
helpful.
10

App. 42
1573, 1579 (Fed. Cir. 1995); In re Oelrich, 579 F.2d 86,
91 (CCPA 1978).
C. 35 U.S.C. § 101 Asserted
Ground of Unpatentability
Petitioner contends that claims 1–15 of the ’056
patent are unpatentable under 35 U.S.C. § 101. Pet.
24–38. Patent Owner opposes. PO Resp. 11–28.
Section 101 of Title 35, United States Code, provides: “Whoever invents or discovers any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to the
conditions and requirements of this title.”
The Supreme Court recognizes three exceptions to
these statutory classes: laws of nature, natural phenomena, and abstract ideas. Alice Corp. Pty. Ltd. v.
CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014); Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S.
Ct. 1289, 1293 (2012). Although an abstract idea by
itself is not patentable, a practical application of an
abstract idea may be deserving of patent protection.
Alice, 134 S. Ct. at 2355. We must “consider the elements of each claim both individually and ‘as an ordered combination’ to determine whether the additional elements ‘transform the nature of the claim’
into a patent-eligible application.” Id. (citing Mayo,
132 S. Ct. at 1298, 1297). The claim must contain elements or a combination of elements that are “‘sufficient to ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
idea] itself.’” Id. (citing Mayo, 132 S. Ct. at 1294).

App. 43
1.

Abstract Idea

Petitioner argues that claim 1 encompasses the
abstract idea of graphing (or displaying) bids and offers to assist a trader to make an order, which is a
fundamental economic practice. Pet. 27. Petitioner
further argues that “[n]ot only is the abstract concept
a fundamental economic practice, but it is an abstract
idea of itself because it can be performed using pen
and paper, or even in a trader’s mind.” Id. (citing CyberSource Corp. v. Retail Decisions, 654 F.3d 1366,
1372 (Fed. Cir. 2011) (unpatentable mental process
performed with aid of pen and paper); Ex. 1032 ¶¶ 91,
205; Ex. 1010, Silverman at FIG. 4 (prior-art plot of
same); Ex. 1029, 44–46 (showing a page in a specialist’s book that plots bids and asks along a price axis)).
In further support of Petitioner’s arguments that the
claims are directed to an abstract idea because it can
be performed in a trader’s mind, Petitioner directs attention to a description in the background of the invention section of the ’056 patent stating that “the
successful trader anticipates the rise or fall of the
value of an item and performs his or her own transaction before the rest of the market is aware of the
item’s potential gain or loss in value.” Ex. 1001, 1:28–
33.
Petitioner further argues that the abstract idea
analysis does not change merely because the claims
include details such as displaying bid and offer indicators at locations corresponding to prices of bid and
offer orders along the price axis, because those limitations are equally abstract ideas or are irrelevant because they merely provide a degree of particularity.

App. 44
Id. at 28 (citing Ultramercial, 772 F.3d at 715 (an abstract idea is not concrete merely because the claims
include a degree of particularity.)). Lastly, Petitioner
argues that the claims do not solve any technological
problem but rather are directed to solving a business
problem, i.e., anticipating market movement by
providing a graphical representation of what a trader
has done in his mind since trading began. Id. at 29
(citing Ex. 1001, 1:56–60).
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over the
prior art’ to determine if the claim’s ‘character as a
whole’ is directed to excluded subject matter.’” Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d 1253,
1257 (Fed. Cir. 2016) (quoting Elec. Power Grp., LLC
v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016);
see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335 (Fed. Cir. 2016). There is no definitive rule to
determine what constitutes an “abstract idea.” Rather, the Federal Circuit has explained that “both [it]
and the Supreme Court have found it sufficient to
compare claims at issue to those claims already found
to be directed to an abstract idea in previous cases.”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016); see also Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir.
2016) (explaining that, in determining whether
claims are patent-eligible under § 101, “the decisional
mechanism courts now apply is to examine earlier
cases in which a similar or parallel descriptive nature
can be seen—what prior cases were about, and which
way they were decided”).

App. 45
Notwithstanding Patent Owner’s arguments,
which we address below, we determine that Petitioner
has shown11 that claim 1 is directed to the abstract
idea of graphing (or displaying) bids and offers to assist a trader to make an order, which is a fundamental
economic practice. Claim 1, the sole independent
claim, recites in the preamble a method for displaying
transactional information and facilitating trading in
a system. The method steps include receiving bid and
offer information of a product from an electronic exchange, displaying the bid and offer information, receiving a user input indicating a default quantity and
price for an order, and sending the order to the electronic exchange. In essence, all that claim 1 requires
was well known in the prior art many years before the
claimed invention. We agree with Petitioner that
claim 1 encompasses the abstract idea of graphing (or
displaying) bids and offers to assist a trader to make
an order, steps that can be performed using pen and
paper, or even in a trader’s mind. Pet. 27–28 (citing
CyberSource Corp. v. Retail Decisions, 654 F.3d 1366,
1372 (Fed. Cir. 2011) (unpatentable mental process
performed with aid of pen and paper); Ex. 1032 ¶¶ 91,
205; Ex. 1010, Silverman at FIG. 4 (prior-art plot of
same); Ex. 1029, 44–46 (showing a page in a specialist’s book that plots bids and asks along a price axis);
Ex. 1001, 1:28–33. We further agree with Petitioner
that the ’056 patent claims simply provide a graphical
As explained above, determining whether a claim is directed
to an abstract idea calls upon us to look at the focus of the
claimed advance over the prior art. In order to do so, we must
make findings of fact as to the prior art at the time of the invention. Those facts must be supported by a preponderance of the
evidence. 35 U.S.C. § 326(e).
11

App. 46
representation on a computer of what traders have
done in their minds since trading began. Pet. 29. Such
a system also was well known in the art at the time of
the claimed invention. See, e.g., Ex. 1010 (Silverman);
see also infra, determining that Silverman in combination with other references render obvious the challenged claims.
When we compare claim 1 at issue to those claims
already found to be directed to an abstract idea in previous cases, we are persuaded that claim 1 is more
similar to those claims found to encompass an abstract idea than those determined not to encompass
an abstract idea.12 Claim 1 is similar to the claims in
Electric Power, which did “not go beyond requiring
the collection, analysis, and display of available information in a particular field, stating those functions in
general terms, without limiting them to technical
means for performing the functions that are arguably
an advance over conventional computer and network
technology.” Elec. Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350, 1353 (Fed. Cir. 2016).
The claims and specification before us are much broader than
the patent specifications and claims involved in Trading Technologies International, Inc., v. CQG, INC., CQG, LLC, FKA
CQGT, LLC, No. 2016-1616, 2017 WL 192716 (Fed. Cir. Jan. 18,
2017), where the court implied that even those narrower claims
are on the line between patent eligibility and ineligibility (see id.
at *4 (noting the “close question[] of eligibility”)). The Specification of the ’056 patent is different, and does not claim priority to
the applications that matured into the patents involved in that
decision. Thus, comparing the claims of the patents involved in
Trading Technologies is not particularly helpful here, because
the claims here are nothing more than “displaying, and selecting
data or information that is visible on the [graphical user interface] device.” Trading Technologies, 2017 WL 192716 at *2.
12

App. 47
In comparison, claim 1 is unlike the claims at issue
in DDR Holdings, LLC v. Hotels.com, L.P., 773 F.3d
1245 (Fed. Cir. 2014) and Enfish. In DDR Holdings,
the court determined that the claims did not embody
a fundamental economic principle or a longstanding
commercial practice. The claims at issue in DDR
Holdings were directed to retaining website visitors,
which the court determined was a problem “particular
to the Internet.” DDR Holdings, 773 F.3d at 1257. The
court also determined that the invention was “necessarily rooted in computer technology in order to overcome a problem specifically arising in the realm of
computer networks,” and that the claimed invention
did not simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue was
directed to a data storage and retrieval system for a
computer memory. Enfish, 822 F.3d at 1336–37. The
court determined that the claims were directed to an
improvement in the functioning of a computer and
were not simply adding conventional computer components to well-known business practices. Id. at 1338.
Here, claim 1 is directed to a fundamental economic
principle or a longstanding commercial practice and
not directed to an improvement in the computer.
We have considered all of Patent Owner’s arguments regarding why the claims are not directed to an
abstract idea but are not persuaded by such arguments. PO Resp. 11–21. Patent Owner argues that
Petitioner oversimplifies the claims and ignores the
structure and functionality recited in the claims, such
as the “bid indicators being displayed at locations corresponding to prices of the plurality of bid orders” and
the “offer indicators being displayed at locations corresponding to prices of the plurality of offer orders

App. 48
along the price axis,” elements that Patent Owner
deems to be “GUI elements.” Id. at 11–12. Here, bid
and offer indicators are broad terms, whereby an indicator can simply be an alphanumeric symbol. Moreover, none of the claims recite a “GUI” or graphical
user interface. Arguably, the only claim 1 step that
would be in the realm of requiring a GUI, would be
the step of “receiving a user input indicating a desired
price…the desired price being specified by selection of
one of a plurality of locations corresponding to price
levels along the price axis.” (Emphasis added). We
disagree that Petitioner has oversimplified the claims
and ignores the structure and functionality recited in
the claims. Petitioner’s arguments are commensurate
in scope with the breadth of the claims.
Nor are we persuaded by Patent Owner’s arguments that the claimed GUI improves the computer
because it allows the computer to be used in new and
inventive ways. PO Resp. 13–16. Patent Owner’s arguments are general and not specific to the claim language before us. In any event, to the extent that Patent Owner asserts that claims that require a GUI are
automatically patent eligible, that assertion is not
commensurate with our reviewing court’s holdings on
the issue of patent eligibility. For example, the claim
at issue in Affinity Labs recited an application that
enabled a cellular telephone to present a GUI displaying a list of media sources that included selectable
items for selecting a regional broadcasting channel.
Affinity, 838 F.3d at 1255–56. The claim also recited
that the cellular telephone was enabled to transmit a
request for the selected regional broadcasting channel. Id. at 1256. In Ameranth, the claim at issue recited a GUI that displayed menu items in a specific

App. 49
arrangement, a hierarchical tree format. Menu items
were selected to generate a second menu from a first
menu. Apple, Inc., v. Ameranth, Inc., 842 F.3d 1229,
1234 (Fed. Cir. 2016). In both Affinity Labs and
Ameranth, the court determined that the claims were
not directed to a particular way of programming or
designing the software, but instead merely claim the
resulting systems and determined that the claims are
not directed to a specific improvement in the way computers operate. Affinity Labs, 838 F.3d at 1260–61,
Ameranth, 842 F.3d at 1241. The same is true here in
that the claims are not directed to any particular way
of programming or designing software, but merely
claim the resulting system and not any specific improvement in the way a computer operates.
Patent Owner argues that the claims are not to an
abstract idea because they are not directed to a fundamental idea, longstanding commercial practice, a
business method, or a generic GUI. PO Resp. 16–20.
Patent Owner argues that in contrast to many other
cited cases, the claims here are directed to the specific
structure, make-up, and functionality of a particular
GUI. Id. But the only specific feature that Patent
Owner discusses is the claimed price axis and even
then Patent Owner fails to explain why the recitation
of a price axis takes the claim out of abstractness. A
price axis is nothing more than a reference line for
plotting prices. It can include labeled, unlabeled, visible, and invisible reference lines. There is nothing apparently special about an axis, even a price axis, and
Patent Owner has failed to explain sufficiently why a
price axis removes the abstractness from the claims.
This is true even if Patent Owner’s narrow proposed
“clarification” were adopted.

App. 50
We have considered Patent Owner’s arguments regarding dependent claims 5–7, and why those claims
“recite even more structure and function of the specific GUI tool and are even less directed to any abstract idea.” PO Resp. 20–21. Patent Owner’s arguments are premised on a narrow construction of claim
5 requiring “an additional indicator beyond the bid/offer indicators to indicate to a user something about
that user’s own order.” Id. at 20. For reasons provided
above, we decline to adopt Patent Owner’s narrow
construction. In any event, and even assuming the
narrow construction is the correct construction, Patent Owner has not shown how a an indicator indicating to a user something about that user’s own order
makes claims 5–7 less abstract. Lastly, we disagree
with Patent Owner that Petitioner did not address
sufficiently the dependent claims in the Petition. Petitioner addressed all of the dependent claims. See,
e.g., Pet. 37–38.
Inventive Concept
To be patent eligible, a claim to an otherwise abstract idea must recite additional elements that constitute an inventive concept. Alice, 134 S. Ct. at 2357.
One looks to “[t]he elements of each claim both individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of the claim’ into a patent-eligible application.”
Mayo, 132 S. Ct. at 1297–98. The additional elements
must be more than “well-understood, routine, conventional, activity.” Mayo, 132 S. Ct. at 1298.
Petitioner argues that the claim 1 steps of receiving bid and offer information, receiving an order including a default quantity and a selected price, and

App. 51
sending the order to an exchange to be executed were
well-understood, routine, and conventional activity
that adds nothing significant to the abstract idea. Id.
30–31. Petitioner further argues that the claims are
not rooted in computer technology because they do not
overcome a problem specifically arising in the realm
of computers or computer networks. Id. at 33 (citing
DDR Holdings, 773 F.3d at 1257). Petitioner argues
that the ’056 patent specification admits that the
problem was business, financial or trader-related,
and not arising in computers or otherwise dependent
upon computer components, and to the extent that a
computer is used it is used only for its basic function
such as displaying data and accepting user inputs. Id.
at 34–35; Ex. 1032 ¶ 205.
Lastly, Petitioner argues that dependent claims 2–
15 add only well-understood, routine, conventional
post-solution activity to the abstract idea of claim 1,
such as displaying a sent order (claim 5), displaying
bids, offers, and an order with different characteristics (claim 6), and displaying the quantity of an order
(claim 7). PO Resp. 37–38.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded that Petitioner has shown that none of the additional claim elements in claim 1 or dependent claims 2–15 transforms the nature of the claims into a patent-eligible
application. Claim 1 recites “a method of operation
used by a computer for displaying transactional information and facilitating trading in a system where orders comprise a bid type or an offer type.” Ex. 1001,
13:60–62. The ’056 patent specification does not describe any specific computer, program, or processing

App. 52
beyond what was known in the art at the time of the
invention for implementing the claimed system.
Moreover, and to the extent that the claims require a
GUI, a mere recitation of a GUI does not make the
claim patent eligible. See Affinity Labs, 838 F.3d at
1257–58, Ameranth, 842 F.3d at 1236–1242, Internet
Patent Corp., 790 F.3d at 1348–1349. A recitation of a
generic GUI merely limits the use of the abstract idea
to a particular technological environment. “Limiting
the field of use of the abstract idea to a particular existing technological environment does not render any
claims less abstract.” Affinity Labs, 838 F.3d at 1258
(citing Alice, 134 St. Ct. at 2358; Mayo, 132 S. Ct. at
1294).
Claim 1 also recites receiving bid and offer information for a product from an electronic exchange, but
does not specify any particular method for doing so.
The claim requires displaying a plurality of bid indicators and offer indicators along a price axis. Essentially, these limitations require plotting bids and offers for a product along a price axis. Plotting information along an axis was a well-understood, routine,
conventional, activity. Claim 1 further recites receiving a user input indicating a quantity to be used for
each of a plurality of orders to be placed, and indicating a desired price for an order to be placed by selecting one of the locations corresponding to the price
along the price axis. Inputting data into a computer
was also a well-understood, routine, conventional activity. Finally, the step of sending an order for the
quantity and price to the electronic exchange was conventional and well known in the art. See, e.g., Ex.
1010. The additional elements must be more than

App. 53
“well-understood, routine, conventional, activity.”
Mayo, 132 S. Ct. at 1298.
We also agree with Petitioner that none of claims
2–15 transforms the nature of the claims into a patent-eligible application. For example, claims 2–4 recite the further steps of accepting and sending additional orders in the same manner as claim 1. We further agree that claims 5–15 relate to conventional
pre-or post-solution activity such as displaying of data
(claims 5–9 and 14), basic GUI techniques (claims 11–
13 and 15), or conventional point and click technology
as recited in claim 10. We agree that these claims recite well-understood, routine, conventional extra-solution activity that are not related to an inventive concept.
Patent Owner argues that the claims pass part
two of Alice because they recite an inventive concept.
PO Resp. 21–28. But in making such arguments, Patent Owner does not explain sufficiently what about
the claims qualifies as an inventive concept. For example, Patent Owner describes the claims as reciting
“structural details of a specific GUI that functions differently from prior art GUIs to solve GUI-centric
problems.” Id. at 24. Patent Owner goes on to argue
that the “solution to these problems is not only rooted
in computer technology, but is new computer technology itself; a new GUI with the claimed structure,
make-up, and functionality.” Id. (emphasis added). In
making similar arguments regarding features and
claims that are not before us in this proceeding (see,
e.g., PO Resp. 25–28), Patent Owner fails to focus on
the claims before us or explain with respect to the ac-

App. 54
tual elements of these claims why such elements constitute an inventive concept. We are not persuaded by
Patent Owner’s arguments.
The individual elements of the claims do not transform the nature of the claims into a patent-eligible application. They do not add significantly more to the
abstract idea or fundamental economic practice. Contrary to Patent Owner’s argument, the claims simply
recite the use of a generic computer with routine and
conventional functions. Further, considering all of the
elements as an ordered combination, we determine
that the combined elements also do not transform the
nature of the claims into a patent-eligible application.
For all of the above reasons, Petitioner has shown
sufficiently that claims 1–15 of the ’056 patent are not
directed to patent eligible subject matter under 35
U.S.C. § 101.
D. Obviousness of Claims 1–15 over TSE,
Togher, Schott, and Cooper
Petitioner contends that claims 1–15 are unpatentable under 35 U.S.C. § 103 over TSE, Togher,
Schott, and Cooper. To support its contentions, Petitioner provides explanations as to how the prior art
meets each claim limitation. Pet. 38–60. Petitioner
also cites the Declaration of Kendyl A. Román for support. See Ex. 1032 ¶¶ 114–120.
Patent Owner argues that Petitioner fails to establish that TSE was publically accessible, and, thus,
prior art. PO Resp. 34–41. Patent Owner also argues
that it conceived of the invention prior to the TSE
date, and diligently reduced the invention to practice.
Id. at 41–55. Patent Owner submits arguments and

App. 55
objective evidence of nonobviousness. Id. at 55–64.
Lastly, Patent Owner separately argues for the patentability of claims 5–7. Id. at 64–68.
TSE as prior art
Petitioner argues that TSE is prior art under 35
U.S.C. § 102(a). Pet. 21–22. In support of its showing
that TSE qualifies as prior art, Petitioner relies on the
November 21, 2005, deposition testimony of Atsushi
Kawashima taken during litigation between Patent
Owner and a third party, eSpeed, Inc. Id.; Ex. 1007.
Whether a document qualifies as a printed publication under 35 U.S.C. § 102(a) is a question of law
based on underlying findings of fact. In re Enhanced
Sec. Research, LLC, 739 F.3d 1347, 1354 (Fed. Cir.
2014) (citing In re Hall, 781 F.2d 897, 899 (Fed. Cir.
1986)). The Federal Circuit “has interpreted § 102
broadly, explaining that even relatively obscure documents qualify as prior art so long as the public has a
means of accessing them.” Id. (citing Hall, 781 F.2d at
899).
Our leading case on public accessibility is In re
Hall, 781 F.2d 897 (Fed. Cir. 1986). In Hall we
concluded that “a single cataloged thesis in one
university library” constitutes “sufficient accessibility to those interested in the art exercising
reasonable diligence.” Id. at 900. Thereafter, in
Constant v. Advanced Micro–Devices, Inc., we
explained that “[a]ccessibility goes to the issue
of whether interested members of the relevant
public could obtain the information if they
wanted to.” 848 F.2d 1560, 1569 (Fed. Cir.
1988). Therefore, “[i]f accessibility is proved,

App. 56
there is no requirement to show that particular
members of the public actually received the information.” Id.
Enhanced Sec. Research, LLC, 739 F.3d at 1354. The
determination of whether a document is a “printed
publication” under 35 U.S.C. § 102 involves a case-bycase inquiry into the facts and circumstances surrounding its disclosure to members of the public. In re
Klopfenstein, 380 F.3d 1345, 1350 (Fed. Cir. 2004).
TSE is entitled “Futures/Option Purchasing System Trading Terminal Operation Guide” of the “Tokyo
Stock Exchange Operation System Division.” Ex.
1004, 1.13 In the middle of page 5 is the annotation
“August, 1998” above the words “Tokyo Stock Exchange Operation System Division.” Id. at 5. Petitioner argues that TSE is prior art under 35 U.S.C.
§ 102(a) because it was published in August of 1998
by giving two copies to each of the about 200 participants in the Tokyo Stock Exchange, who were free to
do whatever they wanted with their copies of the publication. Pet. 21–22 (citing Ex. 1007, 0012–33).
In support of its arguments regarding TSE as prior
art, Petitioner directs us to portions of Mr. Kawashima’s testimony. At the time of his testimony,
Mr. Kawashima testified that he was employed by the
Tokyo Stock Exchange and was so at the time of the
TSE manual, August 1998. Ex. 1007, 0005–0011. He
further testified that TSE “is the current TSE futures
options trading system terminal document, manual”
that was prepared August of 1998 by the Tokyo Stock
References are to pages located at center bottom of the English
translation of TSE (Ex. 1004).
13

App. 57
Exchange and that he was in charge of preparing the
document. Ex. 1007, 0010–0011. Mr. Kawashima also
testified that the purpose of the manual was that “in
1998 we replaced the futures options trading system
and so this new manual was prepared because there
were changes to the way the trading terminals were
operating.” Id. at 0012. Kawashima further testified
that the manual was distributed to “participants” in
August of 1998, who were “securities companies for
banks who are able to carry out futures options trading at the TSE” and that the “manual was given to
explain those changes” made with respect to the operation of the TSE trading system and terminals. Id. at
0012, 0014. Mr. Kawashima testified that the manual
was given to around 200 “participant” companies—all
companies that conduct futures option trading on the
Tokyo Stock Exchange. Id. at 0013.14 According to Mr.
Kawashima, two copies were distributed to each company, by having a person from each company come to
the Tokyo Stock Exchange operating system section
to pick up their copies of the manual, and that there
was no restriction on what the participants could do
with the 1998 manual once they received it. Id. at
0014–0015. Mr. Kawashima personally distributed
the TSE manual to some of the participants. Ex. 2163,
60:13–24.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by Petitioner’s showing, which we adopt as our own, that
TSE qualifies as prior art under 35 U.S.C. § 102(a).
We understand the then “participants” included such companies as Goldman Sachs Securities, Merrill Lynch, and Morgan
Stanley. Ex. 2163, 58:5–17; Ex. 2169 ¶ 22.
14

App. 58
Petitioner asserts, with supporting evidence, that
TSE was distributed to participants in the Tokyo
Stock Exchange. Pet. 21; Ex. 1007, 0012, 0014. Based
on the evidence before us, the participants were securities companies for banks. The purpose of the distribution of the manual was to alert the securities companies of changes to the way the trading terminals of
the Tokyo Stock Exchange operated. Ex. 1007, 0012,
0014. Indeed, TSE is a user manual that includes for
example, in Chapter 2, instructions for terminal system configuration to enable a participant, such as a
security company to connect to the Tokyo Stock Exchange. Ex. 1004, 10–25. Chapter 15, entitled “Response To A Problem” provides detailed explanations
should a problem arise with terminal equipment,
communication circuit difficulties, central system recovery difficulties, etc., along with in-house procured
terminal problem handling instructions. Id. at 5.
Thus, TSE is more than a user manual for how to
trade on the Tokyo Stock Exchange, but also includes
how to connect electronically to the Tokyo Stock Exchange. The evidence that is before us, both circumstantial and direct, supports a finding that TSE was
made accessible to securities companies and all of the
personnel in such a company, who would have employed technical support personnel, such as computer
scientists or engineers, who would have needed a copy
of the TSE manual to configure their own system to
communicate electronically, and to continue to trade
securities, with the Tokyo Stock Exchange.15 Thus,

We made a similar finding in our Decision to Institute (Dec.
19), thereby putting Patent Owner on notice of such finding in
support of our determination that TSE was publically accessible.
15

App. 59
the securities companies would have included computer scientists or engineers, as well as traders. We
find that all such persons who worked at the securities companies would have been interested members
of the relevant public.
Patent Owner’s Contentions16
Patent Owner argues that the evidence fails to
prove TSE is prior art. PO Resp. 34–41. We begin by
addressing Patent Owner’s assertions that Mr. Kawashima’s testimony should be given little or no
weight because his testimony is not corroborated and
he is an interested witness. Id. at 39–41. Patent
Owner argues that Kawashima’s employer—the Tokyo Stock Exchange—challenged Patent Owner’s
Japanese counterpart to U.S. Patent No. 6,766,304 by
providing TSE to the Japanese Patent Office. Id. at
40. Patent Owner further argues that the Tokyo Stock
Exchange wanted the Japanese Patent Office to rely
on “these documents” to prevent TT from obtaining
the Japanese patent. Id. at 40–41 (citing Ex. 2163,
39:23–40:20, 42:14–43:10; Ex. 1007, 0110:10–14). Patent Owner concludes that because Kawashima’s employer tried to use TSE to prevent TT from obtaining
the 6,766,304 patent, Kawashima is not disinterested.
Id. at 41.
We are not persuaded that Kawashima is an interested witness and that his testimony should be given
little weight. First, the patent involved here is not the
Patent Owner does not address such finding or provide evidence
to rebut our finding in that regard. Cuozzo, 136 S. Ct. at 2141.
16 Patent Owner makes unpersuasive evidentiary arguments as
well, which we address in connection with Patent Owner’s Motion to Exclude TSE (Ex. 1003), infra.

App. 60
same as the patent involved before the Japanese Patent Office and we do not understand what Patent
Owner means by “these documents.” In any event, Patent Owner has not shown that what occurred in a
proceeding before the Japanese Patent Office involving a different patent is relevant to the facts of this
proceeding. Patent Owner has not shown sufficiently
that Mr. Kawashima had an interest, himself, regarding the outcome of the Japanese Patent Office proceeding. Even assuming that the Tokyo Stock Exchange had an interest in that earlier proceeding, it
does not follow necessarily that Mr. Kawashima himself had an interest in it as well. We have considered
the evidence to which we are directed, but do not find
that evidence (passages from Mr. Kawashima’s original and cross examination) to support Patent Owner’s
assertions that Mr. Kawashima is biased. Indeed,
when asked if the Tokyo Stock Exchange preferred
that vendors like Trading Technologies not have patents on trading screens, Mr. Kawashima testified,
that that was “not something I would know.” Ex.
2163, 41:6–12. Lastly, Patent Owner has not demonstrated sufficiently that Mr. Kawashima’s meetings
with Petitioners’ attorneys prior to his cross examination is demonstrative of “bias.” PO Resp. 41. Patent
Owner has not shown why Mr. Kawashima’s meeting
with Petitioner’s counsel prior to his deposition would
make him biased. For these reasons, we are not persuaded that Mr. Kawashima is an interested witness.
We also are not persuaded by Patent Owner’s argument that because Mr. Kawashima’s testimony is
uncorroborated we should give it little weight. PO
Resp. 39–40. In support of the argument, Patent
Owner cites to cases regarding an interested witness.

App. 61
See, e.g., id. at 39. As explained above, Patent Owner
has not shown sufficiently that Mr. Kawashima is an
interested witness. The other arguments made, e.g.,
that there is no evidence of when the manuals were
picked up or by whom or what a person did with the
document once they received it, are factors to consider
when determining whether a document was publically accessible, which we address below.
For all of these reasons, we credit the testimony of
Mr. Kawashima. We find that the facts discussed
above regarding Mr. Kawashima’s testimony (Ex.
1007) are supported by a preponderance of the evidence and are undisputed.17 Although Mr. Kawashima was cross-examined during this proceeding,
Patent Owner does not direct attention to portions of
his cross examination testimony, or any other evidence, that would outweigh Mr. Kawashima’s original
testimony (Ex. 1007) regarding what the TSE manual
was, why it was distributed, how it was distributed,
when it was distributed, and to whom it was distributed.
Patent Owner argues that Petitioner has not established that TSE was publically available. In particular, Patent Owner argues that there is no evidence that anyone actually received a copy of TSE or
whether the receivers of such document were persons
of ordinary skill in the art. Id. at 35–36 (quoting Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348
The burden of showing something by a preponderance of the
evidence simply requires the trier of fact to believe that the existence of a fact is more probable than its nonexistence. Concrete
Pipe & Products of California, Inc. v. Construction Laborers Pension Trust for Southern California, 508 U.S. 602, 622 (1993).
17

App. 62
(Fed. Cir. 2016) (a reference will be considered publicly accessible if it was “disseminated or otherwise
made available to the extent that persons interested
and ordinarily skilled in the subject matter or art exercising reasonable diligence, can locate it.’”)).
Patent Owner’s argument that there is no evidence that anyone actually received a copy of TSE is
misplaced. The proponent of a document need not
show that particular members of the interested public
actually received the information. See, e.g., In re Enhanced Sec. Research, LLC, 739 F.3d 1347, 1354 (Fed.
Cir. 2014); Constant v. Advanced Micro-Devices, Inc.,
848 F.2d 1560, 1569 (Fed. Cir. 1988); Blue Calypso,
LLC v. Groupon, Inc., 815 F.3d 1331, 1348 (Fed. Cir.
2016). Rather, accessibility goes to the issue of
whether persons interested in the subject matter
could obtain the information if they wanted to. Id.
Here, we have before us persuasive evidence that TSE
was made publically accessible by providing two copies to each of the about 200 participants (securities
companies for banks) in the Tokyo Stock Exchange,
who were free to do whatever they wanted with their
copies of the publication. Ex. 1007, 0012, 0014. For
these same reasons, we are not persuaded by Patent
Owner’s implicit argument that Petitioner need show
that the two copies of the TSE manual available for
pick up by the 200 participant companies actually
were picked up. In any event, Mr. Kawashima testified that he personally distributed the TSE manual to
some of the participants. Ex. 2163, 60:13–24.
Patent Owner argues that the participants (securities companies for banks) who allegedly received
copies of the TSE manual are not persons of ordinary

App. 63
skill in the art, which Patent Owner submits would
be GUI designers, and not traders at a stock exchange. PO Resp. 37. We are not persuaded by Patent
Owner’s argument.
The patent before us is a business method patent,
the subject matter of which is represented by both the
business and technical sides of the spectrum. Here,
where the patent is directed to trading commodities
on an exchange using a computer, we must consider
all interested members of the public, which would include not only technical personnel, but traders as
well.18 Traders of commodities at securities companies for banks would be interested members of the
public.
In any event, there is sufficient evidence for us to
find that the securities companies for banks also
would have employed technical personnel as well, and
even a “GUI designer.” As explained above, the purpose of the TSE manual was to alert the securities
companies of changes to the way the trading terminals of the Tokyo Stock Exchange operated. Ex. 1007,
0012, 0014. The TSE manual includes information
and instructions of how to connect electronically to
the Tokyo Stock Exchange. TSE is not simply a “how
to trade commodities” user manual as Patent Owner
seems to suggest. The strong circumstantial evidence
supports finding that TSE was made accessible to se-

We note that one of the inventors of the ’056 patent has extensive experience as a broker or trader, while the other has a legal
background, and some experience “developing game simulations” but neither are “GUI designers.” Ex. 2167 ¶¶ 4–7; Ex.
2181 ¶¶ 4–6.
18

App. 64
curities companies who would have employed technical support personnel, such as computer scientists
or engineers, to configure their system to communicate electronically, and to continue to trade securities,
with the Tokyo Stock Exchange, based on the changes
in operation of the terminals explained in the TSE
manual. Thus, the securities companies would have
included computer scientists or engineers, as well as
traders. Lastly, even assuming that a person of ordinary skill in the art is narrowly limited to a “GUI designer” as Patent Owner asserts, we find that securities companies for banks (“participants”) provided
their own front-end order entry software, and that
such participants would have employed GUI designers to formulate the front-end order entry software to
facilitate trading on the Tokyo Stock Exchange. Ex.
2169 ¶ 22; Ex. 1060, 136:17–138:1.
Patent Owner argues that because participants of
the Tokyo Stock Exchange were contractually prohibited from modifying the terminals or software, there
was no reason to provide the manual to GUI designers. PO Resp. 37. Patent Owner has not shown sufficiently that such a contractual provision would have
prevented persons interested or even ordinarily
skilled in the subject matter from receiving copies of
TSE. For all of the above reasons, we are persuaded
that TSE was publically accessible.
Patent Owner additionally argues that there is no
evidence that a person having ordinary skill in the art
could have located TSE using “reasonable diligence,”
because there is no evidence that such a person
searching for TSE would find it, such as being placed
in a library, indexed, or catalogued, or directions to

App. 65
locate TSE. PO Resp. 38–39. We determine above,
that the record evidence supports a determination
that TSE was publically accessible to persons interested and even ordinarily skilled in the subject matter. Patent Owner’s arguments are premised on the
notion that none of the personnel at the securities
banks are interested and ordinarily skilled in the subject matter, which we reject. Thus, Patent Owner’s argument is moot. For all of the above reasons, we determine that TSE qualifies as prior art.
Patent Owner’s Showing of Prior Invention
Patent Owner argues that if TSE qualifies as prior
art, it nonetheless conceived of the invention before
distribution of TSE, and diligently reduced the invention to practice thereafter. PO Resp. 41–55.
Patent Owner alleges that the invention was conceived no later than March 1998, actually reduced to
practice no later than November 30, 1998, and constructively reduced to practice April 9, 1999, upon the
filing of the priority patent application to which the
involved patent claims benefit. PO Resp. 43 (citing
Ex. 2167 ¶ 12).
Conception
“Conception must be proved by corroborating evidence which shows that the inventor disclosed to others his completed thought expressed in such clear
terms as to enable those skilled in the art to make the
invention.” Coleman v. Dines, 754 F.2d 353, 359 (Fed.
Cir. 1985).
Patent Owner relies on the declarations of the two
named inventors of the ’056 patent (Exs. 2167 (Declaration of Richard Friesen) and 2181 (Declaration of

App. 66
Peter C. Hart)), along with a “Trading Game Design
Document” (Ex. 2301 “Design Document”). Patent
Owner argues that the Design Document exhibited
each element of claim 1. PO Resp. 45 (citing Ex. 2167
¶ 18; Ex. 2181 ¶ 17). In support of that assertion, Patent Owner directs attention to an annotated version
of the screen capture shown on page “PH00000004” of
the Design Document, which is relied upon to corroborate the testimony of the inventors. Id. at 45–49. We
are not persuaded by Patent Owner’s showing for the
following reasons.
First, it is difficult to discern what is shown on
page “PH00000004” of the Design Document with respect to the screen shot. The screen shot from Exhibit
2301 is reproduced here:

App. 67
As seen from above, the screen shot is blurry, and
not easily readable. This is the evidence that Patent
Owner relies on to corroborate the testimony of the
named inventors of the ’056 patent for certain claim 1
elements. For example, Patent Owner argues that for
“displaying a plurality of bid indicators representing
quantity associated with the plurality of bid orders”
and “displaying a plurality of offer indicators representing quantity associated with the plurality of offer
orders,” the above screen shot corroborates inventor
testimony that these elements are met. PO Resp. 46–
48. Patent Owner annotates the above figure with
three inserted boxes. See, e.g., id. at 47. The far right
vertical listing of what appears to be numbers, is annotated with “this is a price axis.” The red bars seen
above have been annotated with “these red bars represent the quantity of pending offer orders at a particular price” and the blue bars have been annotated
with “these blue bars represent the quantity of pending bid orders at a particular price.”
We have reviewed the Patent Owner’s arguments
and evidence to which we are directed regarding conception. The testimony of the inventors is nearly the
same as each other and to the Patent Owner Response
at pages 45–50. Compare, Ex. 2167 ¶¶ 18–19 with Ex.
2181 ¶¶ 17–18. For the sheer fact that we cannot read
the blurry screen shot, we do not find that such screen
shot corroborates the testimony of the inventors. We
will not simply take the inventor’s words at face value
for what the blurry screen shot shows. In any event,
we agree with Petitioner that it has not been established sufficiently that the red and blue bars represent quantity associated with the plurality of bid [and

App. 68
offer] orders. Pet. Reply 17–18. As pointed out by Petitioner, the red and blue bars could represent the
number of orders in the market. Id.
Reduction to Practice and Diligence
Because Patent Owner has failed to show that it
conceived of the invention, we need not consider Patent Owner’s arguments with respect to its alleged reductions to practice (both actual and constructive),
which occurred after August 1998, the date of TSE.
Nonetheless, we make the following observations regarding Patent Owner’s alleged reduction to practice
and diligence.
In order to establish an actual reduction to practice, the inventor must establish that: (1) the inventor
constructed an embodiment or performed a process
that met all of the claim limitations; and (2) the invention would work for its intended purpose. Cooper
v. Goldfarb, 154 F.3d 1321, 1327 (Fed. Cir. 1998). The
inventor’s testimony must be corroborated by independent evidence. Id. at 1330. A rule of reason applies
to determine whether the inventor’s testimony has
been corroborated. Price v. Symsek, 988 F.2d 1187,
1194 (Fed. Cir. 1993). “The rule of reason, however,
does not dispense with the requirement for some evidence of independent corroboration.” Coleman, 754
F.2d at 360. The requirement of “independent” corroboration requires evidence other than the inventor’s
testimony. In re NTP, Inc. 654 F.3d 1279, 1291 (Fed.
Cir. 2011).
It is well settled that “[t]here cannot be a reduction
to practice of the invention…without a physical embodiment which includes all limitations of the claim.”

App. 69
UMC Elecs. Co. v. United States, 816 F.2d 647, 652
(Fed. Cir. 1987) (emphasis added). “It is equally well
established that every limitation of the [claim] must
exist in the embodiment and be shown to have performed as intended.” Newkirk v. Lulejian, 825 F.2d
1581, 1582 (Fed. Cir. 1987) (emphasis added).
Patent Owner alleges that it reduced the invention
to practice no later than November 30, 1998. PO Resp.
55. Based on the evidence before us, we are not persuaded that Patent Owner has demonstrated that the
claimed system was actually reduced to practice.
Claim 1 requires “receiving bid and offer information
for a product from an electronic exchange” and “sending the order for the default quantity at the desired
price to the electronic exchange.” Patent Owner
acknowledges that the GUI it relies on to show an actual reduction to practice was not connected to an
electronic exchange. PO Resp. 54 (“Because this was
a simulated market, real money was not at stake and
live orders were not being transmitted to any exchange.”). Thus, Patent Owner has failed to show that
it reduced to practice all of the elements of claim 1,
which would include “receiving bid and offer information for a product from an electronic exchange” and
“sending the order for the default quantity at the desired price to the electronic exchange.”
For similar reasons, Patent Owner has not demonstrated sufficiently that the simulated GUI worked
for its intended purpose. Cooper v. Goldfarb, 154 F.3d
1321, 1327 (Fed. Cir. 1998). Patent Owner has not directed us to evidence to show that the GUI tested on
November 24 and December 16, 1998, for example,
worked for its intended purpose. Again, Patent Owner

App. 70
acknowledges that “real money was not at stake and
live orders were not being transmitted to any exchange.” PO Resp. 54. Thus, having considered all of
Patent Owner’s arguments and evidence to which we
are directed in support of the arguments, we are not
persuaded that Patent Owner demonstrates sufficiently that it reduced the invention to practice no
later than November 30, 1998.
Lastly, we address Patent Owner’s contention that
it was diligent from just prior to August 1998 until it
filed U.S. Patent Application No. 09/289,550 (“‘550 application”) on April 9, 1999, from which the application that matured into the ’056 patent claims priority.
PO Resp. 55 (citing Ex. 2167 ¶ 37; Ex. 2181 ¶ 37). As
provided above, Patent Owner has not shown that it
conceived the invention prior to August 1998, but
even if it had, Patent Owner has not established that
it was reasonably diligent from a time just prior to
August 1998 until April 9, 1999, e.g., “the critical period.”
A party alleging diligence must account for the entire critical period. Griffith, 816 F.2d at 626. Even a
short period of unexplained inactivity may be sufficient to defeat a claim of diligence. Morway v. Bondi,
203 F.2d 742, 749 (CCPA 1953); Ireland v. Smith, 97
F.2d 95, 99–100 (CCPA 1938). “A patent owner…
must show there was reasonably continuous diligence.” Perfect Surgical Techniques, Inc. v. Olympus
Am., Inc., 841 F.3d 1004, 1009 (Fed. Cir. 2016) (citations omitted) (vacating and remanding the Board’s
decision finding Patent Owner had not proven the inventor was reasonably diligent in reducing his invention to practice). An inventor’s testimony regarding

App. 71
his reasonable diligence must be corroborated by evidence. Brown v. Barbacid, 436 F.3d 1376, 1380 (Fed.
Cir. 2006).
Patent Owner argues that the invention was constructively reduced to practice with the filing of the
‘550 application on April 9, 1999, “a reasonable span
of diligence.” PO Resp. 55 (citing Ex. 2167 ¶ 37; Ex.
2181 ¶ 37). We focus our discussion on the period from
around mid-December until April 9, 1999. Patent
Owner has not directed us to sufficient evidence showing that it was diligent for that period. For example,
Mr. Freisen testifies that no later than December 11,
1998, he met with Robert Sachs from Fenwick & West
and that over the next three months, “Mr. Sachs and
I exchanged several communications regarding patent application preparation and prosecution strategy.” Ex. 2167 ¶ 37. The only corroborating evidence
that we are directed to during the mid-December until
April 9, 1999 time frame is an email from “Unspecified Sender.” Ex. 2329. This exhibit is only referenced
in Mr. Freisen’s declaration. It is not explained in any
way by Patent Owner or even in the context of Mr.
Freisen’s declaration. We decline the invitation to try
to figure out what the email is all about. The email
has not been shown to corroborate any acts of diligence by the inventors. For these additional reasons,
Patent Owner has not accounted sufficiently for the
critical period from a time just prior to August 1998
until April 9, 1999.
Analysis
TSE describes a trading system that facilitates
trading with an electronic exchange by receiving bid

App. 72
and offer information, displaying it to a user, and accepting and sending bid and offer orders. Ex. 1004, 6–
13, 35. A trading terminal displays a GUI for depicting market information on a Board/Quotation Screen
(see id. at 107). The Figure on page 107 of TSE is reproduced below.

Figure depicting the Board/Quotation Screen

App. 73
The Board/Quotation Screen includes a central order price at column 11—a price axis. Id. at 111. To the
left and right of order price column 11, at a location
corresponding to price, are bid and offer indicators
consisting of numbers representing the quantity of orders in respective columns 12, 13, and 14. Id. at 112.
The Board/Quotation screen is automatically updated
with new bid and offer information from a central system every three seconds. Id. at 91. TSE describes a
user entering an order by double-clicking at a location
along the price axis, which automatically displays a
pop-up window displaying the selected price. Id. at
134, 137. Clicking a send button sends an order to the
exchange. Id. at 143.
Petitioner identifies the difference between the
claimed invention and TSE, explaining that TSE does
not describe a default quantity, nor does TSE describe
graphical displays. Pet. 38–39. Petitioner relies on
Togher and Cooper to teach a default quantity and
Schott to teach graphical displays. Id.
Togher describes a computer displaying transactional information and facilitating trading with bid
and offer orders. Ex. 1008, Abs., Figs. 1–3. Togher describes receiving bid and offer information from an
electronic exchange. Id. at 6:67–7:19. A user can enter
a default quantity called a Normal Trade Size into the
Trader Profile screen (Figure 4) and the quantity may
be used for subsequent orders with the same quantity.
Id. at 12:7–10.
Schott describes a computer system that displays
graphical indicators representing quantities. Ex.

App. 74
1009, Abs. In particular, Schott describes representing a given quantity by graphing data in the depiction
of a pie chart or bar graph. Id. at Figs. 26C, 26D, 19A.
Cooper describes that for user interface designs, it
was known to retain a user’s last-entered quantity.
Ex. 1015, 187–188.
We have reviewed the Petition and the supporting
evidence to which we are directed as to how TSE
meets all of the claim limitations with the exception
of a default quantity and graphical displays. Pet. 39–
60. We are persuaded by such showing, and adopt it
as our own. We also have reviewed the Petition and
the supporting evidence to which we are directed as
to how Togher and Cooper teach a default quantity
and Schott teaches graphical displays. Id. We are persuaded by such showing, and adopt it as our own.
Petitioner also has sufficiently shown why it would
have been obvious to combine TSE, Togher, Schott
and Cooper. For example, and with respect to claim 1,
Petitioner argues that it would have been obvious to
add Togher’s user-modifiable default values to TSE’s
electronic trading system. Petitioner argues that the
combination would have been nothing more than combining prior art elements according to known methods
to yield the predictable and desirable result of reducing the time needed to place an order and reducing
the number of errors by reducing the number of operator actions (e.g., keystrokes). Pet. 45–46; Ex. 1032 ¶
115. Petitioner argues that if the claims require retaining a user’s last entered quantity to meet the “default quantity” limitation, then Cooper describes this
feature. In particular, Petitioner argues that it would
have been obvious to modify the combination of TSE

App. 75
and Togher with Cooper by making the simple design
choice to retain the user’s last-entered quantity. Pet.
47 (citing Ex. 1032 ¶¶ 107–108). Petitioner additionally argues that it would have been obvious to add
Schott’s teaching of displaying graphical representations of data with the graphical interface teachings of
TSE and Togher. Petitioner argues that the combination would have been nothing more than combining
prior art elements according to known methods to
yield the predictable and desirable result of reducing
the time and effort the user needs to expend to understand the displayed data. Pet. 42; Ex. 1032 ¶ 117.
Lastly, Petitioner argues, with supporting evidence,
that dependent claims 2–15 are obvious over TSE,
Togher, Schott, and Cooper. Pet. 50–60.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by Petitioner’s showing, which we adopt as our own, that
claims 1–15 are unpatentable based on the combination of TSE, Togher, Schott, and Cooper for the reasons provided by Petitioner. If a feature has been used
to improve one device, and a person of ordinary skill
in the art would have recognized that it would improve a similar device in that field or another, implementing that feature on the similar device is likely
obvious. KSR, 550 U.S. at 417. For a patent claim that
claims a structure known in the prior art that is altered by the mere substitution of one element for another known in the field, the combination must do
more than yield a predictable result. Id. at 416. Here,
a person of ordinary skill in the art would have recognized that the addition of Togher’s user-modifiable default values, for example, to TSE’s electronic trading

App. 76
system, would have been nothing more than combining prior art elements according to known methods to
yield the predictable and desirable result of reducing
the time needed to place an order and reducing the
number of errors by reducing the number of operator
actions (e.g., keystrokes). Ex. 1032 ¶ 115.
Patent Owner’s Contentions
Patent Owner does not dispute that TSE in combination with Togher, Cooper, and Shultz describe all of
the elements of claims 1–4 and 8–15, and that the
combination would have been obvious. PO Resp. 56–
68. Patent Owner contends, however, that the failure
of others to make the claimed combination demonstrates the non-obviousness of the invention. Id. at
56–64. Patent Owner also presents arguments with
respect to claims 5–7. Id. at 64–68. We first address
Patent Owner’s arguments regarding claims 5–7.
Claim 5 depends directly from claim 1 and includes displaying an order icon at a location that corresponds to the desired price level along the price
axis, and that the order icon indicates the user’s order
at the electronic exchange. Claims 6 and 7 each depend directly from claim 5. For claim 5, Petitioner relies on the description in TSE that after data is entered, a trader submits the order using the “send”
function to send the order to the central system. Pet.
51 (citing Ex. 1004, 143). Petitioner explains that the
order, along with all other orders, is displayed on the
client terminals. Id. (citing Ex. 1004, 9–10; Ex. 1032
¶ 123).
Patent Owner argues that the proper construction
of “an order icon…indicating the user’s order at the

App. 77
electronic exchange,” is an icon indicating to the user
that the user has an order (distinguishes the traders
own orders) at a particular level along the price axis.
Id. at 64–65 (citing Ex. 2169 ¶¶ 62–66). Patent
Owner’s arguments are premised on a narrow construction of claim 5. Id. at 64–67. As indicated above,
in the claim interpretation section of this opinion, we
do not adopt Patent Owner’s narrow interpretation.
Claim 6 depends from claim 5 and recites “displaying the plurality of bid indicators using a first visual
characteristic; displaying the plurality of offer indicators using a second visual characteristic; and displaying the order icon using a third visual characteristic.”
Petitioner contends that the combination of TSE, Togher, Schott and Cooper render obvious claim 6 “because Schott teaches using different colors and textures for difference data sets, and a POSITA would
have been motivated to add these teachings to the
trading system described by TSE, Togher and
Cooper.” Pet. 52–53. Petitioner further contends that
a person having ordinary skill in the art would have
been motivated to apply Schott’s technique of using
different visual characteristics such as color and texture for three different data sets to the bids, offers,
and the trader’s own orders displayed in an electronic
trading system disclosed in TSE and Togher to speed
trader recognition of different data sets. Id. at 53; Ex.
1032 ¶ 140.
Patent Owner argues that Petitioner relies on the
aggregate information to fulfill the offer indicators,
bid indicators, and order icon. PO Resp. 67–68. Patent
Owner further argues that Petitioner fails to explain
how the aggregate quantity that is both the bid/offer

App. 78
indicators, and the order icon, would be displayed
with different visual characteristics. Id. We disagree.
As explained above, the Petition relies on Schott’s
technique of using different visual characteristics for
three different data sets to the bids, offers, and the
trader’s own orders displayed. Pet. 52–53. Petitioner
also provides a motivation for using different visual
characteristics for the three different sets. Id. It is implicit through Petitioner’s showing that Petitioner
proposes having three different sets, as opposed to an
aggregate number as Patent Owner argues. Accordingly, we are not persuaded by Patent Owner’s arguments.
E. Obviousness of Claims 1–15 over Silverman,
Togher, Cooper, and Hogan
Petitioner contends that claims 1–15 are unpatentable under 35 U.S.C. § 103 over Silverman,
Togher, Cooper, and Hogan. To support its contentions, Petitioner provides explanations as to how the
prior art meets each claim limitation. Pet. 60–80. Petitioner also cites the Declaration of Kendyl A. Román
for support. See Ex. 1032 ¶¶ 163–170.
Silverman describes a matching system for trading instruments in which bids are automatically
matched against offers for given trading instruments.
Ex. 1010, Abstract. Summary market information is
displayed at participant’s workstation or keystation
at various client sites. Id. at 6:50–52. The system will
display the best inside price for every instrument
traded on the system, and preferably the prices are
displayed together with the quantity bid or offered at
the specified price so that the trader at the keystation
can observe the market activity. Id. at 6:57–60.

App. 79
Silverman describes, in connection with Figure 5,
a keystation book located at client sites which maintain copies of the best bids and offers contained in the
host book of Figure 4 and uses that information to
generate displays at the keystations. Id. at 10:3–8.
Figure 5, annotated by Petitioner with “price axis” is
reproduced below.

Figure 5 of Silverman, annotated by Petitioner,
showing a keystation book Hogan describes displaying graphical indicators representing underlying
quantities. Ex. 1011, 38:4–58, Fig. 17.
Petitioner identifies the differences between the
claimed invention and Silverman, explaining that Silverman does not describe a default quantity, or entering data graphically. Pet. 60. Petitioner also addresses the inevitable argument from Patent Owner

App. 80
that Silverman’s price axis is not a price axis and submits that it would have been obvious to add labels to
the Silverman price axis (Figure 5 labeled above) to
help a user determine the scale of the graphed data.
Pet. 62; Ex. 1032 ¶ 153. Petitioner also points out that
Hogan describes selecting a value by selecting a position along an axis for a value. Pet. 69. Petitioner relies
on Togher and Cooper to teach a default quantity
(similar to the challenge based on TSE described
above) and additionally relies on Hogan to teach entering data graphically. Pet. 60.
We have reviewed the Petition and the supporting
evidence to which we are directed as to how Silverman meets all of the claim limitations with the exception of a default quantity and graphical displays. To
the extent Silverman’s “price axis” is not considered a
price axis, Petitioner has shown sufficiently how it
nonetheless would have been obvious to add labels to
the graph described by Silverman, and further has
shown sufficiently that Hogan too teaches selecting a
position along an axis for a value. Pet. 60–80. We are
persuaded by such showing, and adopt it as our own.
We also have reviewed the Petition and the supporting evidence to which we are directed as to how Togher and Cooper teach a default quantity and Hogan
teaches graphical displays, selecting a value by selecting a position along an axis for that value, and entering data graphically. Id. We are persuaded by such
showing, and adopt it as our own.
Petitioner also has sufficiently shown why it would
have been obvious to combine Silverman, Togher,
Cooper, and Hogan. For example, and with respect to

App. 81
claim 1, Petitioner argues that it would have been obvious to add Togher’s user-modifiable default values
and Cooper’s teaching of retaining the user’s last-entered quantity to Silverman’s electronic trading system for similar reasons as it did with respect to the
challenge based on TSE. Pet. 65–66; Ex. 1032 ¶¶ 157–
158, 165.
Petitioner additionally argues that it would have
been obvious to add Hogan’s GUI teachings with Silverman, Togher, and Cooper. Petitioner argues that
the combination would have been nothing more than
combining prior art elements according to known
methods to yield the predictable and desirable result
of reducing the time and effort the user expends to
understand and enter data. Pet. 69–70; Ex. 1032
¶¶ 168, 169. Lastly, Petitioner argues, with supporting evidence, that dependent claims 2–15 are obvious
over Silverman, Togher, Cooper, and Hogan. Pet. 71–
80.
Notwithstanding Patent Owner’s arguments,
which we address below, we are persuaded by Petitioner’s showing, which we adopt as our own, that
claims 1–15 are unpatentable based on the combination of Silverman, Togher, Cooper, and Hogan for the
reasons provided by Petitioner. Here, and with respect to claim 1 in particular, a person of ordinary
skill in the art would have recognized that the addition of Togher’s user-modifiable default values, for example, to Silverman’s electronic trading system,
would have been nothing more than combining prior
art elements according to known methods to yield the
predictable and desirable result of reducing the time
needed to place an order and reducing the number of

App. 82
errors by reducing the number of operator actions
(e.g., keystrokes). Ex. 1032 ¶ 165. Further, a person
of ordinary skill in the art would have recognized that
adding Hogan’s GUI teachings to the Silverman and
Togher combination (e.g., selecting a value by selecting a position along an axis for that value) would have
been obvious, as the combination would have been
nothing more than combining prior art elements according to known methods to yield the predictable and
desirable result of reducing the time and effort the
user expends to understand and enter data. Ex. 1032
¶¶ 168, 169.
Patent Owner’s Contentions
Patent Owner argues that Silverman’s Figures 4,
5, and 17 show logical models, not a GUI. PO Resp.
68–71. Patent Owner acknowledges that Silverman
describes a display and a separate order entry tool. Id.
at 70–71 (citing Ex. 2169 ¶ 75). As explained above,
Silverman describes that the system will display the
best inside price for every instrument traded on the
system, and preferably the prices are displayed together with the quantity bid or offered at the specified
price so that the trader at the keystation can observe
the market activity. Ex. 1010, 6:57–60, 15:50–55. Order entry may be accomplished through conventional
means, such as a keyboard or a mouse. Id. at 14:63–
64.
Patent Owner argues, however, that such a conventional display and separate entry tool is not a GUI
and that Silverman does not describe implementing
its figures as a GUI (arguing specifically that nowhere
does Silverman describe that data would be displayed
in the manner shown in Fig. 5). PO Resp. 68–71.

App. 83
Based on a similar line of reasoning, Patent Owner
also argues that Mr. Román’s testimony cannot be relied upon because Silverman’s figures were not implemented as GUIs and Mr. Román’s testimony is based
on his understanding that Silverman’s figures were
implemented as GUIs. PO Resp. 74–75 (citing Ex.
2169 ¶¶ 71–89). Patent Owner’s arguments are not
persuasive.
None of the claims recite a “GUI” or graphical user
interface. Arguably, the only claim 1 step that would
be in the realm of requiring a GUI, would be the step
of “receiving a user input indicating a desired price
…the desired price being specified by selection of one
of a plurality of locations corresponding to price levels
along the price axis.” But even assuming that the
claims require a GUI, Patent Owner’s arguments that
Silverman alone fails to describe a GUI are misplaced.
Petitioner does not assert that Silverman anticipates
claims 1–15. Rather, the challenge is based on the
combination of Silverman, Togher, Cooper, and Hogan. Hogan describes a GUI, and Petitioner relies on
Hogan for the receiving a user input indicating a desired price step. Pet. 67–69. Mr. Roman testifies to
this as well. Ex. 1032 ¶¶ 154–155, 159–160, 169. Accordingly, Patent Owner’s arguments attacking Silverman alone are not persuasive. Lastly, we do not
find that Mr. Román’s testimony (see, e.g., Ex. 1032 ¶
166) regarding what was implemented by Reuters as
further support for combining Silverman, Togher, and
Hogan discredits his other testimony (see, e.g., Ex.
1032 ¶¶ 154–155, 159–160, 169) regarding the obviousness of the claims before us. We credit his testimony regarding the obviousness of the claims, and
moreover, give his testimony more weight than that

App. 84
of Patent Owner’s witness, Mr. Thomas, because his
testimony (see, e.g., Ex. 2169 ¶¶ 80–89), like Patent
Owner’s arguments is focused narrowly on the teachings of Silverman alone.
We also have considered Patent Owner’s argument that a person having ordinary skill in the art at
the time of the invention would not have implemented
Silverman as a GUI (PO Resp. 71–73), but are not persuaded by such argument. Patent Owner argues that
implementing Silverman’s figures as trading GUIs
would not result in a useful product for a trader because the resulting display would result in a large
amount of unused screen space. Id. (citing Ex. 2169
¶¶ 90, 92). Patent Owner’s argument is misplaced as
the broad claims do not include any orientation limitations or limitations regarding screen space.
We next address Patent Owner’s argument that
Silverman does not disclose the claimed “price axis.”
PO Resp. 76–77. In essence, claim 1 requires displaying data (e.g., bid and offer indicators) along a price
axis. The claim 1 method further requires receiving a
user input indicating a desired price for an order by
selecting one of a plurality of locations corresponding
to price levels along the price axis. First, Patent
Owner’s arguments are based on a narrow interpretation of a “price axis” which we disagree with as discussed above in the claim construction section of this
opinion. In any event, Petitioner accounts for Patent
Owner’s narrow interpretation of “price axis.” While
Petitioner characterizes the modified Silverman Figure 5 shown above as showing a “price axis,” Petitioner also relies on Hogan and the knowledge of a

App. 85
person of ordinary skill in the art to explain that displaying indicators along a price axis was known at the
time of the invention. Pet. 61–63, 67–69; Ex. 1032 ¶¶
153, 155, 160–161. Thus, Patent Owner’s arguments
regarding Silverman alone (see, e.g., PO Resp. 76–77)
are not sufficient to show fault in the Petitioner’s reliance on Silverman, Hogan, and the knowledge of a
person of ordinary skill in the art for the claimed price
axis.
Patent Owner argues that the addition of Hogan
to Silverman does not cure Silverman’s defects or render the combination obvious. PO Resp. 77–79. In particular, Patent Owner argues that Silverman’s figures
are not displayed (are not GUIs). As discussed above,
this argument is not persuasive. Patent Owner additionally argues that if Silverman’s Fig. 5 bars were
replaced with Hogan’s teaching of bars representing
quantity, the result would still not meet the limitation
of a price axis. The argument is based on a narrow
construction as explained above, and is without merit.
In any event, Petitioner accounts for Patent Owner’s
argument that Silverman does not describe a price
axis and explains that it would have been obvious to
add labels to the Silverman price axis (Figure 5 labeled above) to help a user determine the scale of the
graphed data. Pet. 62; Ex. 1032 ¶ 153. As discussed
above, we adopt Petitioner’s showing in that regard.
Patent Owner, on the other hand, does not address
Petitioner’s showing that it would have been obvious
to add labels to the Silverman price axis to assist a
user to determine the scale of the graphed data—a
showing we pointed out in our Decision to Institute as
well, putting Patent Owner on plenty of notice that
such a showing would be an issue for trial. Dec. 28. In

App. 86
summary, we have considered all of Patent Owner’s
arguments with respect to claim 1, but determine
them to be unpersuasive.
Patent Owner presents arguments with respect to
claims 5–7. PO Resp. 79–81. Claim 5 depends directly
from claim 1 and includes displaying an order icon at
a location that corresponds to the desired price level
along the price axis, and that the order icon indicates
the user’s order at the electronic exchange. Claims 6
and 7 each depend directly from claim 5.
Patent Owner argues that Silverman’s Figs. 13
and 14 are not a graphical representation (GUI) provided to a user, similar to the arguments Patent
Owner made with respect to Silverman’s Figs. 4 and
5 above. For similar reasons provided above, we are
not persuaded by this argument.
In addition, and for similar reasons discussed
above, we do not agree with Patent Owner that claim
5 requires indicating the specific user order or indicating to the user that it is his order. Id. at 79–81.
Patent Owner’s arguments in that regard are not
commensurate in scope with what is claimed. Patent
Owner does not argue for the separate patentability
of claims 6 and 7.
Secondary Considerations
In its brief, Patent Owner has a section titled “The
Failure of Others to Make the Claimed Combination
Demonstrates the Non-obviousness of the Invention.”
PO Resp. 56–64. That section, however, bears little
resemblance to a typical showing of secondary consideration of a failure of others to make the claimed in-

App. 87
vention and does not appear to be particularly relevant to this proceeding. For example, Patent Owner
spends several pages (see, e.g., PO Resp. 60–62) discussing U.S. Patent No. 6,772,132 without explaining
how that discussion is relevant to the proceeding before us. Patent Owner’s arguments as to why a person
having ordinary skill in the art would have viewed
TSE (and alternatively Silverman) as wasting screen
real-estate and would have rejected its (or Silverman’s) teachings is based on whether such teachings
would have been commercially viable, which has not
been shown to be relevant to the proceeding before us.
In summary, we are not persuaded by any of Patent
Owner’s arguments spanning pages 56–64 of the Patent Owner Response.
F. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1003
(TSE), Mr. Kawashima’s deposition (Ex. 1007), and
portions of Exhibits 1059 and 1060. PO Mot. to Exclude 1, 4, 6. Exhibit 1003 is the Japanese version of
the TSE document. See, e.g., Paper 131, 2. Patent
Owner seeks to exclude Exhibit 1003 because it has
not been authenticated per rule 901 of the Federal
Rules of Evidence (FRE). Patent Owner recognizes
that Petitioner relies on Mr. Kawashima’s testimony
(Ex. 1007) to authenticate TSE, but argues that his
testimony is hearsay. PO Mot. to Exclude 2–6. Patent
Owner, however, acquiesces that Mr. Kawashima’s
testimony is not hearsay because he was cross examined. Patent Owner also argues that Mr. Kawashima’s testimony raises more doubt than it resolves. Id. at 6–7.

App. 88
Patent Owner’s motion with respect to the exclusion of TSE (Exhibit 1003) and Mr. Kawashima’s deposition (Exhibit 1007) falls far short of what is required in a motion. The statement of the precise relief
requested is lacking. For example, Patent Owner argues that TSE and Mr. Kawashima’s deposition
should be excluded, but also argues that Mr. Kawashima’s deposition falls under the FRE 807 hearsay exception, and, therefore, is admissible. See, e.g.,
PO Mot. to Exclude 2–6. We understand Patent
Owner’s position to be that if we exclude any of Patent
Owner’s evidence, then we also should exclude Exhibits 1003 and 1007. Id. at 6 (“To the extent the Board
excludes any of Patent Owner’s evidence from district
court litigation, which it should not, the Board should
likewise exclude the 2005 Kawashima deposition
transcript.”).
We are not persuaded by Patent Owner’s arguments. Patent Owner has not met its burden to show
that either Exhibit 1007 or Exhibit 1003 should be excluded from the record. In fact, Patent Owner appears
to concede that Mr. Kawashima’s testimony is not
hearsay because it falls under an exception to the
hearsay rule. Nor are we persuaded by Patent
Owner’s argument that the deposition testimony of
Mr. Kawashima (Ex. 1003) raises more doubt than it
resolves. PO Mot. to Exclude 6–8. In essence, Patent
Owner’s arguments go to the weight we should give
Mr. Kawashima’s testimony, which is not a proper argument for a motion to exclude. For all of these reasons, we are not persuaded that either Exhibit 1003
or 1007 should be excluded from the record and deny
that portion of the motion seeking to exclude those exhibits.

App. 89
Patent Owner also seeks to exclude pages 57–58 of
Exhibit 1059 (the cross examination testimony of Mr.
Olsen) and pages 248 and 263–269 of Exhibit 1060
(the cross examination testimony of Mr. Thomas). We
did not and need not consider the specific pages objected to in Exhibits 1059 and 1060. We have determined that Petitioner has demonstrated, by a preponderance of the evidence, that the challenged claims
are unpatentable, without considering the specific objected to pages or the portion of Petitioner’s Reply that
relies on such evidence and thus dismiss that portion
of the motion seeking to exclude portions of Exhibits
1059 and 1060. Accordingly, we deny-in-part and dismiss-in-part Patent Owner’s Motion to Exclude.
G. Petitioner’s Motion to Exclude
Petitioner moves to exclude Exhibits 2300, 2301,
2304–2316, 2318–2324, 2326–2330, 2030, and 2032 in
their entirety. Pet. Mot. to Exclude 1. Exhibit 2327 is
a portion of a deposition of Thomas Biddulph from a
district court case. Patent Owner’s witnesses, inventors Mr. Friesen and Mr. Hart reference Exhibit 2327
in their respective declarations (Exs. 2167 and 2181)
in support of their testimony regarding an actual reduction to practice of the claimed invention. We find
it unnecessary to consider the specific objections to
the admissibility of Exhibit 2327, since Patent
Owner’s arguments regarding an actual reduction to
practice of the claimed invention are not persuasive
for the reasons provided above, even assuming Exhibit 2327 to be admissible.
Exhibits 2030 and 2032 are a jury verdict and
docket entry, respectively, associated with an earlier
district court case involving Patent Owner and a third

App. 90
party. Although Patent Owner relies on Exhibit 2030
in its Response, we do not find where it relies on Exhibit 2032. In any event, we understand Patent
Owner to rely on at least Exhibit 2030 in support of
its arguments that TSE is not prior art. PO Resp. 39,
n. 5. Petitioner moves to exclude the exhibits as irrelevant and inadmissible. Pet. Mot. to Exclude 5. We
find it unnecessary to consider the specific objections
to the admissibility of Exhibits 2030 and 2032, since
Patent Owner’s arguments that TSE is not prior art
are not persuasive for the reasons provided above,
even assuming Exhibits 2030 and 2032 to be admissible.
Exhibit 2301 is a document Patent Owner relies
on to support prior conception. Petitioner moves to exclude the document for lack of authenticity. Id. at 6.
We find it unnecessary to consider the specific objections to the admissibility of Exhibit 2301, since Patent
Owner’s arguments that it conceived the invention
prior to TSE are not persuasive for the reasons provided above, even assuming Exhibit 2301 to be admissible. Exhibits 2300, 2304–2316, 2318–2324, 2326,
2328, and 2329 are various third-party emails. Petitioner objects to the emails for lack of authenticity
and hearsay to which no exception applies. Id. Patent
Owner relies on the emails in support of its arguments regarding diligence. We find it unnecessary to
consider the specific objections to the admissibility of
Exhibits 2300, 2304–2316, 2318–2324, 2326, 2328,
and 2329, since Patent Owner’s arguments regarding
diligence are not persuasive for the reasons provided
above, even assuming Exhibits 2300, 2304–2316,
2318–2324, 2326, 2328, and 2329 to be admissible.

App. 91
Accordingly, we dismiss Petitioner’s Motion to Exclude.
III. CONCLUSION19
For all of the above reasons, we determine that Petitioner has shown by a preponderance of the evidence
that claims 1–15 of the ’056 patent are unpatentable
based on the following grounds:
claims 1–15 under 35 U.S.C. § 101 as being patent
ineligible;
claims 1–15 under 35 U.S.C. § 103 as being unpatentable over TSE, Togher, and Schott; and
claims 1–15 under 35 U.S.C. § 103 as being unpatentable over Silverman, Togher, Cooper, and Hogan.
IV. ORDER
It is
ORDERED that claims 1–15 of the ’056 patent are
unpatentable;
FURTHER ORDERED that Patent Owner’s Motion to Exclude Evidence is denied-in-part and dismissed-in-part;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence is dismissed; and

In making the obviousness conclusions, we recognize that it is
the subject matter of each claim, as a whole, that is evaluated,
rather than just each individual limitation, separately. 35 U.S.C.
§ 103.
19

App. 92
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking judicial review of the Decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

App. 93
UNITED STATES PATENT AND
TRADEMARK OFFICE
__________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
__________________
IBG LLC, INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
__________________
Case CBM2016-00051
Patent 7,904,374 B2
_______________
Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and JEREMY M. PLENZLER, Administrative
Patent Judges.
PLENZLER, Administrative Patent Judge.
FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

App. 94
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers LLC, TradeStation
Group, Inc., and TradeStation Securities, Inc. (collectively, “Petitioner”) filed a Petition on March 29, 2016
requesting covered business method patent review of
claims 1–36 (the “challenged claims”) of U.S. Patent
No. 7,904,374 B2 (Ex. 1001, “the ’374 patent”). Paper
3 (“Pet.”). On July 5, 2016, Trading Technologies International, Inc. (“Patent Owner”) filed a Preliminary
Response. Paper 8 (“Prelim. Resp.”). On August 17,
2016, we instituted a covered business method patent
review (Paper 11, “Institution Decision” or “Inst.
Dec.”) based upon Petitioner’s assertion that claims
1–36 are directed to patent ineligible subject matter
under 35 U.S.C. § 101. Inst. Dec. 22. Subsequent to
institution, Patent Owner filed a Patent Owner Response (Paper 18, “PO Resp.”) and Petitioner filed a
Reply (Paper 23, “Pet. Reply”) to Patent Owner’s Response. Pursuant to our authorization, Patent Owner
filed an additional submission addressing the Federal
Circuit’s holding in Technologies International, Inc.,
v. CQG, Inc., No. 2016-1616, 2017 WL 192716 (Fed.
Cir. Jan. 18, 2017) (“CQG”) (Paper 29, “PO Add’l
Sub.”), and Petitioner filed a reply to that submission
(Paper 30). Petitioner filed a Motion to Exclude Evidence (Paper 31), and Patent Owner also filed a Motion to Exclude Evidence (Paper 34).
We held a joint hearing of this case and several
other related cases on May 3, 2017. Paper 43 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written Decision is issued pursuant to 35 U.S.C.

App. 95
§ 328(a) and 37 C.F.R. § 42.73. For the reasons that
follow, we determine that Petitioner has shown sufficiently that claims 1–36 of the ’374 patent are directed to patent ineligible subject matter under 35
U.S.C. § 101.
B. Related Proceedings
The parties indicate numerous related U.S. district court proceedings, including at least one proceeding specifically directed to the ’374 patent. Pet. 2; Paper 6, 1–5. Numerous patents are related to the ’374
patent and the related patents are or were the subject
of numerous petitions for covered business method
patent review and reexamination proceedings. As
noted above, the Federal Circuit has issued a nonprecedential decision, CQG, which addresses whether
claims of U.S. Patent Nos. 6,766,304 (“the ’304 patent”) and 6,772,132 (“the ’132 patent”) are patent eligible under § 101. The ’374 patent at issue in this
case is related to the ’132 and ’304 patents via continuation and divisional filings.
C. Asserted Grounds
Petitioner contends that the challenged claims are
unpatentable under 35 U.S.C. § 101. Pet. 27–50.
D. The ’374 Patent
The ’374 patent is titled “Click Based Trading with
Intuitive Grid Display of Market Depth.” Ex. 1001,
(54). The ’374 patent describes a display, named the
“Mercury” display, and method of using the display to
trade a commodity. Id. at Abstract, 3:5–10. The ’374
patent explains that the Mercury display is a graphic
user interface (“GUI”) that dynamically displays the
market depth of a commodity traded in a market and

App. 96
allows a trader to place an order efficiently. Id. at
3:11–20. The Mercury display is depicted in Figure 3,
which is reproduced below.

Figure 3 of the ’374 patent illustrates an example
of the Mercury display with example values for trading a commodity, including prices, bid and ask quantities relative to price, and trade quantities.
The Mercury display includes a plurality of columns. Column 1005 is a static price axis, which includes a plurality of price values for the commodity.
See id. at 7:23–25. The ’374 patent explains that “[t]he
column does not list the whole prices (e.g. 95.89), but

App. 97
rather, just the last two digits (e.g. 89).” Id. at 7:25–
26. Columns 1003 and 1004 are aligned with the
static price axis and dynamically display bid and ask
quantities, respectively, for the corresponding price
values of the static price axis. See id. at 7:23–37. The
’374 patent explains that “[t]he exchange sends the
price, order and fill information to each trader on the
exchange” and that “[t]he physical mapping of such
information to a screen grid can be done by any technique known to those skilled in the art.” Id. at 4:59–
66.
Column 1002 contains various parameters and information used to execute trades, such as the default
quantity displayed in cell 1016. See id. at 7:55–8:23.
A trader executes trades using the Mercury display
by first setting the desired commodity and default parameters, such as default quantity. See id. at 8:56–
9:3; Fig. 6, step 1302. Then, a trader can send a buy
order or sell order to the market with a single action,
such as clicking on the appropriate cell in column
1003 or 1004. See id. at 8:60–9:48; Fig. 6, steps 1306–
1315.
E. Illustrative Claim
As noted above, Petitioner challenges claims 1–36.
Claims 1 and 36 are independent, with claims 2–35
depending from claim 1. Claim 1 is representative,
and is reproduced below:
1. A method for facilitating trade order entry, the
method comprising:
receiving, by a computing device, market data for
a commodity, the market data comprising a current

App. 98
highest bid price and a current lowest ask price available for the commodity;
identifying, by the computing device, a plurality of
sequential price levels for the commodity based on the
market data, where the plurality of sequential price
levels includes the current highest bid price and the
current lowest ask price;
displaying, by the computing device, a plurality of
graphical locations aligned along an axis, where each
graphical location is configured to be selected by a single action of a user input device to send a trade order
to the electronic exchange, where a price of the trade
order is based on the selected graphical location;
mapping, by the computing device, the plurality of
sequential price levels to the plurality of graphical locations, where each graphical location corresponds to
one of the plurality of sequential price levels, where
each price level corresponds to at least one of the plurality of graphical locations, and where mapping of
the plurality of sequential price levels does not change
at a time when at least one of the current highest bid
price and the current lowest ask price changes; and
setting a price and sending the trade order to the
electronic exchange in response to receiving by the
computing device commands based on user actions
consisting of:
(l) placing a cursor associated with the user input
device over a desired graphical location of the plurality of graphical locations and (2) selecting the desired
graphical location through a single action of the user
input device.
Ex. 1001, 11:39–12:5.

App. 99
ANALYSIS
A. Claim Construction
In a covered business method patent review, claim
terms are given their broadest reasonable interpretation in light of the specification in which they appear
and the understanding of others skilled in the relevant art. See 37 C.F.R. § 42.300(b).
Applying that standard, we interpret the claim
terms of the ’374 patent according to their ordinary
and customary meaning in the context of the patent’s
written description. See In re Translogic Tech., Inc.,
504 F.3d 1249, 1257 (Fed. Cir. 2007). Any special definitions for claim terms must be set forth with reasonable clarity, deliberateness, and precision. In re
Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). Petitioner proposes constructions for several terms (Pet.
24–27), and Patent Owner does not propose any explicit claim construction. We determine that no term
requires explicit construction in order to conduct
properly our analysis of the asserted challenge.
B. Covered Business Method Patent
Section 18 of the AIA 1 provides for the creation of
a transitional program for reviewing covered business
method patents. A “covered business method patent”
is a patent that “claims a method or corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or service, except that

Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125
Stat. 284, 329 (2011) (“AIA”).

1

App. 100
the term does not include patents for technological inventions.” AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A
patent need have only one claim directed to a covered
business method to be eligible for review. See Transitional Program for Covered Business Method Patents—Definitions of Covered Business Method Patent and Technological Invention, 77 Fed. Reg.
48,734, 48,736 (Aug. 14, 2012) (“CBM Rules”) (Comment 8).
Based on the record before us, we are apprised of
no reason to change the determination in our Institution Decision that at least claim 1 of the ’374 patent
is directed to a covered business method. Inst. Dec.
11–16.
1. Data Processing or Other Operations used in
a Financial Product or Service
Petitioner contends that “the ’374 patent claims
expressly require the performance of a financial
transaction, e.g., by ‘facilitating trade order entry’
through steps including ‘receiving market data for a
commodity,’ and ‘setting a price and sending the trade
order to the electronic exchange.’” Pet. 17 (citing claim
1 of the ’374 patent). Based on this record, we agree
with Petitioner that these activities are financial in
nature.
Patent Owner does not dispute that the claims are
directed to a financial product or service and, instead,
contends that the claims are not directed to “data processing” or “other operations” of the financial product
or service. PO Resp. 62–70. Patent Owner’s contentions are unpersuasive.

App. 101
Claim 1 encompasses processing financial data associated with a commodity and processing financial
data for sending a trade order for a commodity to an
exchange. See Ex. 1001, 4:60–64 (“The present invention processes this information and maps it…to a
screen.”); 10:52–54 (“[t]he process for placing trade orders using the Mercury display”). This processing of
financial data is used in the practice, administration,
or management of a commodity, which is a financial
product, and in the practice, administration, or management of electronic trading with an exchange,
which is a financial service or activity.
Even if there is some disagreement as to whether
claim 1 includes “data processing,” there appears to
be no disagreement that at least the steps noted above
are operations used in the practice, administration, or
management of a commodity or trading a commodity
on an electronic exchange. See PO Resp. 66–70 (discussing only whether the ’374 patent claims “data processing”). The ’374 patent, therefore, at least claims
“other operations used in the practice, administration, or management of a financial product or financial service” (AIA § 18(d)(1)).
Patent Owner additionally contends that the Legislative History confirms that the claimed invention
is not a covered business method. PO Resp. 74–77. We
are not persuaded by Patent Owner’s argument. The
language of the AIA, as passed, does not include an
exemption for all user interfaces for trading commodities from covered business method patent review. See
Unwired Planet, LLC v. Google Inc., 841 F.3d 1376,
1381–82 (Fed. Cir. 2016) (extra-statutory sources are
not persuasive when the plain words of the statute do

App. 102
not support such additional interpretive phrases).
Each patent has to be evaluated individually to determine if it is eligible for a covered business method patent review. A determination of whether a patent is
eligible for a covered business method patent review
under the statute is made on a case-by-case basis on
the facts of each case. 37 C.F.R. § 42.301(b).
For the reasons stated above, and based on the
particular facts of this proceeding, we conclude that
the ’374 patent “claims a method or corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or service” and meets
that requirement of § 18(d)(1) of the AIA.
2. Exclusion for Technological Inventions
To determine whether a patent is for a technological invention, we consider “whether the claimed subject matter as a whole recites a technological feature
that is novel and unobvious over the prior art; and
solves a technical problem using a technical solution.”
37 C.F.R. § 42.301(b).
The following claim drafting techniques, for example, typically do not render a patent a “technological
invention”:
(a) Mere recitation of known technologies, such
as computer hardware, communication or computer networks, software, memory, computerreadable storage medium, scanners, display devices or databases, or specialized machines,
such as an ATM or point of sale device.
(b) Reciting the use of known prior art technology to accomplish a process or method, even if

App. 103
that process or method is novel and non-obvious.
(c) Combining prior art structures to achieve
the normal, expected, or predictable result of
that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012).
Both prongs must be satisfied in order for the patent to be excluded as a technological invention. See
Versata Dev. Grp., Inc. v. SAP Am., Inc., 793 F.3d
1306, 1326–27 (Fed. Cir. 2015).
Petitioner contends that rather than reciting a
technical feature that is novel or unobvious over the
prior art, the claims of the ’374 patent generally recite
trading software that is implemented on a conventional computer. Pet. 19–22. Petitioner additionally
asserts that the claims of the ’374 patent do not fall
within § 18(d)(1)’s exclusion for “technological inventions” because the ’374 patent does not solve a technical problem using a technical solution. Pet. 22–24.
Patent Owner disagrees (PO Resp. 71–74), but fails to
explain how the claimed subject matter recites a technological feature that is novel and unobvious over the
prior art or solves a technical problem using a technical solution.
We are persuaded by Petitioner’s contentions that
at least claim 1 of the ’374 patent does not recite a
novel and non-obvious technological feature. The
specification of the ’374 patent treats as well-known
all potentially technological aspects of the claims. For
example, the ’374 patent discloses that its system can
be implemented “on any existing or future terminal or

App. 104
device” (Ex. 1001, 4:4–7), each of which is known to
include a display, and discloses that the input device
can be a mouse (id. at 4:8–11), which is a known input
device. The ’374 patent further discloses that “[t]he
scope of the present invention is not limited by the
type of terminal or device used.” Id. at 4:7–8. The ’374
patent explains that the programming associated
with the GUI is insignificant. See, e.g., Ex. 1001, 4:60–
67 (explaining that the “present invention processes
[price, order, and fill] information and maps it
through simple algorithms and mapping tables to positions in a theoretical grid program” and “[t]he physical mapping of such information to a screen grid can
be done by any technique known to those skilled in
the art”).
Petitioner notes that the ’374 patent “purports to
minimize the risk of the market price changing before
the trade is executed, such that the trader ‘misses the
price.’” Pet. 22 (citing Ex. 1001, 2:57–59; 3:2–4). Petitioner argues that “contending with price fluctuations
in a market is not a technological problem.” Id. Petitioner contends that “the ’374 patent does not offer a
technical solution” because “[i]t does not claim a more
accurate mouse or a computer that responds faster.”
Id. at 23.
We are persuaded that the ’374 patent does not
solve a technical problem with a technical solution. As
written, claim 1 requires the use of only known technology. Moreover, we do not see how claim 1, for example, even solves the problem alleged by Patent
Owner (i.e., missing an intended price). See, e.g., Ex.
2169 ¶ 77. Given this, we determine that at least
claim 1 does not solve a technical problem using a

App. 105
technical solution and at least claim 1 does not satisfy
the second prong of 37 C.F.R. § 42.301(b).
3. Conclusion
In view of the foregoing, we conclude that the ’374
patent is a covered business method patent under AIA
§ 18(d)(1) and is eligible for review using the transitional covered business method patent program.
C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–36 as directed to
patent-ineligible subject matter under 35 U.S.C.
§ 101. Pet. 28–50. Patent Owner disagrees. PO Resp.
12–62.
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four statutorily provided categories of patent-eligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d
709, 713–14 (Fed. Cir. 2014).
There is no dispute that claims 1–35 fit within one
of the categories of patent-eligibility. Petitioner asserts, however, that “claim 36 of the ’374 patent is invalid because it encompasses subject matter that does
not fall into any of the four statutory classes of § 101.”
Pet. 48. Claim 36 recites a “computer readable medium having stored therein instructions.” Petitioner
contends that “the BRI of ‘medium,’ as used in claim
36 of the ’374 patent…is broad enough to cover substances ‘such as wires, air, or a vacuum’ through
which transitory electrical signals can propagate.”
Pet. 49 (citing In re Nuijten, 550 F.3d 1346, 1352 (Fed.
Cir. 2007)); Pet. Reply 24.

App. 106
Patent Owner responds that there is no evidence
to support Petitioner’s contention that one skilled in
the art would have understood “computer readable
medium having stored therein instructions” to encompass a signal at the time of the invention. PO Resp.
61–62. Petitioner responds to Patent Owner’s contentions by simply asserting that “the Board correctly
found that the BRI of a ‘computer readable medium’
encompasses transitory media” and “[n]othing in the
specification limits a broad application of this definition.” Pet. Reply 24.
Petitioner’s response is unhelpful. In our Institution Decision, we explicitly noted that our construction was preliminary and specifically indicated that
“[t]he broadest reasonable interpretation, in light of
the specification, of ‘stored’ is an issue that requires
further development of the record.” Inst. Dec. 9. In its
Reply, Petitioner cites no evidence to rebut Patent
Owner’s contentions regarding how one skilled in the
art would have understood the claim language at issue at the time of the invention. In fact, Petitioner
does not even acknowledge those contentions. At oral
hearing, when asked why no evidence was provided in
this regard, Petitioner had no explanation other than
“it would be difficult…because this is a term of art in
the patent field” and “you can[not] go to an IEEE dictionary and find necessarily a dictionary definition
that would be helpful here.” Tr. 71:4–10.
Accordingly, on this record, which is absent any
further evidence or meaningful argument from Petitioner, we are not persuaded that at the time of the
invention one skilled in the art would have understood “computer readable medium having stored

App. 107
therein instructions” as encompassing transitory,
propagating signals.
Nevertheless, we are persuaded that claims 1–36
do not recite patent-eligible subject matter for the reasons that follow.
1. Abstract Idea
Section 101 “contains an important implicit exception [to subject matter eligibility]: Laws of nature,
natural phenomena, and abstract ideas are not patentable.” Alice Corp. Pty. Ltd. v. CLS Bank. Int’l, 134
S. Ct. 2347, 2354 (2014) (quoting Assoc. for Molecular
Pathology v. Myriad Genetics, Inc., 133 S. Ct. 2107,
2116 (2013)). In Alice, the Supreme Court reiterated
the framework set forth previously in Mayo Collaborative Services v. Prometheus Labs., Inc., 566 U.S. 66,
70–71 (2012), “for distinguishing patents that claim
laws of nature, natural phenomena, and abstract
ideas from those that claim patent-eligible applications of those concepts.” Alice, 134 S. Ct. at 2355. The
first step in the analysis is to “determine whether the
claims at issue are directed to one of those patent-ineligible concepts.” Id.
Claim 1 is “[a] method for facilitating trade order
entry” and recites “receiving…market data,” “identifying…sequential price levels,” “displaying…graphical locations along an axis,” “mapping…the…sequential price levels to the…graphical locations,” and “setting a price and sending the trade order.”2 In our In-

The following discussion addresses claim 1, with the understanding that the discussion applies equally to claim 36, which

2

App. 108
stitution Decision, we specifically set forth our understanding of the limitations noted above, explaining
that claim 1 “do[es] not require that the graphical locations display the price levels that are mapped to
them, any other information, or even any indication
as to which of those graphical locations correspond to
bids and which correspond to asks.” Inst. Dec. 10–11.
We further explained that, based on our understanding of the claim language, the “claims provide [no] indication to a user of market information, such as
price, order quantity, or order type” and “the graphical locations simply could be ‘black boxes’ with price
values associated with them, and no information provided to the user indicating that price value, the order
quantity, or the order type.” Id. Patent Owner does
not dispute our understanding of the claims, which,
as noted above, was set forth explicitly in our Institution Decision.
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over the
prior art’ to determine if the claim’s ‘character as a
whole’ is directed to excluded subject matter.’” Affinity Labs of Texas v. DirectTV, LLC, 838 F.3d 1253,
1257 (Fed. Cir. 2016) (citations omitted). There is no
definitive rule to determine what constitutes an “abstract idea.” Rather, the Federal Circuit has explained that “both [it] and the Supreme Court have
found it sufficient to compare claims at issue to those
claims already found to be directed to an abstract idea
in previous cases.” Enfish, LLC v. Microsoft Corp., 822

recites a computer readable medium having instructions to execute a method substantially the same as the method of claim 1.

App. 109
F.3d 1327, 1334 (Fed. Cir. 2016); see also Amdocs (Israel) Ltd. v. Openet Telecom, Inc., 841 F.3d 1288, 1294
(Fed. Cir. 2016) (explaining that, in determining
whether claims are patent-eligible under § 101, “the
decisional mechanism courts now apply is to examine
earlier cases in which a similar or parallel descriptive
nature can be seen—what prior cases were about, and
which way they were decided”). As explained in our
Institution Decision, “these claims are drafted at such
a high level of abstraction that it is difficult to imagine the bounds of their application.” Inst. Dec. 11.
Petitioner argues that the challenged claims “are
directed to the abstract, fundamental economic practice of trading based on displayed market information
and user input.” Pet. 29. In our Institution Decision,
we specifically indicated that “the concept embodied
by the majority of the limitations appears to be even
broader than that suggested by Petitioner,” stating
that independent claims 1 and 36 are directed to “the
abstract idea of receiving user input and placing a
trade order.” Inst. Dec. 19. Patent Owner responds to
our characterization of the claims by alleging, generally, and without meaningful explanation, that “the
’374 patent does not simply claim its invention to be
the concept of…’receiving user input and placing a
trade order,’ the PTAB’s purported abstract idea.” PO
Resp. 2 (citing Inst. Dec. 19); see also id. at 51 (“Nor
are the claims directed to ‘receiving user input and
placing a trade order,’ the PTAB’s purported abstract
idea.” (citing Inst. Dec. 19)).
As noted above, claim 1 only minimally requires
collecting and analyzing information and includes no
requirement that any of that information is displayed.

App. 110
Even collecting, analyzing, and displaying information, by itself, however, does not remove claims
from abstraction. See, e.g., Elec. Power Grp., LLC v.
Alstom S.A., 830 F.3d 1350, 1353–54 (Fed. Cir. 2016).
To the extent claim 1 requires a GUI, it does so in the
most basic sense, only requiring generic graphical locations that are selectable by a user. Claims that require a GUI are not automatically patent eligible. Affinity Labs, 838 F.3d at 1255–56; Apple, Inc., v.
Ameranth, Inc., 842 F.3d 1229, 1234 (Fed. Cir. 2016).
In both Affinity Labs and Ameranth, the court determined that the claims were not directed to a particular way of programming or designing the software,
but instead merely claim the resulting systems, and
determined that the claims are not directed to a specific improvement in the way computers operate. Affinity Labs, 838 F.3d at 1260–61; Ameranth, 842 F.3d
at 1241. The same is true here in that the claims are
not directed to any particular way of programming or
designing software, but merely claim the resulting
system and not any specific improvement in the way
a computer operates.
Patent Owner only discusses, generally, patent eligibility requirements under § 101, without explaining how that discussion applies to the specific claim
limitations of the ’374 patent. See, e.g., PO Resp. 1–
17, 23–33. Patent Owner, instead, continually alleges
that the claims are directed to a specific graphical
user interface. See, e.g., PO Resp. 1 (“The claims of the
’374 patent are patent eligible because they are not
directed to an “abstract idea,” but are instead directed
to the specific structure, makeup, and functionality of
a technological graphical user interface (“GUI”) tool
that can be used for electronic order entry.”), 10 (“TT’s

App. 111
claims are directed to a specific implementation—
that is, a specific GUI.”), 12 (“[T]he ’374 patent claims
are patent eligible because they claim the construction of a specific GUI….”), 23 (“TT’s claims set forth a
particular way to construct a specific GUI with specific structure, makeup, and functionality.”), 27 (“The
claims here are directed to constructing a GUI with a
specific structure, makeup, and functionality that is
both a specific means or method and a particular,
practical implementation of an order entry interface.”).
The only reference to specific claim limitations in
the Patent Owner Response related to whether the
claim 1 is directed to an abstract idea is a reproduction of the claim language (PO Resp. 18–22), followed
by conclusory statements, such as “because of this
structure, makeup, and functionality, the mapping of
the plurality of sequential price levels does not change
at a time when at least one of the current highest bid
price and the current lowest ask price changes,
providing the benefits described in the specification”
(id. at 22). Patent Owner alleges that “[t]his specific
combination of display elements and features differed
from the conventional GUIs at the time of the invention and addressed a specific problem created by these
conventional GUIs, namely, improving accuracy without sacrificing speed and improving usability.” Id. at
28.
Although Patent Owner provides a table allegedly
illustrating how claim 1 “is constructed to display and
function,” that characterization of the “structure,
makeup, and functionality” of the claims is conclusory
and inaccurate. PO Resp. 19–21 (citing Ex.1001,

App. 112
11:39–12:5; Ex. 2168 ¶ 42). For example, Patent
Owner contends that “[t]he structure of each graphical location is aligned along the price axis structure
on the visual display” and “[e]ach graphical location
functions such that it is selectable…to send a trade
order…at the price aligned with the selected graphical location.” Id. at 20 (emphasis added). The testimony from Mr. Gould Bear cited by Patent Owner is
simply a reproduction of the table spanning pages 19–
22 of the Patent Owner Response. Ex. 2168 ¶ 42.
Claim 1, however, recites “an axis,” not “a price axis,”
and does not require any display of price information
or any other specific type of information.3
As for Patent Owner’s arguments that we should
follow the Federal Circuit’s guidance in CQG (See PO
Add’l Sub. 1–5), comparing the claims of the patents
involved in CQG with those in the ’374 patent is not
particularly helpful here. Although the ’374 patent
shares a specification with the patents at issue in
CQG, the claims at issue in the ’374 patent are much
broader. In its additional submission, Patent Owner
contends that “the ’374 patent claims are in some respects narrower than the claims of the ’132 and ’304
patents,” which were at issue in CQG. PO Add’l Sub.
5. Patent Owner reproduces portions of claim 1 from
the ’374 patent that recite the features of “setting a
price and sending the trade order to the electronic exchange” in that claim. Id. Patent Owner offers no explanation, however, as to how that claim language
Patent Owner clearly knew how to claim a price axis, but chose
not to limit the claims in that manner in the ’374 patent. See Ex.
2111, 12:44 (earlier filed patent claiming a “price axis” in the
same chain of continuation filings that resulted in the ’374 patent).

3

App. 113
makes claim 1 of the ’374 patent narrower, in a meaningful way, than what is recited in the ’132 or ’304 patent claims. The ’304 patent, for example, recites a
similar limitation (“setting a plurality of parameters
for a trade order…and sending the trade order to the
electronic exchange”) as well as numerous other limitations not found in claim 1 of the ’374 patent.
Accordingly, comparing the claims at issue in this
proceeding with those addressed in CQG is not particularly helpful here, particularly when the court implied that even those narrower claims of the ’132 and
’304 patents are on the line between patent eligibility
and ineligibility (see CQG, 2017 WL 192716, at *4
(noting the “close question[] of eligibility”)).
As explained above, claim 1 is simply directed to
receiving user input to send a trade order. There is no
dispute that receiving user input and placing a trade
order, a fundamental economic practice, is an abstract
idea.
2. Inventive Concept
Next we turn to “the elements of each claim both
individually and ‘as an ordered combination’ to determine whether the additional elements ‘transform the
nature of the claim’ into a patent-eligible application.”
Alice, 134 S. Ct. at 2355 (quoting Mayo, 566 U.S. at
78–79). The additional elements must be more than
“well-understood, routine, conventional activity.” Id.
at 1298. On this record, we are persuaded that the
challenged claims of the ’374 patent do not add an inventive concept sufficient to ensure that the patent in
practice amounts to significantly more than a patent
on the abstract idea itself. See Pet. 33–44.

App. 114
As noted above, the specification of the ’374 patent
treats as well-known all potentially technological aspects of the claims. For example, the ’374 patent discloses that its system can be implemented “on any existing or future terminal or device” (Ex. 1001, 4:4–7),
each of which is known to include a display, and discloses that the input device can be a mouse (id. at 4:8–
11), which is a known input device. The ’374 patent
further discloses that “[t]he scope of the present invention is not limited by the type of terminal or device
used.” Id. at 4:7–8. The ’374 patent also describes the
programming associated with the GUI as insignificant. See, e.g., id. at 4:60–67 (explaining that “present
invention processes [price, order, and fill] information
and maps it through simple algorithms and mapping
tables to positions in a theoretical grid program” and
“[t]he physical mapping of such information to a
screen grid can be done by any technique known to
those skilled in the art”).
Patent Owner acknowledges that “prior art GUIs
provided the ability to enter and send order messages
to an electronic exchange using…order entry
screens,” and specifically references the Figure 2 “conventional GUI tool” described in the ’374 patent. PO
Resp. 13. Patent Owner does not appear to contend
that anything in the claim is unconventional other
than, perhaps, that the “mapping of the plurality of
sequential price levels does not change at a time when
at least one of the current highest bid price and the
current lowest ask price changes.”4 See, e.g., Ex. 2169

Patent Owner explicitly acknowledges that the combination of
other features recited in the claim are conventional in related

4

App. 115
¶¶ 43–69. That, however, does not add an inventive
concept, as it simply maintains the previous association between a given graphical location and its price
level. That limitation simply requires that nothing
changes, other than the data that is received.
Patent Owner argues, however, that “[t]he claims
recite an inventive concept (and thus pass prong II
under Alice) at least because they are an unconventional and revolutionary combination of features” and
“the claimed GUI tool is constructed to provide the
claimed structure, function, and makeup for displaying, mapping, and order entry.” PO Resp. 34. Again,
we note that Patent Owner’s arguments do not address the elements recited in the claim. Patent Owner
discusses DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014), for example, but offers no
specific explanation as to how the claims of the ’374
patent are like those that were at issue in that case.
PO Resp. 38–41. Unlike claim 1 of the ’374 patent, the
court in DDR Holdings determined those claims were
not directed to “a fundamental economic or longstanding commercial practice” or “an invention that
is…merely the routine or conventional use of the In-

proceedings addressing patents in the same family of continuation filings that resulted in the ’374 patent. For example, when
discussing the Figure 2 “conventional GUI tool” referenced in the
’374 patent, Patent Owner acknowledged that “these types of
tools permitted ‘single action’ order entry that consisted of a
trader presetting a default quantity and then clicking on a cell
in the screen (i.e., pressing a button on the tool) to cause a trade
order message to be sent to the exchange at the preset quantity
and at the price value associated with that cell.” CBM201400136, Paper 18, 7.

App. 116
ternet.” DDR Holdings, 773 F.3d at 1257, 1259. Rather, the claims in DDR Holdings were characterized
as providing “a result that overrides the routine and
conventional sequence of events ordinarily triggered
by the click of a hyperlink.” Id. at 1258. As explained
above, we see nothing other than routine and conventional features in claim 1.
Patent Owner fails to identify, and we are not apprised of, an inventive concept in the claims. Patent
Owner does not allege that a specific claim limitation,
or combination of limitations, provides an inventive
concept. As explained above, we are persuaded that
the claim does not include elements that “transform
the nature of the claim” into a “patent-eligible application.”
Given the above, we determine that the combination of elements of the claim does not transform the
nature of the claim into a patent-eligible application
of the abstract idea. They do not add significantly
more to the abstract idea.
3. Dependent Claims
Petitioner contends that the additional elements
recited by dependent claims 2–35 do not add significantly more to the abstract idea so as to render the
claims patent-eligible. Pet. 39–44. Based on our review of the record before us, we are persuaded by Petitioner’s contentions regarding claims 2–35. Those
claims further define, for example, the information
mapped to the graphical locations (claims 2–11), the
orientation of the graphical locations on the screen
(claims 12, 33, and 34), displaying additional information (claims 13–18), and features associated with

App. 117
receiving and executing the user’s command (claims
19, 20, 23–27, and 35). Nothing in those claims removes them from abstraction or provides an inventive
concept sufficient to save the claims from ineligibility.
Patent Owner addresses only claims 13–15 specifically, noting that “dependent claims 13–15 recite, inter alia, a first indicator and second indicator that
move relative to the graphical locations” and “[t]his
relative movement provided a significant unexpected
improvement over the preexisting technology.” PO
Resp. 29. Patent Owner fails to offer any persuasive
explanation, however, as to why displaying this additional information makes the claims any less abstract
or provides an inventive concept sufficient to save the
claims from ineligibility.
4. Conclusion
Having considered the record before us, we are
persuaded that Petitioner has shown sufficiently that
claims 1–36 of the ’374 patent are not directed to patent eligible subject matter under 35 U.S.C. § 101.
D. Motions to Exclude Evidence
Petitioner moves to exclude Exhibits 2211, 2220,
2222, 2287, and 2292–2296 (the eSpeed/CQG Transcripts); Exhibit 2223 (the Electronic Trader Declarants Exhibit); Exhibit 2214 (Animation); Exhibit 2169
¶¶ 71, 79, 80, 83–86, 92–95, and 100–102 (Confidential Declaration of Christopher Thomas); and Exhibits
2206, 2207, 2415, 2416, 2250, and 2279–2282 (Documents from District Court Cases). Paper 31, 2–10. Patent Owner moves to exclude Exhibit 1003 (TSE) and
Exhibit 1009 (the transcript of Mr. Kawashima’s testimony). Paper 34, 1.

App. 118
Petitioner’s Motion to Exclude Evidence and Patent Owner’s Motion to Exclude Evidence are dismissed because we do not rely on the Exhibits or portions of the Exhibits addressed by those motions in
reaching our Decision.
ORDER
For the reasons given, it is:
ORDERED that claims 1–36 of the ’374 patent are
unpatentable;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence is dismissed;
FURTHER ORDERED that Patent Owner’s Motion to Exclude Evidence is dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking judicial review of the Decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

App. 119
UNITED STATES PATENT AND
TRADEMARK OFFICE
__________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
__________________
IBG LLC, INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Patent Owner.
__________________
CBM 2016-00032
Patent 7,212,999 B2
__________________
Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and JEREMY M. PLENZLER, Administrative
Patent Judges.
PETRAVICK, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

App. 120
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers LLC, TradeStation
Group, Inc., and TradeStation Securities, Inc. (collectively, “Petitioner”) filed a Petition requesting a covered business method patent review of claims 1–35 of
U.S. Patent No. 7,212,999 B2 (Ex. 1001, “the ’999 patent”). Paper 1 (“Pet.”). Trading Technologies International, Inc. (“Patent Owner”) filed a Preliminary Response. Paper 12 (“Prelim. Resp.”).
On August 8, 2016, we instituted a covered business method patent review (Paper 16, “Institution Decision” or “Inst. Dec.”) based upon Petitioner’s assertion that claims 1–35 are directed to patent ineligible
subject matter under 35 U.S.C. § 101. Inst. Dec. 28.
Subsequent to institution, Patent Owner filed a Patent Owner Response (Paper 24, “PO Resp.”) and Petitioner filed a Reply (Paper 29, “Pet. Reply”) to Patent Owner’s Response. Pursuant to our authorization, Patent Owner filed an additional submission addressing the Federal Circuit’s holding in Technologies
International, Inc., v. CQG, Inc., 675 Fed.Appx. 1001
(Fed. Cir. 2017) (“CQG”) (Paper 36) and Petitioner
filed a reply to that submission (Paper 37). Petitioner
filed a Motion to Exclude Evidence (Paper 39, “Pet.
MTE”), and Patent Owner filed a Motion to Exclude
Evidence (Paper 41, “PO MTE”).
We held a joint hearing of this case and several
other related cases on May 3, 2017. Paper 50 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written Decision is issued pursuant to 35 U.S.C.
§ 328(a) and 37 C.F.R. § 42.73. For the reasons that

App. 121
follow, we determine that Petitioner has shown sufficiently that claims 1–35 of the ’999 patent are directed to patent ineligible subject matter under 35
U.S.C. § 101.
B. Related Proceedings
The ’999 patent is involved in the following lawsuits: TT v. IBG LLC, No. 1:10-cv-00721 (N.D. Ill.)
and TT v. TradeStation Securities, Inc., 1:10-cv-884
(N.D. Ill.). Pet. 3.
Numerous patents are related to the ’999 patent
and the related patents are or were the subject of numerous petitions for covered business method patent
review and reexamination proceedings. As noted
above, the Federal Circuit has issued a non-precedential decision, CQG, which addresses whether claims
of U.S. Patent Nos. 6,766,304 (“the ’304 patent”) and
6,772,132 (“the ’132 patent”) are patent eligible under
§ 101. The ’999 patent at issue in this case is not related to the ’132 and ’304 patents via continuation or
divisional filings.
C. Asserted Grounds of Unpatentability
Petitioner contends that the challenged claims are
unpatentable under 35 U.S.C. § 101. Pet. 19–35.
D. The ’999 Patent
The ’999 patent describes a graphical user interface (“GUI”) for an electronic trading system that allows a remote trader to view trends for an item, which
assists the trader to anticipate demand for an item.
Ex. 1001, 2:3–6. Figure 3A of the ’999 patent is reproduced below.

App. 122

Figure 3A depicts a GUI that includes: 1) value
axis 332, which indicates the value at which an item
is being traded, 2) multiple offer icons 304(1)–304(8),
and 3) multiple bid icons 300(1)–300(8). Id. at 6:13–
15. The offer icons and the bid icons represent orders
in the marketplace. Id.
A trader can place an order using the GUI in a variety of ways. Id. at 8:26–27. The trader can use task
bar 328 to enter the required information and submit
the order using the “Place Order” button. Id. at 8:27–
33. Alternatively, the trader can select offer token 324
or bid token 320 using a pointing device, adjust the
size of the token to match a desired quantity, and
drag-and-drop the token to a location that corresponds to the desired value of the order. Id. at 8:38–
58. Either a Buy pop-up window or a Sell pop-up window is displayed, which allows the trader to modify,

App. 123
cancel, or submit the order. Id. at 8:54–65; Figs. 3d,
3e.
E. Illustrative Claim
Claims 1 and 35 are independent claims. Claims
2–34 directly or indirectly depend from claim 1. Claim
1 of the ’999 patent is illustrative of the subject matter
at issue.
1. A computer based method for facilitating the
placement of an order for an item and for displaying transactional information to a user regarding the buying and selling of items in a system where orders comprise a bid type or an offer type, and an order is generated for a quantity of the item at a specific value, the method
comprising:
displaying a plurality of bid indicators,
each corresponding to at least one bid
for a quantity of the item, each bid indicator at a location along a first scaled
axis of prices corresponding to a price
associated with the at least one bid;
displaying a plurality of offer indicators,
each corresponding to at least one offer
for a quantity of the item, each offer indicator at a location along a first scaled
axis of prices corresponding to a price
associated with the at least one offer;
receiving market information representing a new order to buy a quantity of
the item for a specified price, and in response to the received market information, generating a bid indicator that

App. 124
corresponds to the quantity of the item
bid for and placing the bid indicator
along the first scaled axis of prices corresponding to the specified price of the
bid;
receiving market information representing a new order to sell a quantity of
the item for a specified price, and in response to the received market information, generating an offer indicator
that corresponds to the [q]uantity of the
item for which the offer is made and
placing the offer indicator along the first
scaled axis of prices corresponding to
the specified price of the offer;
displaying an order icon associated with
an order by the user for a particular
quantity of the item;
selecting the order icon and moving the
order icon with a pointer of a user input
device to a location associated with a
price along the first scaled axis of prices;
and
sending an order associated with the order icon to an electronic trading exchange, wherein the order is of a bid
type or an offer type and the order has a
plurality of order parameters comprising the particular quantity of the item
and the price corresponding to the location at which the order icon was moved.

App. 125
ANALYSIS
A. Claim Construction
In a covered business method patent review, claim
terms in an unexpired patent are given their broadest
reasonable construction in light of the specification of
the patent in which they appear. 37 C.F.R. §
42.300(b); Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2144–46 (2016) (upholding the use of the broadest reasonable interpretation approach). Under the
broadest reasonable construction standard, claim
terms are given their ordinary and customary meaning, as would be understood by one of ordinary skill in
the art in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007). Any special definition for a claim term must be
set forth with reasonable clarity, deliberateness, and
precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir.
1994).
1. “axis of prices” and “indicators, icons, and
tokens”
Petitioner proposes constructions for the following
claim terms: “axis of prices” and “indicators, icons,
and tokens,” which are recited at least in claims 1, 9,
and 35. Pet. 13–17. Patent Owner does not challenge
Petitioner’s proposed claim constructions. We have
reviewed Petitioner’s proposed constructions and determined that they are consistent with the broadest
reasonable constructions for the reason discussed in
the Petition. Id. We adopt the following claim constructions:

App. 126
Claim Term

Construction

axis of prices

a reference line for plotting
prices, including labeled, unlabeled, visible, and invisible
reference lines

indicators, icons, and a symbol such as an alphanutokens
meric character or a graphic
representation of an item

B. Covered Business Method Patent
Section 18 of the Leahy-Smith America Invents
Act, Pub. L. No. 112– 29, 125 Stat. 284, 329 (2011)
(“AIA”) provides for the creation of a transitional program for reviewing covered business method patents.
Section 18 limits review to persons or their privies
who have been sued or charged with infringement of
a “covered business method patent,” which does not
include patents for “technological inventions.” AIA §
18(a)(1)(B), (d)(1); see 37 C.F.R. § 42.302. In compliance with 37 C.F.R. § 42.302(a), Petitioner certifies
that it has been sued for infringement of the ’999 patent. Pet. 3.
Based on the record before us, we are apprised of
no reason to change the determination in our Institution Decision that at least claim 1 of the ’999 patent
is directed to a covered business method. Inst. Dec. 6–
13.

App. 127
1. “Method or Corresponding Apparatus for Performing Data Processing or Other Operations
Used in the Practice, Administration or Management of a Financial Product or Service”
The statute defines a “covered business method patent” as
[a] patent that claims a method or corresponding apparatus for performing
data processing or other operations used
in the practice, administration, or management of a financial product or service.
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A covered
business method patent can be broadly interpreted to
encompass patents claiming activities that are financial in nature. Transitional Program for Covered
Business Method Patents—Definitions of Covered
Business Method Patent and Technological Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1338–
41 (Fed. Cir. 2016) (determining that a patent was a
covered business method patent because it claimed
activities that are financial in nature); Unwired
Planet, LLC v. Google, Inc., 841 F.3d 1376, n. 5 (Fed.
Cir. 2016) (stating that “we endorsed the ‘financial in
nature’ portion of the standard as consistent with the
statutory definition of ‘covered business method patent’ in Blue Calypso”), Versata Development Group,
Inc. v. SAP America, Inc., 793 F.3d 1306, 1324–25
(Fed. Cir. 2015) (“[The statute] on its face covers a
wide range of finance-related activities.”).

App. 128
A patent need have only one claim directed to a
covered business method to be eligible for review. 77
Fed. Reg. at 48,736 (Response to Comment 8). We
take claim 1 as representative.
Petitioner contends that the ’999 patent is a covered business method patent because the claims recite receiving and displaying market information and
sending a trade order to an electronic exchange,
which are financial activities. Pet. 4–5 (citing claim 1
of the ’999 patent); Pet. Reply 22–24. Patent Owner
does not dispute that the claims are directed to a financial product or service and, instead, contends that
the ’999 patent is not a covered business method patent because the claims are not directed to data processing or other business method operations. See PO
Resp. 52–55. Patent Owner contends that, regardless
that some claims recite a method, the claims of the
’999 patent are directed to a device, a GUI tool, and
not a data processing or business method claim. Id. at
59–60.
Initially we note that a covered business method
patent is not limited to only patents that claim a
method, as opposed to a device. Covered business
method patents include a patent that claims “a
method or corresponding apparatus.” AIA § 18(d)(1);
see 37 C.F.R. § 42.301(a). Claim 1 of the ’999 patent
recites: “A computer based method for facilitating the
placement of an order for an item and for displaying
transactional information to a user regarding the buying and selling of items . . . .” Ex. 1001, 14:7–10. As
Petitioner points out, claim 1 recites steps of: 1) displaying market information, including indicators of

App. 129
bids and offers in the market, 2) receiving and displaying market information, including new bids and
new offers in the market, 3) displaying, selecting, and
moving an order icon to a location along an axis of
prices, and 4) sending a trade order to an electronic
trading exchange. Pet. 4; Ex. 1001, 14:7–47.
Buying and selling items and sending a trade order to an electronic exchange are activities that are
financial in nature. A method for facilitating the
placement of an order for an item and for displaying
transactional information to a user regarding the buying and selling of items is a method for performing
data processing or other operations used in the practice, administration, or management of a financial
product or service.
Patent Owner disputes that the ’999 patent claims
data processing. PO Resp. 53–55. Patent Owner argues that the statute requires that the “data processing” cause a significant change in the data, and
that data processing that merely displays the data,
like the data processing disclosed in the ’999 patent,
is not significant. Id. Patent Owner’s argument is
based upon the assumption that “data processing” in
the statute is interpreted according to the definition
of “data processing” found in the glossary for class 705
of the United States Patent Classification System. See
id at 53. Patent Owner, however, does not sufficiently
explain why this definition is controlling, as opposed
to the plain meaning of “data processing.” See Ex.
1048 (dictionary definition of “data processing” as
“the converting of raw data to machine readable form
and its subsequent processing (as storing, updating,
rearranging, or printing out) by a computer.”), Ex.

App. 130
1049 (dictionary definition of “data processing” as
“the rapid handling of large amounts of information,
as business data, by means of mechanical, or esp.,
computer equipment”). We, thus, are not persuaded
that “data processing” as recited by the statute precludes data processing for the purpose of displaying
the data. The ’999 patent discloses processing market
information for display on a client terminal and for
sending an order to an exchange. See e.g., Ex. 1001,
10:54–58 (“the order has been processed by the server
200”) 11:2– 4(“server 200 then processes the order information”), 11:42–44 (“the process is repeated”). We,
thus, are not persuaded that the ’999 patent does not
claim “performing data processing…used in the practice, administration, or management of a financial
product or service” (AIA § 18(d)(1)).
In any event, the statute does not limit covered
business method patents to only those that claim
methods for performing data processing used in the
practice, administration, or management of a financial product or service. It includes methods for performing “other operations” used in the practice, administration, or management of a financial product or
service. Patent Owner’s arguments imply that “other
operations” must be “business operations.” See e.g.,
PO Resp. 52. The statute states that the “other operations” are those that are “used in the practice, administration, or management of a financial product or
financial service.” AIA § 18(d)(1). There appears to be
no disagreement that the claimed method steps are
operations used in the practice, administration, or
management of a commodity or trading a commodity
on an electronic exchange, e.g., a financial service.

App. 131
The ’999 patent, therefore, at least claims “other operations used in the practice, administration, or management of a financial product or financial service”
(AIA § 18(d)(1)).
Patent Owner additionally contends that the Legislative History confirms that the claimed invention
is not a covered business method. PO Resp. 58–61. We
are not persuaded by Patent Owner’s argument. Although the legislative history includes certain statements that certain novel software tools and graphical
user interfaces that are used by the electronic trading
industry worker are not the target of § 18 of the AIA
(see Ex. 2126, S5428, S5433), the language of the AIA,
as passed, does not include an exemption for user interfaces for commodities trading from covered business method patent review. Indeed, “the legislative
debate concerning the scope of a CBM review includes
statements from more than a single senator. It includes inconsistent views….” Unwired Planet, 841
F.3d at 1381. For example, in contrast to the statements cited by Patent Owner, the legislative history
also indicates that “selling and trading financial instruments and other securities” is intended to be
within the scope of covered business method patent
review. See Ex. 2126, S5432 (statements of Sen.
Schumer). “[T]he legislative history cannot supplant
the statutory definition actually adopted…. The authoritative statement of the Board’s authority to conduct a CBM review is the text of the statute.” Unwired
Planet, 841 F.3d at 1381. Each claimed invention has
to be evaluated individually to determine if it is eligible for a covered business method patent review. A

App. 132
determination of whether a patent is eligible for a covered business method patent review under the statute
is made on a case-by-case basis. 37 C.F.R. § 42.301(b).
For the reasons stated above, we are persuaded by
Petitioner that the ’999 patent “claims a method or
corresponding apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or
service” and meets that requirement of § 18(d)(1) of
the AIA.
2. Exclusion for Technological Inventions
Even if a patent includes claims that would otherwise be eligible for treatment as a covered business
method, review of the patent is precluded if the claims
cover only “technological invention[s],” as defined by
37 C.F.R. §42.301(b). The definition of “covered business method patent” in § 18(d)(1) of the AIA does not
include patents for “technological inventions.”
To determine whether a patent is for a technological invention, we consider “whether the claimed subject matter as a whole [1] recites a technological feature that is novel and unobvious over the prior art;
and [2] solves a technical problem using a technical
solution.” 37 C.F.R. § 42.301(b). The following claim
drafting techniques, for example, typically do not render a patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer hardware, communication or computer networks, software, memory, computer-readable storage medium, scanners, display devices

App. 133
or databases, or specialized machines,
such as an ATM or point of sale device.
(b) Reciting the use of known prior art
technology to accomplish a process or
method, even if that process or method
is novel and non-obvious.
(c) Combining prior art structures to
achieve the normal, expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,763–64 (Aug. 14, 2012).
Both prongs must be satisfied in order for the patent to be excluded as a technological invention. See
Versata, 793 F.3d at 1326–7; Apple Inc. v. Ameranth,
Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016).
Petitioner contends that the ’999 patent is not for
a technological invention because the claims fail to recite any technological feature that is novel and unobvious over the prior art, and do not solve a technical
problem with a technical solution. Pet. 3–9. In particular, Petitioner argues that the claims recite trading
software that is implemented using conventional computer hardware, servers, and networks, directing attention to a description in the ’999 patent that generically refers to “personal computers, terminals as part
of a network, or any other computing device” and no
specific hardware to carry out the invention. Id. at 6–
7 (citing Ex. 1001, 4:34–36). Petitioner also argues
that electronic trading was well known as of the filing
date. Id. at 7.
Patent Owner disagrees (PO Resp. 56–58), but
fails to explain sufficiently how the claimed subject

App. 134
matter recites a technological feature that is novel
and unobvious over the prior art or solves a technical
problem using a technical solution.
We are persuaded by Petitioner’s contentions that
at least claim 1 of the ’999 patent does not recite a
novel and non-obvious technological feature. For example, the “BACKGROUND OF THE INVENTION”
section of the ’999 patent explains that it was well
known for an exchange to record all transactions for a
particular item and to replay or post to the individual
traders outstanding bids with the highest values and
outstanding offers with the lowest value, along with a
quantity specified for each order, to facilitate trading
a commodity. Ex. 1001, 1:31–41. There is no indication in the ’999 patent that the inventors invented
gathering market information, displaying it to a
trader, and using the information to facilitate trading
a commodity. See PO Resp. 57–58 (“This is correct.”).
The use of a computer to perform these functions also
was known in the art at the time of the invention, and
the ’999 patent does not claim any improvement of a
computing device.
Patent Owner argues that the ’999 patent is for a
technological invention because the claims are directed to a novel and nonobvious GUI tool that improves, and transforms, a computer so it can perform
functions it previously could not. PO Resp. 56–58. We
disagree that claim 1, for example, is directed to a
novel and nonobvious GUI tool that improves, and
transforms, a computer so it can perform functions it
previously could not. Patent Owner’s arguments in
that regard are conclusory, and not directed to any

App. 135
specific language from the claims themselves. As explained above, claim 1 is directed to a method for facilitating the placement of an order for an item and
for displaying transactional information to a user regarding the buying and selling of items, that requires
receiving and displaying market information, including indicators of bids and offers in the market and displaying, selecting, and moving an order icon to a location along an axis of prices, and sending a trade order
to an electronic trading exchange. Ex. 1001, 14:7–47.
Moreover, there is no specific computer, program, or
processing described in the ’999 patent beyond what
was known in the art at the time of the invention.
Given the above, we determine that claim 1 does
not recite a technological feature that is novel and unobvious over the prior art. Because both prongs must
be satisfied for a patent to be excluded from covered
business method patent review for being a technological invention, we find that the ’999 patent is eligible
for a covered business method patent review for at
least the reason that claim 1 fails to recite a technological feature that is novel and unobvious.
Notwithstanding our determination above, we also
are persuaded by Petitioner that the ’999 patent does
not solve a technical problem with a technical solution.
Petitioner also argues that the claimed subject
matter does not solve a technical problem using a
technical solution, because the problem is a financial
one and the solution is to rearrange available market
data on a display. Pet. 8–9. In contrast, Patent Owner
argues that the claimed subject matter recites a new
GUI design (a new technology) that addressed the

App. 136
problem with the old GUI design, and, thus, is directed to solving a technical problem using a technical
solution. PO Resp. 56–58. Patent Owner states “GUI
design is a technology, so new GUIs designed to improve conventional GUIs are necessarily technological solutions to technological problems.” Id. at 56.
We are persuaded by Petitioner that the problem
disclosed in the ’999 patent is not a technical one. The
’999 patent’s specification highlights the problem and
importance of informing a trader of certain stock market events so that the trader may use such information to facilitate trading a commodity. Ex. 1001,
2:19–26. The ’999 patent states:
The successful trader anticipates the
rise or fall of the value of an item and
performs his or her own transaction before[]the rest of the market is aware of
the item’s potential gain or loss in value.
Thus, anticipation of the market is specifically of the future demand for an
item of interest is critical to the success
of a trader.
Ex. 1001, 1:20–26.
The ’999 patent explains that traders use latest order information and other information, including historical transaction data, to anticipate the market and
that “it is often difficult for a trader to quickly assemble this information from diverse and often unrelated
sources or even effectively process all of this information in order to make an informed transaction decision.” Id. at 1:51–54. Informing a trader of certain
stock market trends or events is more of a financial

App. 137
problem than a technical problem. The ’999 patent
solves this problem by “present[ing] this information
in an intuitive format, allowing the trader to make informed decisions quickly.” Id. at 2:39–41. We are persuaded by Petitioner that the ’999 patent does not
solve a technical problem with a technical solution.
Further, as discussed above, claim 1 requires the use
of only known technology.
Patent Owner proffers the testimony of Eric
Gould-Bear and Dan Olsen to show that GUIs are
technology and the claimed invention is a technical
solution to a technical problem. See, e.g., PO Resp. 19–
21 (citing Ex. 2168 ¶¶ 23–38, Ex. 2174 ¶¶ 13–15, Ex.
2169 ¶¶ 16–18 testimony of Eric Gould-Bear, Dan Olsen, and Christopher Thomas, respectively). The testimony of Mr. Gould-Bear, Dr. Olsen, and Mr. Christopher Thomas is unpersuasive because, although
their testimony addresses related patents, it does not
specifically address the claimed invention of the ’999
patent. For example, Mr. Gould-Bear’s testimony is
directed to U.S. Patent No 7,904,374. See Ex. 2168 ¶
1. Likewise, Dr. Olsen’s testimony is not directed to
the claimed invention of the ’999 patent. See Ex. 2174
¶ 6, Ex. 2169 ¶ 2. The claims of U.S. Patent No
7,904,374 recite features not recited by the claims of
the ’999 patent.
Given this, we are persuaded that at least claim 1
does not solve a technical problem using a technical
solution and does not satisfy the second prong of 37
C.F.R. § 42.301(b).

App. 138
3. Conclusion
In view of the foregoing, we conclude that the ’999
patent is a covered business method patent under AIA
§ 18(d)(1) and is eligible for review using the transitional covered business method patent program.
C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–35 of the ’999 patent as directed to patent-ineligible subject matter
under 35 U.S.C. § 101. Pet. 19–35. Patent Owner disagrees. PO Resp. 3–50
Under 35 U.S.C. § 101, we must first identify
whether an invention fits within one of the four statutorily provided categories of patent-eligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d
709, 713–14 (Fed. Cir. 2014).
Initially, we note that Petitioner asserts that independent claim 35 of the ’999 patent is invalid because
it encompasses a transitory, propagating signal that
is encoded, which is subject matter that does not fall
into any of the four statutory classes of § 101. Pet. 25
(citing In re Nuijten, 550 F.3d 1346, 1352 (Fed. Cir.
2007)); Pet. Reply 18. In our Institution Decision, we
determined that the broadest reasonable interpretation, in light of the specification of the ’999 patent, encompasses transitory media, but we noted that our
construction was preliminary and specifically indicated that “[t]he broadest reasonable interpretation,
in light of the specification, of ‘recorded’ is an issue
that requires further development of the record.” Inst.
Dec. 15.

App. 139
Patent Owner responds that there is no evidence
to support Petitioner’s contention that one skilled in
the art would have understood “computer readable
medium having program code recorded thereon” to
encompass a signal at the time of the invention. PO
Resp. 48. Petitioner responds to Patent Owner’s contentions by simply asserting that “the Board should
apply the same BRI of ‘computer readable medium’
that the PTO has applied in thousands of matters.”
Pet. Reply 22–24 (citing Manual of Patent Examining
Procedures § 2106, Ex parte Mewherter, 107 USPQ2d
1857(PTAB 2013) (precedential)).
Petitioner’s response is unhelpful. Petitioner fails
to offer sufficient evidence or persuasive argument as
to how one skilled in the art would have understood
the phrase “computer readable medium having program code recorded thereon” as it relates to the ’999
patent. At oral hearing, when asked why no evidence
was provided in this regard, Petitioner had no explanation other than “it would be difficult . . . because
this is a term of art in the patent field” and “you
can[not] go to an IEEE dictionary and find necessarily
a dictionary definition that would be helpful here.” Tr.
71:4–10.
Accordingly, on this record, we are not persuaded
by Petitioner that at the time of the invention one
skilled in the art would have understood “computer
readable medium having program code recorded
thereon” as encompassing transitory, propagating
signals.
Even if claim 35 fits within one of the categories of
patent-eligibility, we are persuaded that claims 1–35

App. 140
do not recite patent-eligible subject matter for the reasons that follow.
1. Eligibility
Patent-eligible subject matter is defined in § 101
of the Patent Act, which recites:
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of
this title.
There are, however, three judicially created exceptions to the broad categories of patent-eligible subject
matter in § 101: laws of nature, natural phenomena,
and abstract ideas. Alice Corp. Pty. Ltd. v. CLS Bank
Int’l, 134 S. Ct. 2347, 2354 (2014); Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract idea, itself, is patent-ineligible, an application of the abstract idea may be patent-eligible. Alice, 134 S. Ct. at 2355. Thus, we must
consider “the elements of each claim both individually
and ‘as an ordered combination’ to determine whether
the additional elements ‘transform the nature of the
claim’ into a patent-eligible application.” Id. (citing
Mayo, 132 S. Ct. at 1297–98). The claim must contain
elements or a combination of elements that are “sufficient to ensure that the patent in practice amounts to
significantly more than a patent upon the [abstract
idea] itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
2. Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon
us to look at the ‘focus of the claimed advance over the

App. 141
prior art’ to determine if the claim’s ‘character as a
whole’ is directed to excluded subject matter.” Affinity
Labs of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257
(Fed. Cir. 2016) (quoting Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016); see
also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335 (Fed. Cir. 2016). “The § 101 inquiry must focus
on the language of the Asserted Claims themselves.”
Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1149 (Fed. Cir. 2016); see also Accenture Global
Servs., GmbH v. Guidewire Software, Inc., 728 F.3d
1336, 1345 (Fed. Cir. 2013) (admonishing that “the
important inquiry for a § 101 analysis is to look to the
claim”); Content Extraction & Transmission LLC v.
Wells Fargo Bank, Nat’l Ass’n, 776 F.3d 1343, 1346
(Fed. Cir. 2014) (“We focus here on whether the claims
of the asserted patents fall within the excluded category of abstract ideas.”).
According to Petitioner, the challenged claims are
directed to the abstract idea of graphing (or displaying) bids and offers to assist a trader to make an order. Pet. 19–20. This is consistent with claim 1 of the
’999 patent. Claim 1 is representative of independent
claims 1 and 35. Claim 1 recites a “method for facilitating the placement of an order for an item and for
displaying transactional information to a user regarding the buying and selling of items.” Claim 1 recites
multiple steps of receiving and displaying market information, including indicators of bids and offers in
the market, of new bids and offers in the market, and
of an order by the user. Claim 1 also recites steps that
require sending an order to an electronic trading exchange. The focus of the claim is on collecting and displaying market order information so that a user (i.e.,

App. 142
a trader) can place an order. The disclosure of the purported problem solved by the ’999 patent is consistent
with this focus. The ’999 patent discloses that the difference between its system and “conventional systems” is that its system displays all of the outstanding
bid and offer orders and not just the highest bid and
lowest offer to a trader. Ex. 1001, 2:15–19, 2:28–38. A
trader having such information is at an advantage because the trader can better anticipate the market and
future demand for an item when placing an order. Id.
at 1:26–58. Collecting information and displaying the
information, without more, is within the realm of abstract ideas. Electric Power Group, LLC v. Alstom
S.A., 830 F.2d 1350, 1352 (Fed. Cir. 2016).
Claim 1 does not recite any limitation that specifies how the computer implements the steps. See PO
Resp. 57 (“the claims are to the functioning of GUI
tool, not to the underlying computer by itself or to how
instructions in software to provide a particular interface to an application are translated by the computer
to control the individual pixels of a screen.”) For example, claim 1 recites displaying an arrangement of
the market information. Claim 1 requires displaying
bid and offer indicators along a scaled axis of prices.
Id. at 14:13–22. The ’999 patent does not disclose an
unconventional or improved method of mapping the
bid indicators, offer indicators, or scaled price axis to
the display. As Petitioner points out, numerous prior
art references disclose that plotting bids and offers
along a price axis was conventional in the electronic
trading art. See Pet. Reply 4 (citing Ex. 1016, 0107,
Ex. 1023, Fig. 2b, Ex. 1022, Figs. 4–5, Ex. 1050, Fig.
5A).

App. 143
We agree with Petitioner that the abstract idea of
graphing (or displaying) bids and offers to assist a
trader to make an order is a fundamental economic
practice or a process that can be performed using pen
and paper. Pet. 23; see also Ex. 1012 ¶¶ 69–71, 81
(supporting testimony of Kendyl Roman). The ’999 patent discloses that it was known for traders on an exchange to use information, such as highest bid, lowest
offer, historical transaction data, etc., when making a
trade. See Ex. 1001, 1:13–58. Exhibit 1027 discloses
that long before the ’999 patent, traders maintained
books that plotted bids and asks (e.g., the market
depth) along a price axis. See Ex. 1027, 44–46. Figure
4-2 of Exhibit 1027 is reproduced below.

App. 144
Figure 4-2 depicts a page of a book of a trader. Id.
at 44–45. Orders to buy or sell a commodity are plotted along a prices axis. For example, Figure 4-2 shows
the best bid at 22¼ and the best ask at 22 5/8. Id. at
44.
Given this, we determine that placing an order
based on displayed market information, such as the
inside market and a few other orders, as well as updating the market information is a fundamental economic and conventional business practice.
The claims at issue here are like the claims at issue in Affinity Labs. In Affinity Labs, the claim at issue recited an application that enabled a cellular telephone to present a GUI displaying a list of media
sources that included selectable items for selecting a
regional broadcasting channel. Affinity Labs, 838
F.3d at 1255–56. The claim also recited that the cellular telephone was enabled to transmit a request for
the selected regional broadcasting channel. Id. at
1256. The claims at issue here are also like the claims
at issue in Apple, Inc. v. Ameranth, Inc., 842 F.3d
1229 (Fed. Cir. 2016). In Ameranth, the claim at issue
recited a GUI that displayed menu items in a specific
arrangement, a hierarchical tree format. Menu items
were selected to generate a second menu from a first
menu. Ameranth 842 F.3d at 1234. In both Affinity
Labs and Ameranth, the court determined that the
claims were not directed to a particular way of programming or designing the software, but instead
merely claimed the resulting systems. The court thus
determined that the claims were not directed to a specific improvement in the way computers operate. Affinity Labs, 838 F.3d at 1260–61; Ameranth, 842 F.3d

App. 145
at 1241. Here, the claims also recite the resulting display and are not directed to specific improvements in
the way the computers operate. “Though lengthy and
numerous, the claims [that] do not go beyond requiring the collection, analysis, and display of available
information in a particular field, stating those functions in general terms, without limiting them to technical means for performing the functions that are arguably an advance over conventional computer and
network technology” are patent ineligible. Elec. Power
Group, 830 F.3d at 1351. “Generally, a claim that
merely describes an ‘effect or result dissociated from
any method by which [it] is accomplished’ is not directed to patent-eligible subject matter.” Ameranth,
842 F.3d at 1244 (quoting Internet Patents Corp. v.
Active Network, Inc., 790 F.3d 1343, 1348 (Fed. Cir.
2015)).
Claim 1 of the ’999 patent is unlike the claims at
issue in DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) and Enfish. In DDR Holdings, the court determined that the claims did not embody a fundamental economic principle or a
longstanding commercial practice. The claims at issue
in DDR Holdings were directed to retaining website
visitors, which the court determined was a problem
“particular to the Internet.” DDR Holdings, 773 F.3d
at 1257. The court also determined that the invention
was “necessarily rooted in computer technology in order to overcome a problem specifically arising in the
realm of computer networks” and that the claimed invention did not simply use computers to serve a conventional business purpose. Id. In Enfish, the claim
at issue was directed to a data storage and retrieval
system for a computer memory. Enfish, 822 F.3d at

App. 146
1336–37. The court determined that the claims were
directed to an improvement in the functioning of a
computer and were not simply adding conventional
computer components to well-known business practices. Id. at 1338. Here, in contrast, claim 1 is directed
to a fundamental economic principle or a longstanding commercial practice and not directed to an improvement in the computer: it is directed simply to the
use of a display in a method for facilitating the placement of an order for an item and for displaying transactional information to a user regarding the buying
and selling of items.
Further, claim 1 of the ’999 patent is unlike the
claims at issue in McRO, Inc. v. Bandai Namco Games
America Inc., 837 F.3d. 1299 (Fed. Cir. 2016). In
McRO, the court held that claims that recited “a specific asserted improvement in computer animation”
were not directed to an unpatentable abstract idea because they go “beyond merely organizing existing information into a new form or carrying out a fundamental economic practice.” McRO, 837 F.3d at 135.
Here, the claims merely organize existing market information along a price axis.
Patent Owner argues that the claims of the ’999
patent are similar to those of the ’304 patent and the
’132 patent found to be eligible in CQG. Paper 36. The
claims of the ’999 patent are different from and are
broader in some aspects than the claims of the ’304
patent and ’132 patent. See Paper 37, 1. For example,
claim 1 of the ’999 patent does not require a static
price axis or single action order entry. Id. In CQG, the
court indicated that even those narrower claims are
on the line between patent eligibility and ineligibility

App. 147
(see id. at *4 (noting the “close question[] of eligibility”)). The specification of the ’999 patent is different
from those in the ’304 patent and the ’132 patent.
Thus, comparing the claims of the patents involved in
CQG is not particularly helpful here.
3. Inventive Concept
To be patent eligible, a claim directed to an abstract idea must recite additional elements that constitute an inventive concept. Alice, 134 S. Ct. at 2357.
One looks to “[t]he elements of each claim both individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of the claim’ into a patent-eligible application.”
Id. at 2355 (quoting Mayo, 132 S. Ct. at 1297–98). The
additional elements must be more than “well-understood, routine, conventional, activity.” Mayo, 132 S.
Ct. at 1298.
Petitioner contends that claim 1 does not recite an
inventive concept. Pet. 25–28; Pet. Reply 15–18. Patent Owner disagrees. PO Resp. 24–26.
Claim 1 does not recite elements or a combination
of elements that are “sufficient to ensure that the patent in practice amounts to significantly more than a
patent upon the [abstract idea] itself.” Alice, 134 S.
Ct. at 2355 (citing Mayo, 132 S. Ct. at 1294). Receiving market information is nothing more than a routine data gathering step. See Ex. 1001, 1:31–35. Routine data gathering does not transform the abstract
idea into a patent-eligible invention. See CyberSource
Corp. v. Retail Decisions, Inc., 654 F.3d 1366, 1370
(Fed. Cir. 2011) (holding “[t]he mere collection and or-

App. 148
ganization of data” patent-ineligible). Displaying information as indicators along a scaled price axis is
well-understood, routine, conventional activity (see
Ex. 1016, 0107, Ex. 1023, Fig. 2b, Ex. 1022, Figs. 4–5,
Ex. 1027, Ex. 1050, Fig. 5A) that does not add significantly more to the abstract idea. See Mayo, 132 S. Ct.
at 1298,
Patent Owner contends that combination of displaying market information and selecting and moving
an icon to place an order is an inventive concept that
transforms the abstract idea into a particular application. PO Resp. 24–26. Patent Owner relies upon the
testimony of Mr. Christopher Thomas to show that
“the claimed combination did not exist prior to the invention in either the physical world or as a GUI.” Id.
at 22 (citing Ex. 2169 ¶¶ 41, 46–53). Mr. Thomas’s
testimony is unpersuasive because, as discussed
above, it does not specifically address the claimed invention of the ’999 patent. See Ex. 2169 ¶¶ 1, 43 (discussing U.S. Patent No 7,904,374). Selecting and
moving an icon is a well-understood, routine, conventional activity that does not add significantly more to
the abstract idea. See Ex. 1029, 247–249 (disclosing
that drag-and-drop (i.e., clicking and hold a button
while moving some object across a screen) is old and
well known). Conventional post-solution activity is
not sufficient to transform the abstract idea into patent-eligible subject matter. See Parker v. Flook, 437
U.S. 584, 590–92 (1978). The claim requires nothing
more than a generic computer to perform the method
of claim 1.

App. 149
The individual elements of the claim do not transform the nature of the claim into a patent-eligible application. They do not add significantly more to the
abstract idea or fundamental economic practice. Contrary to Patent Owner’s argument, the claim simply
recites the use of a generic computer with routine and
conventional functions. Even considering all of the elements as an ordered combination, the combined elements also do not transform the nature of the claim
into a patent-eligible application.
For the reasons discussed above, claims 1 and 35
of the ’999 patent are not directed to patent eligible
subject matter under 35 U.S.C. § 101.
Petitioner contends that the additional elements
recited by dependent claims 2–34 do not add significantly more to the abstract idea so as to render the
claims patent-eligible. Pet. 33–35. Patent Owner
makes no arguments specifically directed to the additional elements of these claims. We also have considered the other claims of the ’999 patent and, for similar reasons, the claims 2–34 are not directed to patent
eligible subject matter.
D. Motions to Exclude
Petitioner moves to exclude various ones of Patent
Owner’s Exhibits. Pet. MTE 2–10. Because the outcome of this trial does not change based on whether
or not we exclude those exhibits, we dismiss Petitioner’s Motion to Exclude as moot.
Patent Owner moves to exclude certain testimony
of its declarant Mr. Christopher Thomas. PO MTE 1–
8 (seeking to exclude Ex. 1047, 248, 263– 269). Be-

App. 150
cause we did not rely upon this testimony in our decision, we dismiss Patent Owner’s Motion to Exclude as
moot.
CONCLUSION
For the foregoing reasons, we determine that Petitioner has shown, by a preponderance of the evidence,
that claims 1–35 of the ’999 patent are patent-ineligible under 35 U.S.C. § 101.
ORDER
For the reasons given, it is:
ORDERED that claims 1–35 of the ’999 patent are
patent-ineligible under 35 U.S.C. § 101;
FURTHER ORDERED that Petitioner’s Motion to
Exclude Evidence and Patent Owner’s Motion to Exclude Evidence are dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking judicial review of the decision must comply with
the notice and service requirements of 37 C.F.R.
§ 90.2.

App. 151
RELEVANT STATUTORY PROVISIONS
35 U.S.C. § 100. Definitions
…
(b) The term “process” means process, art or
method, and includes a new use of a known process,
machine, manufacture, composition of matter, or material.
…

35 U.S.C. § 101. Inventions patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.

App. 152
35 U.S.C. § 102. Conditions for patentability;
novelty
(a) Novelty; Prior Art.—A person shall be entitled to a patent unless—
(1) the claimed invention was patented, described
in a printed publication, or in public use, on sale, or
otherwise available to the public before the effective
filing date of the claimed invention; or
(2) the claimed invention was described in a patent issued under section 151, or in an application for
patent published or deemed published under section
122(b), in which the patent or application, as the case
may be, names another inventor and was effectively
filed before the effective filing date of the claimed invention.
(b) Exceptions.—
(1) Disclosures made 1 year or less before the
effective filing date of the claimed invention.—
A disclosure made 1 year or less before the effective
filing date of a claimed invention shall not be prior art
to the claimed invention under subsection (a)(1) if—
(A) the disclosure was made by the inventor or
joint inventor or by another who obtained the subject
matter disclosed directly or indirectly from the inventor or a joint inventor; or
(B) the subject matter disclosed had, before such
disclosure, been publicly disclosed by the inventor or
a joint inventor or another who obtained the subject
matter disclosed directly or indirectly from the inventor or a joint inventor.

App. 153
(2) Disclosures appearing in applications
and patents.—A disclosure shall not be prior art to
a claimed invention under subsection (a)(2) if—
(A) the subject matter disclosed was obtained directly or indirectly from the inventor or a joint inventor;
(B) the subject matter disclosed had, before such
subject matter was effectively filed under subsection
(a)(2), been publicly disclosed by the inventor or a
joint inventor or another who obtained the subject
matter disclosed directly or indirectly from the inventor or a joint inventor; or
(C) the subject matter disclosed and the claimed
invention, not later than the effective filing date of the
claimed invention, were owned by the same person or
subject to an obligation of assignment to the same person.
(c) Common Ownership Under Joint Research Agreements.—Subject matter disclosed and
a claimed invention shall be deemed to have been
owned by the same person or subject to an obligation
of assignment to the same person in applying the provisions of subsection (b)(2)(C) if—
(1) the subject matter disclosed was developed and
the claimed invention was made by, or on behalf of, 1
or more parties to a joint research agreement that was
in effect on or before the effective filing date of the
claimed invention;
(2) the claimed invention was made as a result of
activities undertaken within the scope of the joint research agreement; and

App. 154
(3) the application for patent for the claimed invention discloses or is amended to disclose the names
of the parties to the joint research agreement.
(d) Patents and Published Applications Effective as Prior Art.—For purposes of determining
whether a patent or application for patent is prior art
to a claimed invention under subsection (a)(2), such
patent or application shall be considered to have been
effectively filed, with respect to any subject matter described in the patent or application—
(1) if paragraph (2) does not apply, as of the actual
filing date of the patent or the application for patent;
or
(2) if the patent or application for patent is entitled to claim a right of priority under section 119,
365(a), 365(b), 386(a), or 386(b), or to claim the benefit
of an earlier filing date under section 120, 121, 365(c),
or 386(c), based upon 1 or more prior filed applications
for patent, as of the filing date of the earliest such application that describes the subject matter.

App. 155
35 U.S.C. § 103. Conditions for patentability;
non-obvious subject matter
A patent for a claimed invention may not be obtained, notwithstanding that the claimed invention is
not identically disclosed as set forth in section 102, if
the differences between the claimed invention and the
prior art are such that the claimed invention as a
whole would have been obvious before the effective filing date of the claimed invention to a person having
ordinary skill in the art to which the claimed invention pertains. Patentability shall not be negated by
the manner in which the invention was made.

35 U.S.C. § 112. Specification
(a) In General.—
The specification shall contain a written description of the invention, and of the manner and process
of making and using it, in such full, clear, concise, and
exact terms as to enable any person skilled in the art
to which it pertains, or with which it is most nearly
connected, to make and use the same, and shall set
forth the best mode contemplated by the inventor or
joint inventor of carrying out the invention.
(b) Conclusion.—
The specification shall conclude with one or more
claims particularly pointing out and distinctly claiming the subject matter which the inventor or a joint
inventor regards as the invention.

App. 156
(c) Form.—
A claim may be written in independent or, if the
nature of the case admits, in dependent or multiple
dependent form.
(d) Reference in Dependent Forms.—
Subject to subsection (e), a claim in dependent
form shall contain a reference to a claim previously
set forth and then specify a further limitation of the
subject matter claimed. A claim in dependent form
shall be construed to incorporate by reference all the
limitations of the claim to which it refers.
(e) Reference in Multiple Dependent Form.—
A claim in multiple dependent form shall contain
a reference, in the alternative only, to more than one
claim previously set forth and then specify a further
limitation of the subject matter claimed. A multiple
dependent claim shall not serve as a basis for any
other multiple dependent claim. A multiple dependent claim shall be construed to incorporate by reference all the limitations of the particular claim in relation to which it is being considered.
(f) Element in Claim for a Combination.—
An element in a claim for a combination may be expressed as a means or step for performing a specified
function without the recital of structure, material, or
acts in support thereof, and such claim shall be construed to cover the corresponding structure, material,
or acts described in the specification and equivalents
thereof.

App. 157
(10)

Patent No.:

US 7,533,056 B2

(12)

United States Patent Friesen et al.

(45)

Date of Patent:

(54)

USER INTERFACE FOR AN ELECTRONIC TRADING SYSTEM

(75)

Inventors:

(73)

Assignee:

(*)

Notice:

*May 12, 2009

Richard W. Friesen,
Fairfax, CA (US); Peter
C. Hart, San Rafael, CA
(US)
Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by 0
days.
This patent is subject to a
terminal disclaimer.

(21)

Appl. No.:

11/417,544

(22)

Filed:

May 3, 2006

(65)

Prior Publication Data
US 2006/0265318 A1

Nov. 23, 2006

Related U.S. Application Data

App. 158
(63)

Continuation of application No.
09/289,550, filed on Apr. 9, 1999, now
Pat. No. 7,212,999.

(51)
(52)
(58)

Int. Cl. G06Q 40/00
(2006.01)
U.S. Cl. ......... 705/37; 705/35; 345/440.2
Field of Classification
Search
.................................................... 705/35;
705/37; 345/440.2
See application file for complete search history.

(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044 A

6/1987

Kalmus et al. 364/408
.......................

(Continued)
FOREIGN PATENT DOCUMENTS
EP

0 388 162

A2 *

3/1990

(Continued)
OTHER PUBLICATIONS
Cats Traders’ Manual, Toronto Stock Exchange,
Sep. 30. 1977.
(Continued)
Primary Examiner—James P Trammell
Assistant Examiner—Daniel L Greene

App. 159
(74) Attorney, Agent, or Firm—McDonnell Boehmen Hulbert & Berghoff LLP
(57)

ABSTRACT

A user interface for an electronic trading exchange
is provided which allows a remote trader to view in
real time bid orders, offer orders, and trades for an
item, and optionally one or more sources of contextual
data. Individual traders place orders on remote client
terminals, and this information is routed to a transaction server. The transaction server receives order
information from the remote terminals, matches a bid
for an item to an offer for an item responsive to the
bid corresponding with the offer, and communicates
outstanding bid and offer information, and additional
information (such as trades and contextual data) back
to the client terminals. Each client terminal displays
all of the outstanding bids and offers for an item, allowing the trader to view trends in orders for an item.
A priority view is provided in which orders are displayed as tokens at locations corresponding to the values of the orders. The size of the tokens reflects the
quantity of the orders. An alternate view positions order icons at a location which reflects the value and
quantity of the order. Additionally, contextual data
for the item is also displayed to allow the trader to
consider as much information as possible while making transaction decisions. A pit panel view is also provided in which traders connected to the pit are represented by icons, and are displayed corresponding to
an activity level of the trader.
15 Claims, 11 Drawing Sheets

App. 160

IBG 1001
CBM of U.S. Pat. No. 7,533,056
U.S. PATENT DOCUMENTS
4,750,135 A
4,799,156 A
4,823,265
4,903,201
5,038,284
5,077.665

A
A
A
A

5,101,353 A
5,270,922 A

6/1988 Boilen
1/1989 Shavit et
al. ...........
4/1989 Nelson
2/1990 Wagner
8/1991 Kramer
12/1991 Silverman
et al.
3/1992 Lupien et
al.
12/1993 Higgins

364/401

App. 161
5,297,031 A
5,297,032 A
5,375,055 A
5,619,631 A
5,689,651 A
5,774,877 A
5,793.301 A
5,797.002 A
5,845.266 A
5,915,245 A
5,924,082 A
5,924,083 A
5.946.667 A
5,963,923 A
5,966.139 A*
6,012,046 A
6,014.643 A
6,035,287 A
6,098,051 A

3/1994 Gutterman et al.
3/1994 Trojan et
al. ...........
12/1994 Togher et
al. ...........
4/1997 Schott
11/1997 Lozman ..
6/1998 Patterson,
Jr. et al.
8/1998 Patterson,
Jr. et al.
8/1998 Patterson,
Jr. et al.
12/1998 Lupien et
al.
6/1999 Patterson.
Jr. et al.
7/1999 Silverman
et al.
7/1999 Silverman
et al.
8/1999 Tull. Jr. et
al.
10/1999 Garber
10/1999 Anupam
et al. .......
1/2000 Lupien et
al.
1/2000 Minton
3/2000 Stallaert
et al.
8/2000 Lupien et
al.

64/408
364/408
364/408
395/237

345/440

App. 162
6,131,087 A
6,134,535 A
6,188,403 B1
6,195,647 B1
6.211,873
6,282,521
6,408,282
6,418,419

B1
B1
B1
B1

6,766,304
6,772,132
6,993,504
7,212.999
2001/0034696
2001/0039527

B2
B1
B1
B2
A1
A1

2002/0023038 A1
2002/0130868
2002/0178096
2003/0009411
2004/0099933
2005/0125328
2005/0256799

A1
A1
A1
A1
A1
A1

2006/0010066 A1
2006/0020538
2006/0059083
2006/0259405
2006/0259410
2006/0259413

A1
A1
A1
A1
A1

10/2000 Luke et al.
10/2000 Belzberg
2/2001 Sacedoti et
al.
2/2001 Martyn et
al.
4/2001 Moyer
8/2001 Howorka
6/2002 Buist
7/2002 Nieboer et
al.
7/2004 Kemp
8/2004 Kemp
1/2006 Friesen
5/2007 Friesen
10/2001 McIntyre
11/2001 Ordish et
al.
2/2002 Fritsch et
al.
9/2002 Smith
11/2002 Marshall
1/2003 Ram et al.
5/2004 Kimura
6/2005 Schluetter
11/2005 Warsaw et
al.
1/2006 Rosenthal
et al.
1/2006 Ram
3/2006 Friesen
11/2006 Friesen
11/2006 Friesen
11/2006 Friesen

App. 163
2006/0265315 A1
2006/0265319 A1

11/2006 Friesen
11/2006 Friesen

FOREIGN PATENT DOCUMENTS
WO
WO
WO
WO

WO 92/12488
WO 95/26005 A1
WO 00/52619 A1
WO 01/75733

7/1992
9/1995
9/2000
11/2001

OTHER PUBLICATIONS
Market Watch, Trading Screen, date not available.
Java Island, copyright 1999 (printed from
http://www.isld.com on Jun. 11, 1999).
Search Report for PCT/US 00/09369.
Kharouf, Jim and Carla Cavaletti; “A Trading Room
With A View”; Futures; Nov. 1998; 6 pages. www.futuresmag.com.
USPTO Presentation regarding The Nasdaq Stock
Market. Inc.; dated Nov. 8. 2001; 15 pages.
Yahoo! Finance-Option Chain SUNW; 2 pages.
AFT Brochure. LIPPE Exchange, circa 1990*.
Trading Screen, INTEX of Bermuda, circa 1984*.
Weber, Information Technology in the Major International Financial Markets, Apr. 7, 1993.
Trading Screen, TIFFE Exchange. circa 1989-1990*.
Trading Screen, MEFF Exchange. circa 1990*.
Cavaletti, Order Routing Article, Futures Magazine,
Feb. 1997.
Aurora Article, CBOT, circa 1989*.
One Click Trading Options, Trading Technologies,
circa 1998.
Trading Screen. SWX Exchange. circa 1990*.

App. 164
Expanding futures and options trading around the
world. around the clock, Globex, circa 1989*.
Hansel!, The computer that ate Chicago, Institutional
Investor, Feb. 1989.
Globex Report: An update on the CME Global electronic exchange, Feb. 10, 1989.
NYMEX Access Documents, New York Mercantile Exchange, Feb. 28, 1992.
Grummet’, Peake, Sellers, Preliminary Feasibility
Study, Bermudex Ltd., Nov. 1980.
Peake, Mendellson, The ABCs of trading on a national
market system, Appendix C of Preliminary Feasibility Study, Bermudex Ltd., Sep. 1997.
Peake, The last 15 meters, Appendix E of Preliminary
Feasibility Study, Bermudex Ltd., Jun. 15, 1997.
Declaration of Brendan Bradley in Case No. 04 C
5312, Nov. 18, 2004.
Memorandum Opinion Published Feb. 9, 2005, of
Judge James B. Moran in Case No. 04 C 5312.
Wright, William, Research Report Information Animation Applications in the Capital Markets, IEEE
1995.
“How the Future Market Works”, Jake Bernstein,
1989 New York Institute of Finance, pp. 62-67.
Dictionary of Finance and Investment Terms, John
Downes and Jordan Elliott Goodman, 1998. Barrons
Education Services, Inc., p. 329.
Tokyo Stock Exchange (“TSE”), Publication I, Sep.
1997.
TSE, “Publication 2”, Aug. 1998.
TSE, “Publication 3”, Jul. 31, 2000.
TSE, Document 1, Jan. 2000.
English Translation of ‘ISE “Publication I”.
English Translation of TSE “Publication 2”.

App. 165
English Translation of TSE “Publication 3”.
English Translation of TSE Document 1.
REFCO English Translation of TSE -Publication 1”.
REFCO English Translation of TSE “Publication 2”.
REFCO English Translation of TSE “Publication 3”.
GL Trade, LIFFE Connect for Futures User Guide
V4.50, (alleged) Feb. 1999.
GL Trade, LIFFE Connect for Futures User Guide
V4.50, (alleged) Mar. 1999.
GL Trade, LIFFE Connect for Futures User Guide
V4.51. (alleged) Jun. 1999.
GL Trade, LIFFE Connect for Futures User Guide
V4.50 Beta. (alleged) Jan. 1999.
GL Trade, CAC and STOXX Futures on MAATIF
NSC VF. (alleged) Launch: Mar. 15, 1999 pp. 1-14.
* cited by examiner

App. 166

App. 167

App. 168

App. 169

App. 170

App. 171

App. 172

App. 173

App. 174

App. 175

App. 176

App. 177
USER INTERFACE FOR AN ELECTRONIC
TRADING SYSTEM
CROSS REFERENCE TO RELATED
APPLICATION
This application is a continuation of U.S. patent
application Ser. No. 09/289,550 filed Apr. 9, 1999 now
U.S. Pat. No. 7,212,999, entitled “User Interface for
an Electronic Trading, system” the contents of which
are fully incorporated herein, by reference.
TECHNICAL FIELD
The present invention relates generally to the field
of graphical user interfaces and more particularly to
the field of graphical user interfaces for electronic
trading systems.
BACKGROUND OF THE INVENTION
Trading pits are the lifeblood of a market economy.
Quantities of goods and shares in companies are
bought and sold by millions of investors through trading pits on exchanges everyday. When a particular
trading product or item is more valued, the value of
the item is driven up as a result of more aggressive
bidding by the buyers. When an item is less valued,
the value of the item is driven down as a result of
more aggressive offers to sell the item. The successful
trader anticipates the rise or fall of the value of an
item and performs his or her own transaction before
the rest of the market is aware of the item’s potential
gain or loss in value. Thus, anticipation of the market
and specifically of the future demand for an item of
interest is critical to the success of a trader.

App. 178
The transactions for each item occur in a trading
pit for that item. The trading pit is a designated area
in an exchange in which the customers submit their
orders, either bids or offers, for the item to a broker in
the pit. The exchange records all transactions and relays or posts to the individual traders the outstanding
bid having the highest value and the outstanding offer having the lowest value for the item, along with
the quantity specified in the order. The exchange does
not release information on all outstanding offers and
bids to the traders because, in part, this information
is what gives the market makers an advantage over
the traders and enables the market makers to change
their own trading directions quickly, step in front of
customer orders, and use customer limit orders to protect the market makers from losses. However, for an
individual trader, having only the latest order information for an item complicates the trader’s task of ascertaining trends in the orders for an item because the
trader has very little information about the volume of
offers and bids or the rate at which these volumes are
changing.
Other information is also used by the trader to anticipate the market, including current exchange performances, historical transaction data for the item,
the number of traders at the pit, and the trader’s
sense of the activity of the pit. However, it is often difficult for a trader to quickly assemble this information
from diverse and often unrelated sources or even effectively process all of this information in order to
make an informed transaction decision. From this information, and other external information, the trader
must attempt to determine trends in the buying or

App. 179
selling for the item in order to anticipate the market
and the demand for a particular item.
Thus, a system is needed in which trend information of market demand for an individual item is
provided to traders in an intuitive format which allows traders to quickly interpret how market demand
is changing to an item. A system is also needed which
provides contextual information about the item or the
market to the trader while the trader is trading on a
specific item in a manner which allows the trader to
quickly interpret the information and then act accordingly.
SUMMARY OF INVENTION
The present invention is a user interface for an
electronic trading system that allows a remote trader
to view trends in the orders for an item, and provides
the trading information in an easy to see and interpret graphical format. The user interface of the present invention operates in a system in which individual traders place orders including bids and offers, on
remote client terminals, and this information is
routed to a transaction server. The transaction server
receives order information from the remote terminals,
matches a bid for an item to an offer for an item responsive to the bid corresponding with the offer, and
communicates outstanding bid and offer information
back to the client terminals. Thus, in accordance with
the present invention, each client terminal displays
all of the outstanding bids and offers for an item, in
contrast to the conventional systems and methods in
which only the highest bid and lowest offer were
known to the individual trader. This allows the trader

App. 180
to view trends in orders for an item, and thus better
enables the trader to anticipate demand for the item.
For example, in one embodiment, a graph is
formed with a value axis. Bid icons and offer icons for
all outstanding bids and offers are displayed on the
graph at locations corresponding to the values of the
bids and offers. When an item is being “bid up,” i.e.,
the demand for the item is growing, all of the new bids
are displayed to the remote trader. The trader immediately sees the increasing demand for the item as it
occurs, and thus may infer that the item may rise in
value, and can enter an order to buy for the item immediately while the value for the item still appears
low. In contrast, in conventional systems, the trader
only knew of the existence of the highest bid, and
therefore would not know that demand for the item
was increasing. However, by “opening the book,” all of
the outstanding orders are displayed to all of the remote traders and each trader is able to immediately
see the growing demand and maximize his or her position in the market accordingly.
The user interface of the present invention presents this information in an intuitive format, allowing
the trader to make informed decisions quickly. In a
priority view embodiment, bid and offer icons are displayed corresponding to an axis of values. This results
in the bid icons being displayed on the lower portion
of the screen and the offer icons being displayed on
the upper portion of the screen. The trader is able to
discern immediately the number and volume of bids
and offers outstanding for the item and their difference in value. The bids and offers are preferably displayed in different colors, shapes, or other visual

App. 181
characteristics, further enhancing the trader’s ability
to quickly ascertain the current state of the market.
The screen is updated frequently to display the most
recent bids and offers. In one embodiment, the icons
are formed having an edge which is angled toward the
axis of values. When all outstanding offers and bids
are displayed, the arrangement of icons naturally
forms the edges of a triangle that points to the value
differential at the axis of values. In yet another embodiment, the trader’s own bids and offers are displayed in a first color or other visual characteristic,
and the bids and offers of other traders are displayed
in a second color or visual characteristic. This allows
the trader to quickly determine his or her relative position in the marketplace. Finally, in a preferred embodiment, a size of the icons represents the quantity
of the bid or offer, allowing an easy visual means of
determining the relative quantities each bid and offer
represent.
In a value/quantity view embodiment, an axis of
values and an axis of quantities are used to determine
the location of the bid and offer icons. The icons in this
embodiment are markers or tokens and provide a different look and feel to the trader. Providing alternate
views allow a trader to select a view with which the
trader is most comfortable trading.
A value quantifying analytic is displayed in a further embodiment with respect to the value axis at a
location corresponding to the current value which the
analytic represents. The analytic is preferably displayed as a marker called an action line, in a color or
other visual characteristic different from the other
characteristics used to represent other objects being

App. 182
displayed. The action line is selected by each individual trader and can reflect value-to-earning ratio, volatility, volume of sales, or any other metric the trader
designs, or can be selected from a listed of predetermined metrics. The action line responds to changes in
the data it measures, updating in essentially real
time.
The action line allows the trader to immediately
determine the current valuation of the item relative
to the trader’s own valuation of the item. As the offers
or bids approach the action line, the trader is prepared to complete a transaction in accordance with
the trader’s own valuation.
In another aspect of the invention, market data
and other contextual data is displayed while the
trader is viewing one of the aforementioned user interfaces. A historical chart is displayed in the background of a user interface to provide additional information to the trader who is determining the state of
the market and how it may affect the value of the
item. For example, the historical chart may represent
the various market indices, historical values of the
item or others, and any other historical value, quantity, or volume trend. The historical chart can represent the average value of the item over a period of
time, or may represent a value or values for any other
item or group of items. The historical chart is displayed with respect to a vertical axis of values, and is
displayed horizontally responsive to time. The historical chart is updated to provide the latest information
to the trader while the trader is trading. Thus, in accordance with the present invention, the trader is able
to make instantaneous decisions regarding an item

App. 183
while receiving critical information about other items
or the past performance of the current item and other
indices. This is a major advantage over conventional
methods of trading in which this information is not
provided concurrently, and if presented at all, is difficult to process quickly.
An alternate embodiment provides a trading pit
view that displays trader icons for each trader and positions the trader icons reflective of the activity level
of the trader. Floor brokers and other bystanders are
also displayed and identified to allow the trader to understand at a glance the respective positions and activity of all users currently connected to the transaction server for that trading pit. Selecting a trader icon
provides information regarding the trader and can
open up a window to allow the traders to communicate with each other using one or more methods including electronic mail, text chat or communication
by voice over a network connection. The trading pit
view allows the remote trader to immediately ascertain whom the trader is trading against, how active
they are, and allows the trader to better anticipate the
market.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a block diagram of a preferred embodiment of the electronic trading system of the present
invention.
FIG. 2 is a block diagram of a preferred embodiment of the transaction manager of the present invention.

App. 184
FIGS. 3a-3c are screen shots illustrating an embodiment of a Priority View in accordance with the
present invention.
FIG. 3d illustrates a buy order pop-up window.
FIG. 3e illustrates a sell order pop-up window.
FIG. 4 is a screen shot illustrating an embodiment
of a Value/Quantity View in accordance with the present invention.
FIG. 5 is a flow chart illustrating a preferred embodiment of a method of displaying bid and offer icons
in accordance with the present invention.
FIG. 6 is a flow chart illustrating a preferred embodiment of a method of generating a bid order icon
in accordance with the present invention.
FIG. 7 is a flow chart illustrating a preferred embodiment of a method of generating a offer order icon
in accordance with the present invention.
FIG. 8 is a flow chart illustrating an alternate embodiment of generating an order icon.
FIG. 9 is a screen shot illustrating a Pit Panel view
in accordance with the present invention.
FIG. 10 is a flow chart illustrating a preferred embodiment of generating and placing a trader icon in
accordance with the present invention.
FIG. 11 is a screen shot illustrating a communication window in accordance with the present invention.
DETAILED DESCRIPTION OF THE PREFERRED
EMBODIMENT

App. 185
FIG. 1 illustrates the electronic trading system in
accordance with the present invention. Client terminals 104 are coupled to a transaction manager 100.
The client terminals 104 are personal computers, terminals as part of a network, or any other computing
device. Traders use the client terminals 104 to interact with trading pits that are managed by the transaction manager 100. The transaction manager 100
manages transaction requests generated by the client
terminals 104, routes information to, from, and between the terminals 104 and the transaction manager
100, and stores and retrieves information from a database 108 or databases 108.
FIG. 2 illustrates a more specific embodiment of
the transaction manager 100. The clients 104 are coupled to log-in manager 204 to provide to each client
access to the transaction manager 100, and to allow
each client 104 to designate one or more trading pits
220 to which to be connected. The transaction manager 100 hosts one or more transaction servers 200.
Each transaction server 200 is responsible for the
trading of a specified item, essentially supporting a
specific trading pit. The summary information agents
224 for each transaction server 200 provide a current
status of the activity of each pit 220 to a trader connected to the log-in manager 204. The trader can select a pit 220 to which to be connected based upon the
summary information. Once the log-in process is complete, the clients 104 are coupled to a registration
server 212 for the specified trading pit 220. Registration for each pit 220 requires the client 104 to provide
an access key that it received from the login manager
204 during log in.

App. 186
After registering for a pit 220, the trader is able to
add, modify or delete orders for the item being traded
in the trading pit 220. One type of an order called a
“bid” is an order to buy up to a specific quantity of an
item at or below a specific value. Another type of an
order called an “offer” is an order to sell up to a specific quantity of an item at or above a specific value.
Other types of orders are possible depending on the
type of item being traded in the trading pit 220.
Each pit 220 includes a transaction server 200.
The transaction server 200 receives orders, matches
bids and offers (when a bid and offer are matched it is
called a trade or execution) and routes information to
both the database 208 and the client terminals 104
connected to the trading pit 220. The client terminals
104 generate icons for bid and offer orders (called bid
and offer icons), historical charts and trader icons,
and determine the placement of bid and offer icons
and trader icons responsive to the information received from the transaction server 200. The database
208 to which the transaction server 200 is coupled
stores the information corresponding to each trader,
information on every order submitted over a period
(such as start of trading days), information on every
trade over a period (such as last 180 days) and the
information corresponding to the item being traded.
Each trader may have information associated with
the trader’s account stored, including a name, e-mail
account, address, phone number, personal value
quantifying metric or analytic activity level history,
and various other information which is unique to the
individual trader and which may be used by the present invention to create a virtual trading environment.

App. 187
The information corresponding to every order includes whether the order was a new order, modifications to an existing order or deletion of a previously
submitted order, the type of order (for example, bid or
offer), the value, the quantity, the time and date the
order was submitted, and any other information specific to the order. The information corresponding to
every trade includes the value, quantity, buyer and
seller. The information corresponding to the item being traded includes the highest outstanding bid value
and the lowest outstanding offer value for the item, as
well as a list of the values of all open orders for the
item. The item information is stored on the database
208 in a data structure such as an order table. The
server 200 updates the information in the order table
responsive to receiving information from the client
terminals 104. The updated information is then
transmitted back to the client terminals 104. Other
information, such as information used in creating historical charts, may also be stored on database 208. Information which may be global to more than one pit
220, for example, trader personal information, is also
stored on the system database 108, to allow the information to be accessed by each trading pit 220.
For traders registered to the same trading pit 220,
all of their orders (i.e. bids or offers specifying a value
and quantity) are transmitted to the transaction
server 200 for that pit 220. The server 200 analyzes
the orders for matches with outstanding, or open, orders. If there is a match between orders of different
types, for example, between a bid and an offer, then a
transaction is enacted and the client terminals 104
are notified to remove the matched icons. All out-

App. 188
standing orders are transmitted to each client terminal, allowing a trader to view all of the outstanding
orders from all traders for an item on a trading pit at
any given time. The client displays are updated continuously or at specific intervals to provide updated
information regarding which orders are outstanding
and the state of the market in the pit 220. As shown
in FIG. 2, multiple trading pits 220 are provided in
the electronic trading system, and a single trader may
be connected to as many pits 220 at the same time as
desired. The number of trading pits 220 which may be
maintained in accordance with the present invention
is scalable responsive to the number of servers which
are provided in the system. The items of trade include
any possible commodity, for example, minerals, futures, or shares in a corporation. Other network configurations can be used to implement the electronic
trading system as is known to those of ordinary skill
in the art.
The client terminals 104 provide the interactive
link between the traders and the trading pits 220, and
display the various user interfaces of the present invention. FIG. 3a illustrates a priority view 312 which
is designed to allow traders to intuitively place orders
300, 304 and view markers 336 representing value
quantifying metrics, and contextual trend data 316 in
accordance with the present invention. In the priority
view embodiment, orders 300, 304 are displayed at a
location corresponding to their value with respect to
the value axis 332. Values may represent price, interest rate, or any other metric by which an item may be
valued. For example, offer 304(1) has a value of
$28.45, and the lowest point of the bottom edge 308 of
the icon 304(1) is aligned with the value 28.45 on the

App. 189
value axis 332. In this embodiment, the top edges 309
of the bids and bottom edges 308 of the offer icons are
angled. The rightmost bid is the bid having the highest value, and the rightmost offer is the offer having
the lowest value. This allows the edges 308, 309 of the
icons 300, 304 to form a triangle which points to the
separation in value between the last lowest offer and
the last highest bid. The quantity of each order is represented by a size of the icon such as its length or
height. Icons having a larger size represent orders
having a greater quantity. The specific quantity and
other information of an order displayed on the screen
may be known by selecting that order, which invokes
a pop-up window to display the precise value and
quantity of the selected order. In an alternate embodiment, the specific order information is displayed in
the order task bar 328, in response to a trader selecting a bid or offer icon provided the order was submitted by the trader selecting the order. Alternatively, if
space permits, the quantity and value may displayed
in the icon itself.
If there are several orders with equal value, the
orders are stacked or placed adjacent to each other responsive to the time at which the order was placed.
For example, bids 300(5), 300(6), 300(7) have equal
values at $29.50. Therefore, all three bid icons 300 are
vertically stacked. A preferred method of stacking
places the oldest orders closest to the horizontal space
which naturally occurs and separates the bids and the
offers. The horizontal separation between the bids
and the offers occurs naturally because all of the bids
displayed are always at a lower value then the displayed offers. If a bid is placed at a value equal to or
exceeding an offer value, a transaction will be made

App. 190
immediately and the icons removed. For example, in
the stack containing orders 300(7), 300(6), and 300(5)
in FIG. 3a, the first and therefore the oldest bid in
time was 300(7), and is placed at the top of the stack,
closest to the horizontal separation between the displayed bids and offers. The other two stacked bids
300(6), 300(5) are positioned below the oldest bid
300(7), corresponding to the time at which they were
submitted, and sorted in order of oldest to newest. In
the stack containing offers 304(2), 304(3), and 304(4),
the oldest offer 304(2) is positioned on the bottom of
the stack closest to the horizontal separation, and the
newest offer 304(4) is positioned on the top of the
stack. The above method of ordering bids and offers is
a preferred method, however other ordering schemes
could be used within the scope of the present invention.
The trader using the client terminal 104 in accordance with the present invention, is shown all of the
outstanding orders 300, 304 for the item being traded.
This is one significant difference between the present
invention and conventional systems because a trader
using a system in accordance with the present invention is able to view trends in the bids and offers in
addition to the buying and selling of the item being
traded. For example, in FIG. 3A, a trader can quickly
analyze the outstanding orders 300, 304, and determine that there are an almost equal number of bids
300(8) as offers 304(8). Thus, the trader may infer
that the market is stable, and the value for the item
will not be dramatically driven up or down in the near
future. Accordingly, the trader may decide to take no
action. However, as shown in FIG. 3b, if demand
builds through an increased number of bids being

App. 191
made, as shown by the display of an increased number of bid icons 300, or bids are being made for large
quantities, as shown by the display of bid icons 300
having a greater size, and if supply recedes as indicated by the display of a reduced number of offers
icons 304, the trader can anticipate that the value for
the item will increase. Consequently, the trader will
place bids for the currently low valued offers 304.
Thus, by viewing all outstanding offer icons 304 and
bid icons 300 as they are made on an item, the trader
can anticipate the market and quickly adjust his or
her trading plans to take advantage of the information. In contrast, in conventional systems, the
trader only knows the last highest bid and the last
lowest offer. In the example of FIG. 3A, the trader
would only know the existence of bid 300(1) and offer
304(1). Only the market maker would know of the existence of the other bids and offers. Individual traders
would therefore be unaware of trends in bidding, and
experience greater difficulty in anticipating the market.
The trader can also view the gap between offer
icons 304 and bid icons 300 to determine at what
value sales may be made and for what quantity. In
the example of FIG. 3a, the trader can determine that
there are several bids 300(5), 300(6), 300(7), at a
value slightly less than $27.35. Therefore, if the
trader has a number of items to sell, the trader can
make offers at that value and be assured of a sale of
all of his or her items. However, if this value is too
low, the trader can choose to keep all of his items until
the value of the item has risen, which would be reflected in the display of additional bid icons at a
higher value position in the screen. In contrast, if a

App. 192
trader was using a conventional system, the trader
would have to offer his items incrementally, without
knowing in advance when sales are likely to be made.
The value axis 332 indicates the value at which an
item is being traded. This value may represent different qualitative measures for an item, such as the raw
price for the item; for bonds, the value could be the
cost for the bond or the implied interest rate for the
bond, or the value be used as a measure for an implied
volatility of the item, for example, a generic measurement of the relative expense of an option. Each trader
can use their own value scale. For example, one trader
may use a bond cost as an axis of values and another
may use the implied interest rate of the bond. Regardless of a trader’s choice of value, the different orders
are displayed on the trader’s screen in terms of the
value the trader has chosen. Additionally, the value
scales are completely customizable. For example, a
gold arbitrageur could create a scale that measures
the difference between the futures price of the metal
less the spot cash price of the metal. The arbitrageur
could then apply the cost of carry, including insurance
and storage, to the future/cash price difference to generate an implied interest rate for the gold. Thus, the
value axis for the arbitrageur would be an interest
rate. In another example a trader who is interested in
trading soybean oil could buy and sell soybeans, but,
by using a value axis which accounts for the current
cost of crushing soybeans, storage of soybeans,
transport, etc, can be actually trading in soybean oil.
Thus different traders in the same trading pit 220
would see the same bid and offers but organized with
respect to their own specific value axis. Thus, the pre-

App. 193
sent invention provides enormous flexibility in constructing a view of an item’s value which is directly
representative of the trader’s own interest in the item.
The priority view 312 offers several other advantages to a trader. The offers 304 and the bids 300
are displayed in different colors, shapes, textures or
sizes, or other distinguishing visual characteristics, to
allow the trader to quickly ascertain the current state
of the market for this item. Additionally, orders made
by the trader are displayed having a different visual
characteristic than the visual characteristic used to
display orders of other traders. This allows the trader
to easily distinguish between their own orders and the
orders of other traders. For example, in FIG. 3a, the
trader is able to immediately determine that offers
304(3) and 304(7) are the trader’s own offers 304, and
therefore should be discounted from any market analysis. In FIG. 3a, the trader can also quickly determine
that the trader himself is the trader with the most
bids 300 in place, which suggests to the trader that
the value for the item may be driven down if the
trader removes his bids 300 from the pit 220.
Orders can be placed by a trader using the user
interface of the present invention in variety of ways.
In one embodiment, as shown in FIG. 3a, the trader
can directly submit an order by using the order task
bar 328. The options to specify value and quantity of
either a bid or offer, and the expiration period are provided. After the information is entered, the trader selects Place Order, and the order is submitted to the
transaction server 200 for the pit 220, and an offer or
bid icon 304, 300 is generated and displayed at the

App. 194
desired location at the desired size. The order information is communicated to the transaction server 200
and from there to the other client terminals, so that
the new bid/offer appears in the displays of all other
traders in this same pit. In a preferred embodiment,
the trader submits an order by simply selecting either
an offer token 324 or bid token 320 using a pointing
device. After being selected, the trader adjusts the
size of the offer or bid token 324, 320 until the size of
the token matches the desired quantity of the order.
Preferably, a pop-up window or other screen indicator
is displayed to show in numerical terms the quantity
of the current size of the token, to ease the process of
creating a properly sized order token. Next, the token
is dragged to a location on the screen which corresponds to the desired value of the order. Again, a
screen indicator displays the current value for the token at its current location as it is being dragged to
allow precise placement of the token at the desired
value.
In the embodiment of FIG. 3a, a value marker 344
follows bid token 320 as it is moved to a location in
the display. The value marker 344 indicates the value
of the new order as the order is being placed. This allows for the trader to easily and precisely move the
token 320, 324 to the desired value. After reaching
the desired value, the trader releases the pointing device button and a Buy pop-up window 350, as shown
in FIG. 3d, is displayed with the bid order information. The Buy pop-up window 350 allows the
trader to modify the order information (value, quantity, expiration), cancel the order or submit the order
with the presently displayed information. If the order

App. 195
is to sell an item, a Sell pop-up window 354 is displayed, as shown in FIG. 3e. After the order is submitted to the transaction server, it will be displayed on
the screens of all traders in this trading pit connected
to the transaction server 200.
An additional feature of the user interface of the
present invention is the provision of contextual data.
Contextual data comprises historical trading data of
the item, historical or current trading data of other
items, historical or current trading data of an average
of items. For example, the trader may wish to have
the Dow Jones Average™ displayed on the screen,
and updated in realtime. Viewing contextual data
along with the outstanding offers and bids allows the
trader to better anticipate the market. For example,
if the Dow Jones™ average is used as the contextual
data, and is falling sharply, the trader may decide to
begin selling his items even though the value of the
item in the pit 220 has been stable. This allows the
trader to anticipate where the market is headed. Any
type of data useful to the trader can be displayed as
contextual data. The contextual data 316 is preferably displayed as a historical chart 316 along a vertical
axis of values and against a horizontal axis of time.
The historical chart 316 can be displayed against any
time period, for example, hours, minutes, etc. The historical chart 316 is updated periodically as the data
for the item is updated. If the historical chart 316 includes the current item, as shown in FIG. 3a, bar lines
are displayed in the data to indicate the high and low
values of the item for that time period. A volume
graph 340 is displayed at the bottom edge of graph.
The volume graph illustrates the volume of transactions in the pit 220, and gives additional information

App. 196
to the trader regarding the state of the market for the
item.
Yet another feature of the user interface of the present invention is the display of a marker 336. The
marker 336 is representative of a value quantifying
metric specified by the trader. The metric determines
a current action value for the item which identifies
the value at which the trader should act if the value
of the item rises above the action value or falls beneath the action value. For example, in FIG. 3b, the
value quantifying metric generates an action value of
$68.57. The marker 336 is displayed at this value to
indicate to the trader the location of the action value
in relation to the current bids 300 and offers 304. In
the example of FIG. 3b, the marker is displayed as an
action line 336. As can be seen, the outstanding bids
are below the action line 336 and the current offers
are above the action line 336. This indicates to the
trader that no action should be taken.
The value quantifying metric can be an algorithm
or formula based upon factors the trader believes are
important in ascertaining the true worth of an item.
This metric can be set to reflect value-to-earnings ratio, volatility, volume of orders, percent gain, or any
simple or complex design. The trader can input a custom metric or can select a metric from a predesignated
list of metrics. Metrics may also be purchased from
3rd parties and incorporated into the client terminal
104. This allows new metrics to be added at any time.
The action value displayed by metrics are dynamically determined either by the client terminal 104 or
the server 200, and updated whenever new data is received regarding a component of the metric. Thus, the

App. 197
trader is given the latest information to update the
trader’s action line 336, allowing the trader to make
current, informed decisions regarding possible orders.
For example, in FIG. 3c, the metric has been updated
from the time of FIG. 3b. The action line 336 has
moved corresponding to the new action value of
$80.21. As can be seen, displaying the updated action
line 336 allows the trader to immediately determine
that the outstanding offers are now below his action
line 336, and therefore that these offers should be
purchased despite the fact that the offers themselves
remained at the same value from the time of FIG. 3b
to the time of FIG. 3c.
As discussed above, a trader may be connected to
several trading pits 220 at once. If a trader has multiple connections, the trader can view the different
pits 220 simultaneously, or if the trader wishes to concentrate on a single item, the trader can have only one
pit 220 displayed. Additionally, the trader can disable
the different options for a view to suit the trader’s
preferences, and maximize visibility for a trader’s
particular terminal 104.
FIG. 4 illustrates an alternate view of the user interface in accordance with the present invention. The
value/quantity view 420 illustrates the market for the
item using a first axis of values 408 and a second axis
412 for quantity. Thus, the location of each offer icon
400 and each bid icon 404 represents the value for the
offer or bid and the quantity for which the offer or bid
is made. Optionally, the action line 336 is also displayed, as well as the contextual data. The alternate
view provides a different intuitive perspective on the
state of the market. By providing alternate views, as

App. 198
shown in FIG. 3C, the electronic trading system of the
present invention allows the different preferences of
different traders to be met. Orders in this view are
placed by selecting an offer token 416 or a bid token
417 and moving the token to a location which corresponds to the desired quantity and value. If the trader
wishes to purchase immediately, the trader can
simply drag a bid token 417 to the location directly
over any offer token, and a window pops up displaying
a bid order with value and quantity equal to that of
the offer token. If the trader wishes to sell immediately, the trader can simply drag an offer token 416
to the location directly over any bid token, and a window pops up displaying an offer order with value and
quantity equal to that of the bid token. The trader can
then execute the transaction.
FIG. 5 is a flow chart illustrating a preferred embodiment of the user interface in accordance with the
present invention. The client terminal 104, through
data received from the transaction server 200, displays 500 at least one outstanding bid icon corresponding to a quantity and value of the bid. The client
terminal 104 also displays 504 at least one outstanding offer icon corresponding to a quantity and value of
an offer. Thus, by displaying at least one outstanding
bid and offer icon, the “book” is opened and traders
viewing the client terminal can readily spot trends in
supply and demand for an item and quickly anticipate
the market.
FIG. 6 illustrates an embodiment of a method of
generating an order icon in accordance with the priority view 312 of the present invention. First, the cli-

App. 199
ent terminal 104 receives 600 the order type. The order can be either a bid or an offer. The trader specifies
the type by selecting an offer or bid token to place the
order, or by manually indicating the order type on the
task bar. Second, the client terminal 104 receives 604
a quantity specified for the order. The quantity, as described above, is specified by the trader either by entering the number directly into the order task bar or
by adjusting the size of the order token. In an embodiment where the order information is entered into the
taskbar, an order icon will be generated 608 whose
vertical size matches the quantity specified after the
order has been processed by the server 200. The client
terminal 104 then receives 612 a value for the order.
Again, the trader can specify the value by entering the
information into the taskbar or can drag the order token to the location corresponding to the value. Finally, the client terminal 104 displays 614 an order
confirmation window displaying the value, quantity,
and expiration information. The trader can modify
the order in this window and then must either cancel
the order by closing the window or pressing the cancel
button or submit it by pressing the OK button. The
client terminal 104 which receives the value and
quantity and order type information transmits 616
the information to the server 200. The server 200
then processes the order information, and updates the
order table.
Once the server 200 transmits updated order information to a client terminal 104, the client terminal
104, in the priority view, determines 618 whether a
slot is open adjacent an existing order which has a
lower value, if the order is a bid, or a higher value, if

App. 200
the order is an offer. In the priority view 312, the horizontal axis is divided into slots, each slot having a
width equal to an order icon 300, 304 and each slot
separated by a standard set-off unit. Incoming orders
are sorted by the value of the order. For offers, the
offers with the lowest values are positioned closest to
the axis of values 332, and for bids, the bids with the
highest values are positioned closest to the axis of values 332. When a new order is received, the client terminal 104 re-sorts the outstanding orders and places
the order icons 300, 304 in the appropriate positions.
If a new order is equal to an existing order of the same
type, the order is stacked onto the existing order.
FIG. 6 illustrates a more detailed methodology of the
sorting mechanism, using the example of placing a
new bid. However, the methodology is equally applicable to placing a new offer.
A new bid is designated for the slot adjacent an
existing bid which has the least value of the set of existing bids having values greater than the value of the
new bid. The client terminal 104 determines 618
whether this determined slot has an existing bid
within it. If it does not, the icon is placed 636 at the
determined slot. If the slot does contain an existing
bid, the client terminal 104 determines 620 whether
the existing bid has a value less than the requested
bid. All existing bids that have values less than the
requested bid are moved 640 to the adjacent slot positioned away from the axis of values 332. In the example of FIG. 3a, the adjacent slot would be a slot positioned to the left. All other bids having values less
than the requested bid are shifted 640 correspondingly. If the client terminal determines 624 that the
existing bid has a value equal to the existing bid, the

App. 201
requested bid is stacked 632 below the existing bid or
bids, away from the horizontal separation between
bids and offers as described above. If the client terminal 104 determines 628 that the existing bid is
greater than the requested bid, a new slot is determined 628 for the requested bid, and the process is
repeated.
As shown in FIG. 7, upon receiving new bid information, the transaction server 200 determines 700
whether there is an existing offer in the order table
having a value less than or equal to the requested bid.
If there is not, the new bid is added to the table, and
the information regarding the new bid is sent 702 to
the client terminals 104 for display. If there is an existing offer whose value is less than or equal to the
requested bid, i.e., if the new bid is the highest value
bid outstanding, the server 200 determines 704
whether the existing offer has a quantity which is less
than the quantity represented by the bid. If the offer
does have a quantity less than the bid, the server removes 706 the offer from the order table and adds a
new bid to the order table with the quantity reduced
by the quantity of the offer removed.
The server 200 records 720 a trade between the
trader submitting the new bid and the trader submitting the removed offer, at a value equal to the offer
value and a quantity equal to the offer quantity. All
of the outstanding client terminals 104 are sent the
information regarding the trade. The client terminals
104 then remove the existing offer icon and add a bid
icon which has a size corresponding to the difference
in quantities between the existing offer icon and the

App. 202
requested bid icon. The transaction server 200 determines 700 again whether there is another existing offer in the order table having a value less than or equal
to the requested bid to determine if another transaction can be made with the quantity remaining in the
bid.
The server 200 also determines 708 whether the
offer has a quantity greater than the quantity of the
requested bid. If it does, the quantity of the offer is
reduced 716 by the quantity of the bid, and the updated offer information is sent 717 to the client terminals 104 for display. A trade is recorded 720 between
the trader submitting the new bid and the trader who
submitted the offer at a value equal to the offer value
and a quantity equal to the bid quantity. All of the
outstanding client terminals 104 are sent the information regarding the trade and update the user interface displays accordingly.
If the quantities of the bid and offer are equal, the
offer is removed 712 from the table and the transaction is complete. A trade is recorded 720 between the
trader submitting the new bid and the trader who
submitted the offer at a value equal to the offer value
and a quantity equal to the bid quantity. All of the
outstanding client terminals 104 are sent the information regarding the trade, and update the user interface displays accordingly.
As shown in FIG. 8, in the value/quantity view, the
client terminal 104 receives 800 a value, receives 804
a quantity, and receives 806 an order type for a new
order. A confirmation window is displayed 807, and,
upon confirmation of the order, the order information

App. 203
is transmitted to the server 200. Again, this may occur responsive to the trader entering in the information directly or dragging an order token to the
proper location and after confirming the order. The
server 200 receives the order information, updates
the order table, and sends the updated information to
the client terminals 104. The client terminals 104 display a new order icon at a location corresponding to
the value and quantity of the order with respect to the
axis of quantities and axis of values. If the new order
is an offer, and there is an existing bid for a value
higher than or equal to the value of the offer, a transaction is completed, and a new offer or a modified bid
token is displayed responsive to the quantities that
the original offer and bid icons represented.
FIG. 9 illustrates a trading pit view 900 called the
pit panel view 900, in accordance with the present invention. The pit panel view 900 provides a visual interface to other members of the pit 220. All users who
are currently registered to the pit 220 are displayed
in the pit panel 900. This is critical information to a
trader regarding the activity of the pit 220. If the pit
220 is crowded, the trader can expect volatility in
trading. If the pit 220 is empty, the trader can expect
light trading and relatively stable values for the item.
The pit panel 900 displays trader icons 912, observer icons 904, and floor broker icons 908. Observers are users who are registered to the pit 220 but who
are not actively trading and floor brokers are individuals who have expertise on a pit’s item and traders,
and who assist traders in executing unusual trades,
negotiating a deal with multiple traders, or providing
history and information on traders to others. As the

App. 204
observers do not trade for themselves, their icons 904
are placed on the outside of the pit icon 916. Floor brokers who do not trade also have their icons 908 placed
on the outside of the pit icon 916.
The trader icons 912 are displayed on the pit icon
916. The pit icon 916 is preferably displayed as a series of concentric polygons, where each polygon represents an activity level or levels. Traders who are more
active are placed closer to the center of the pit icon
916. The most active trader, in the example of FIG. 9,
trader 912(1), is placed in the center of the pit icon
916. In a preferred embodiment, each polygon represents a range of activity levels. For example, the innermost polygon contains the traders with the second
through ninth highest activity levels. The next polygon contains the traders having the tenth through
twenty-sixth highest activity levels, and so forth. By
grouping traders into activity ranges, and thus shifting a trader’s icon out of a polygon only in response to
the trader’s activity level shifting out of the range represented by the polygon, icon changes and consequent
flicker in the display of the pit icon 916 are minimized. However, a trader is able to easily ascertain
who the active traders in a pit 220 are and how active
the traders are by noting the relative locations of the
trader icons 912 in the pit icon 916.
Each trader icon 912 has order indicators 913 to
show the quantity of orders a trader has outstanding.
Preferably, there are separate indicators 913 for bids
and offers, each showing the volume of outstanding
bids or offers the trader currently has placed. Other
order indicators 913 may be optionally displayed, for
example, indicating the sum of all quantities of orders

App. 205
or the volume of orders entered over a specified period
of time. Selecting a trader’s icon 912 will also highlight the trader’s orders on the priority view,
value/quantity view, and other views provided in the
system that display orders and which can all be displayed concurrently. Double clicking on a trader icon
912 generates a communication window as shown in
FIG. 11 which allows the trader to send an email message 1108, send an instant message 1104 as part of a
text chat session, communicate by voice over the network connection 1112, or set up a later telephone call
or other optional communication to the selected other
trader. Thus, the pit panel 900 provides a sense of
community in the pit 220 by visual representing useful information, and provides additional information
to the trader which the trader can use in anticipating
the market.
FIG. 10 is a flow chart illustrating a preferred embodiment of generating and placing a trader icon in
accordance with the present invention. First, a trading pit icon 916 is displayed 1000. Next, the client 104
determines 1004 whether a predetermined period of
time has passed. The pit panel data is updated periodically, and the client 104 waits for that amount of
time before re-generating the display with the new
data. If the server 200 determines 1004 that the predetermined period has expired, a first trader icon is
selected 1008. The client 104 determines 1010
whether the trader is still connected to the server 200
from the data provided by the server 200. If the trader
is not, the trader icon 912 for the trader is removed
1011, and the client 104 determines 1020 whether
there are more traders. If the trader is still connected,

App. 206
an activity level is determined 1012 for the trader. Activity levels are determined as a combination of the
volume of outstanding orders, the value of outstanding orders, recent activity, or other measures which
determine how active a trader has been. Once the activity level has been determined, the client 104 displays 1016 the icon 912 for the trader at the location
corresponding to the activity level. In an embodiment
where order indicators 913 are displayed, the order
indicators 913 are updated to include the latest order
data. In the preferred embodiment, as discussed
above, the pit icon 916 is comprised of concentric polygons or rings, the traders are ordered by activity levels, and each polygon represents a range of activity
level orders. After the activity level of a trader is determined, the traders are reordered responsive to
their activity levels, and the trader icon 912 for each
the trader is placed in the polygon designated for the
order of the trader. The client 104 determines 1020 if
there are more traders. If there are not, the client 104
determines 1024 if there are bystanders and, if there
are, selects 1028 the first bystander icon 904, 908 and
determines 1032 whether the bystander is connected
using data that is provided by the server 200. If the
bystander is not connected, the bystander icon is removed 1040. If the bystander is connected, the client
104 determines 1036 whether there are more bystanders. If there are not, the client 104 returns to the
step of determining 1004 whether a predetermined
time period has ended, as the pit panel 900 view has
been updated to reflect the current users and their
current activity levels.
We claim:

App. 207
1. A method of operation used by a computer for
displaying transactional information and facilitating
trading in a system where orders comprise a bid type
or an offer type, the method comprising:
receiving bid and offer information for a
product from an electronic exchange, the
bid and offer information indicating a
plurality of bid orders and a plurality of
offer orders for the product;
displaying a plurality of bid indicators representing quantity associated with the
plurality of bid orders, the plurality of
bid indicators being displayed at locations corresponding to prices of the plurality of bid orders along a price axis;
displaying a plurality of offer indicators representing quantity associated with the
plurality of offer orders, the plurality of
offer indicators being displayed at locations corresponding to prices of the plurality offer orders along the price axis;
receiving a user input indicating a default
quantity to be used to determine a quantity for each of a plurality of orders to be
placed by the user at one or more price
levels;
receiving a user input indicating a desired
price for an order to be placed by the
user, the desired price being specified by
selection of one of a plurality of locations
corresponding to price levels along the
price axis; and

App. 208
sending the order for the default quantity at
the desired price to the electronic exchange.
2. The method of claim 1, further comprising:
receiving a user input indicating a second
desired price for a second order to be
placed by the user, the second desired
price being specified by selection of one
of the plurality of locations corresponding to price levels along the price axis;
and
sending the second order for the default
quantity at the second desired price to
the electronic exchange.
3. The method of claim 1, further comprising:
receiving a user input indicating a new default quantity, wherein the new default
quantity is used to determine a quantity
for each of a plurality of orders to be
placed by the user at one or more price
levels.
4. The method of claim 3, further comprising:
sending the order for the new default quantity at the desired price to the electronic
exchange.
5. The method of claim 1, further comprising:
displaying an order icon at a location that
corresponds to the desired price level

App. 209
along the price axis, the order icon indicating the user’s order at the electronic
exchange.
6. The method of claim 5, further comprising:
displaying the plurality of bid indicators using a first visual characteristic;
displaying the plurality of offer indicators
using a second visual characteristic; and
displaying the order icon using a third visual characteristic.
7. The method of claim 5, wherein the order icon
indicates the default quantity working at the electronic exchange.
8. The method of claim 1, wherein a size of each
bid indicator of the plurality of bid indicators is determined based on the quantity associated with that bid
indicator, and wherein a size of each offer indicator of
the plurality of offer indicators is determined based
on the quantity associated with that offer indicator.
9. The method of claim 1, wherein each bid indicator of the plurality of bid indicators displays quantity
associated with a price level, wherein each offer indicator of the plurality of offer indicators displays quantity associated with a price level along the price axis.
10. The method of claim 1, wherein selecting one
of the plurality of locations corresponding to price levels along the price axis comprises releasing a pointing
device over one of the plurality of locations.
11. The method of claim 1, further comprising:

App. 210
upon receiving the user input indicating the
desired price for the order, automatically
displaying a pop-up window with the default quantity and the desired price.
12. The method of claim 11, wherein the pop-up
window allows the order to be sent to the electronic
exchange.
13. The method of claim 1, wherein the default
quantity is a default quantity for orders of a bid type.
14. The method of claim 1, wherein the default
quantity is a default quantity for orders of an offer
type.
15. The method of claim 1, further comprising: adjusting a size of an order token to indicate the default
quantity.
*****

App. 211
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

:
:
:
:

7,533,056 B2
11/417544
May 12, 2009
Richard W. Friesen et al.

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:
Column 14, line 9: please delete “plurality offer
orders” and insert -- plurality of offer orders --.
Signed and Sealed this
Ninth Day of February, 2010
David J. Kappos
Director of the United States Patent and Trademark
Office

App. 212
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

:
:
:
:

7,533,056 B2
11/417544
May 12, 2009
Richard W. Friesen et al.

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:
Delete drawing sheet, consisting of figs. 2, 3A,
3B, 3D, 3E, 9, 4, 6, 7 and 10 substitute therefor
the drawing sheets, consisting of figs. 2, 3A, 3B,
3D, 3E, 9, 4, 6, 7 and 10 as shown on the attached pages.
Column 6, line 35: please delete “$29.50” and
insert --slightly less than $27.35--.
Signed and Sealed this
Twenty-second Day of March, 2011
David J. Kappos
Director of the United States Patent and Trademark
Office

App. 213

App. 214

App. 215

App. 216

App. 217

App. 218

App. 219

App. 220

App. 221
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

:
:
:
:

7,533,056 B2
11/417544
May 12, 2009
Richard W. Friesen et al.

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below.
The Title Page, showing the illustrative figure,
should be deleted and substitute therefor the attached title page.
Signed and Sealed this
Nineteenth Day of April, 2011
David J. Kappos
Director of the United States Patent and Trademark
Office

App. 222
(10)

Patent No.:

US 7,533,056 B2

(12)

United States Patent Friesen et al.

(45)

Date of Patent:

(54)

USER INTERFACE FOR AN ELECTRONIC TRADING SYSTEM

(75)

Inventors:

Richard W. Friesen,
Fairfax, CA (US); Peter
C. Hart, San Rafael, CA
(US)

(73)

Assignee:

(*)

Notice:

Trading Technologies
International, Inc.,
Chicago, IL (US)
Subject to any disclaimer, the term of this
patent is extended or adjusted under 35 U.S.C.
154(b) by 0 days.

*May. 12, 2009

This patent is subject to
a terminal disclaimer.
(21)

Appl. No.:

11/417,544

(22)

Filed:

May 3, 2006

(65)

Prior Publication Data
US 2006/0265318 A1

Nov. 23, 2006

Related U.S. Application Data

App. 223
(63)

Continuation
of
application
No.
09/289,550, filed on Apr. 9, 1999, now Pat.
No. 7,212,999.

(51)

Int. Cl.
G06Q 40/00
(2006.01)
(52)
U.S. Cl.
705/37;
705/35;
..................................................
345/440.2
(58)
Field of Classification
705/35,
Search
705/37;
..............................................
345/440.2
See application file for complete search history.
(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044 A

6/1987 Kalmus et al. ....
364/408
(Continued)

FOREIGN PATENT DOCUMENTS
EP

0 388 162

A2 *

3/1990

(Continued)
OTHER PUBLICATIONS
Cats Traders’ Manual, Toronto Stock Exchange,
Sep. 30, 1977.
(Continued)

App. 224
Primary Examiner—James P Trammell
Assistant Examiner—Daniel L Green
(74) Attorney, Agent, or Firm—McDonnell Boehmen Hulbert & Berghoff LLP
(57)

ABSTRACT

A user interface for an electronic trading exchange is
provided which allows a remote trader to view in real
time bid orders, offer orders, and trades for an item.
and optionally one or more sources of contextual data.
Individual traders place orders on remote client terminals, and this information is routed to a transaction
server. The transaction server receives order information from the remote terminals, matches a bid for
an item to an offer for an item responsive to the bid
corresponding with the offer, and communicates outstanding bid and offer information, and additional information (such as trades and contextual data) back
to the client terminals. Each client terminal displays
all of the outstanding bids and offers for an item, allowing the trader to view trends in orders for an item.
A priority view is provided in which orders are displayed as tokens at locations corresponding to the values of the orders. The size of the tokens reflects the
quantity of the orders. An alternate view positions order icons at a location which reflects the value and
quantity of the order. Addition-ally, contextual data
for the item is also displayed to allow the trader to
consider as much information as possible while making transaction decisions. A pit panel view is also provided in which traders connected to the pit are represented by icons, and are displayed corresponding to
an activity level of the trader.

App. 225
15 Claims, 11 Drawing Sheets

App. 226
(10)

Patent No.:

US 7,904,374 B2

(12)

United States Patent Kemp, II et al.

(45)

Date of Patent:

(54)

CLICK BASED TRADING WITH INTUITIVE GRID DISPLAY OF MARKET DEPTH

(75)

Inventors:

Gary Allan Kemp, II,
Winnetka, IL (US); JensUwe Schluetter, Evanston, IL (US); Harris
Brumfield, Chicago, IL
(US)

(73)

Assignee:

(*)

Notice:

Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by
559 days.

*Mar. 8, 2011

This patent is subject to a
terminal disclaimer.
(21)

Appl. No.:

11/585,905

(22)

Filed:

Oct. 25, 2006

(65)

Prior Publication Data

App. 227
US 2007/0038554 A1

Feb. 15, 2007

Related U.S. Application Data
(63)

Continuation
of
application
No.
11/415,163, filed on May 2, 2006, now Pat.
No. 7,813,996, which is a continuation of
application No. 10/237,131, filed on Sep. 9,
2002, now abandoned, which is a continuation of application No. 09/590,692, filed
on Jun. 9, 2000, now Pat. No. 6,772,132.

(60)

Provisional application No. 60/186,322,
filed on Mar. 2, 2000.

(51)

Int. Cl.
G06Q 40/00
(2006.01)
(52)
U.S. Cl. ........................................ 705/37
(58)
Field of Classification
Search ................................... 705/35–45
See application file for complete search history.
(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044
4,750,135
4,903,201
5,038,284
5,077,665
5,101,353
5,136,501
5,243,331
5,270,922

A
A
A
A
A
A
A
A
A

6/1987
6/1988
2/1990
8/1991
12/1991
3/1992
8/1992
9/1993
12/1993

Kalmus et al.
Boilen
Wagner
Kramer
Silverman
Lupien et al.
Silverman et al.
McCausland et al.
Higgins

App. 228
5,297,031 A

3/1994 Gutterman et al.
(Continued)

FOREIGN PATENT DOCUMENTS
EP

1 319 211

B1

4/1998

(Continued)
OTHER PUBLICATIONS
GL Trade, CAC and Stoxx Futures on MATIF NSC
VF, User Information Notes, pp. 1-14, published by
GL Trade, London, England, Mar. 15, 1999.
(Continued)
Primary Examiner — Richard C Weisberger
(74) Attorney, Agent, or Firm — McDonnell Boehmen Hulbert & Berghoff LLP
(57)

ABSTRACT

A method and system for reducing the time it takes
fora trader to place a trade when electronically trading on an exchange, thus increasing the likelihood
that the trader will have orders filled at desirable
prices and quantities. The “Mercury” display and
trading method of the present invention ensure fast
and accurate execution of trades by displaying market
depth on a vertical or horizontal plane, which fluctuates logically up or down, left or right across the plane
as the market prices fluctuates. This allows the trader
to trade quickly and efficiently.

App. 229
36 Claims, 6 Drawing Sheets

App. 230
U.S. PATENT DOCUMENTS
5.297,032
5,689,651
5,774,877
5,793,301
5,797,002
5,845,266
5,915,245
5,924,082
5,924,083
5,946,667
5,960,411
5,963,923
6,012,046
6,014,643
6,035,287
6,098,051
6,115,698
6,131,087
6,134,535
6,195,647
6,272,474
6,278,982
6,282,521
6,343,278
6,408,282
6.421,653
6,766,304
6,772,132
6,938,011
2002/0023038
2002/0055899
2002/0138401

A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
B1
B1
B1
B1
B1
B1
B1
B2
B1
B1
A1
A1
A1

3/1994
11/1997
6/1998
8/1998
8/1998
12/1998
6/1999
7/1999
7/1999
8/1999
9/1999
10/1999
1/2000
1/2000
3/2000
8/2000
9/2000
10/2000
10/2000
2/2001
8/2001
8/2001
8/2001
1/2002
6/2002
7/2002
7/2004
8/2004
8/2005
2/2002
5/2002
9/2002

Trojan et al.
Lozman
Patterson, Jr. et al.
Patterson, Jr. et al.
Patterson, Jr. et al.
Lupien et al.
Patterson, Jr. et al.
Silverman et al.
Silverman et al.
Tull, Jr. et al.
Hartman et al.
Garber
Lupien et al.
Minton
Stallaert et al.
Lupien et al.
Tuck et al.
Luke et al.
Belzberg
Martyn et al.
Garcia
Korhammer et al.
Howorka
Jain et al.
Buist
May et al.
Kemp, II
Kemp, II
Kemp, II
Fritsch et al.
Williams
Allen et al.

App. 231
2003/0097325
2005/0149429
2006/0195389
2007/0038554
2007/0038555
2007/0038556
2007/0038557

A1
A1
A1
A1
A1
A1
A1

5/2003
7/2005
8/2006
2/2007
2/2007
2/2007
2/2007

Friesen et al.
Kemp, II
Kemp, II
Kemp, II
Kemp, II
Kemp, II
Kemp, II

FOREIGN PATENT DOCUMENTS
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

WO 91/14231
WO 95/26005
WO 98/49639
W099/19821
W099/30259
W099/53424
WO 00/52619
WO 00/62187
WO 00/65510
WO 01/16830
WO 01/16852
WO 01/22315
WO 01/88808

9/1991
9/1995
11/1998
4/1999
6/1999
10/1999
9/2000
10/2000
11/2000
3/2001
3/2001
3/2001
11/2001

OTHER PUBLICATIONS
GL Trade, Liffe Connect for Futures, User Guide,
V4.50 Beta, pp. 1-24, published by GL Trade, London,
England, Jan. 1999.
GL Trade, Liffe Connect for Futures, User Guide,
V4.50, pp. 1-39, published by GL Trade, London, England, Feb. 1999.

App. 232
GL Trade, Liffe Connect for Futures, User Guide,
V4.50, pp. 1-39, published by GL Trade, London, England, Mar. 1999.
GL Trade, Liffe Connect for Futures, User Guide,
V4.51, pp. 1-57, published by GL Trade, London, England, Jun. 1999.
eSpeed’s Supplemental Invalidity Contentions, May
25, 2007.
eSpeed’s Disclosure of Invalidity Contentions Pursuant to 35 USC 282, May 25, 2007.
Invalidity Contentions Re: TradePad Module (Letter
Dated May 25, 2007).
Supplemental Invalidity Contentions Pursuant to 35
U.S.C. 282. Aug. 10, 2007.
eSpeed’s and Ecco’s Answers to Plaintiff’s Eighth Set
of Interrogatories, Aug. 4, 2006.
eSpeed and Ecco’s Supplemental Answers to Plaintiff’s First, Third. Seventh, Eighth, and Ninth Set of
Interrogatories, May 25, 2007.
Defendant GL Trade Americas, Inc’s Supplemental
Responses and Objections to Interrogatory Nos. 5, 17,
and 18, Jul. 24, 2006.
eSpeed’s Objections and Answers to Plaintiff’s Third
Set of Interrogatories to Defendant eSpeed, May 12,
2005.
GL Win Version 4.50, Mar. 3, 1999, DX 538, G
107459-0 107480, DTX 538.
Trading Pad User Manual, Aug. 10, 1999, DX 539, G
112123-G 112131, DTX 539.
Email from Wattier to M. Cartier attaching Matif VF:
V4.50 manual, Mar. 30, 1998, DX 592, MC000046MC000116, DTX 592.

App. 233
User Guide V4.60 LIFFE Connect for Futures by GL
Trade, 06/00/ 99, DX 605, G 123548-0 123603, DTX
605.
“A System and Method for Conducting Security
Transactions Over a Computer Network”. Mauro &
Buist, Mar. 1, 1999, DX 196, eS 066150-eS 066229,
DTX 196.
RCG’s Presentation re WitCapital, Apr. 22, 2004, DX
208, RCG 000635-RCG 000663, DTX 208.
Mauro, Certified U.S. Appl. No. 09/292,552, Apr. 15,
1999, DX 209, eS 065994-eS 066149.
Various declarations Re: U.S. Appl. No. 09/292,552,
Nov. 3, 2003, DX 284, TT 099877-TT 099907, DTX
284.
Evenstreet Presentation prepared for National Discount Brokers, 00/00/1999, DX 301, CM 006787-CM
006817, DTX 301.
WIT DSM user interface instructions, Aug. 6, 1998,
DX 427, CM 006591-CM 006632, DTX 427.
Presentation re WIT DSM user interface Trade4.ppt,
Oct. 12, 1998, DX 430, CM 008265-CM 008330, DTX
430.
WIT DSM Presentation re Information display and
decision variables, Dec. 20, 1998, DX 431, CM 004334CM 004347, DTX 431.
Evenstreet Presentation prepared for Flatiron Partners, 00/00/1999, DX 437, CM 007139-CM 007172,
DTX 437.
WIT Capital digital trading facility presentation to
Goldman Sachs, DX 438, CM 004523-CM 004547,
DTX 438.
WIT Capital Digital trading facility presentation to
PaineWebber, Inc., DX 439, DTX 439.

App. 234
WIT Capital after hours trading system, Mauro, Mar.
19, 1999, DX 440, CM 009028-CM 009059, DTX 440.
WIT Capital Corporation digital trading facility
presentation, 03/00/ 99, DX 441, DTX 441.
WIT Capital pdf operator manual for Digital trading
facility, 00/00/ 1999, DX 442, CM 006510-CM 006513,
DTX 442.
Overview re Digital trading facility, DX 443, CM
006315-CM 006344, DTX 443.
Utility Patent Application Transmittal Re: Computer
Trading System, Method and Interface, Apr. 15, 1999,
Mauro, Kleia, and Buist, PX368.
Photocopy of Disks containing exhibits A and B to declaration of W. Buist, PX366.
SISS Functional specifications version 2.1, Feb. 16,
1988, DX 445, DTX 445.
Overview re SPATS; the Electronic Broker, DX 446,
DTX 446. Status review specialist support system
study NYSE, Apr. 10, 1986, DX 447, DTX 447.
Declaration of W. Buist re: WIT DSM System. Apr.
26, 2006, PX 365, DTX 1777.
Sample screens of APT system, DX 150, DTX 150.
Photo of trader w/ APT screen, DX 151, LIFFE 00167LIFFE 00168, DTX 151.
APT User Guide, 01/00/94, DX 152, LIFFE 000262LIFFE 000363, DTX 152.
LIFFE guide/pamphlet, DX 148, DTX 148.
Release Notes-Market Trader V5.2a, Mar. 18, 1999,
DX 617, G 118137-G 118152, DTX 617.
Market Trader-Nikkel 225 & Nikkei 300 Index options and Index futures trading users guide, Mar. 20,
1998, DX 618, 6100444G100462, DTX 618.

App. 235
Midas Kapiti Delivery Note and Release Note-Market
Trader V5.2b, Mar. 31, 1999, DX 619, G 096511-G
096527, DTX 619.
Midas Kapiti Release Notes-Market Trader V5.2e,
Apr. 12, 1999, DX 620, G 096694-G 096711, DTX 620.
Midas Kapiti Release Notes-Market Trader V5.2, DX
621, G 096712 -G 096727, DTX 621, May 26, 1999.
Midas Kapiti Release Notes—Market Trader V5.2e,
DX 622, G 096728- G 096754. DTX 622. Jun. 1. 1999.
Midas Kapiti Delivery Note and Release Note— Market Trader V5.2e, DX 623, G 105641- G 105667, DTX
623, May 26, 1999.
Drawing of 1997 TSE terminal by H. Ki Da, DX 624,
DTX 624.
Directory of Software Solutions for LIFFE Connect,
02/0099, DX 156, DTX 156.
ScreenShots: Patsystem “Canned” Demo, 02/00/97,
DX120, PATS 00545-PATS 00559, DTX 120.
PTS Client Version 2.1 F, DX 119, PATS 00067-PATS
00082, DTX 119.
PTS trading application Version 1.1 Beta H.1, Mar.
31, 1998, DX 118, PATS 00560 -PATS 00560, DTX
118.
Directory of Software Solutions for LIFFE Connect,
Issue 1, 10/00/ 1998, DX 155, DTX 155.
Directory of Software Solutions for LIFFE Connect,
Issue 3, Jun. 10, 1999, DX 157, DTX 157.
Trading Technologies Trader System User Documentation, Apr. 1, 1998, Release 3.10, DX 3, TT 015867TT 015955, DTX 3.
Aurora Chicago Board of Trade Brochure, 1990,
ES0021230-ES0021241.
Ecco Consulting Study Report MEFF Software Systems. Mar. 17, 1999, ES0060578-ES0060591.

App. 236
Osaka Stock Exchange Manual (Japanese Document), Apr. 1996 REFC00009773-REFC00009826.
TSE
Manual
(Japanese
Document),11/15/05,
DX179,TSE647-995,w/certified translation eS6225862366 [TSE609-647,694-711,714-721,735-736,749 756,759-760,779-782,784 -810.982995].
TIFFE Manual (Japanese Document), Jan. 1996,
REFC0001086 I-REFC00011210, (translation included as cite No. 175).
Final Detailed Design Document NYMEX ACCESS,
May 5, 1992, eS0003127-eS0003541.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.0, Sep. 1998,
DDX 159, DTX 159, eS00060055-eS00060145.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.2, Dec. 1998,
DDX 161, DTX 161, eS00060239-eS00060331.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 3.3, Jan. 1999,
DDX 162, DTX 162. eS00059959-eS00060054.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, Release 2.7, Sep. 1998,
DDX 163, DTX 163, eS00059868-eS00059958.
OM CLICK Trade User’s Guide for Windows NT,
10/00/1998, eS00064671-eS00064773.
Globex Members Handbook, 6/00/1992, DX632,
DTX632, eS006974-eS0069818.
The Complete GLOBEX2 Handbook. 5/00/1998,
DX635, DTX635, CME-E0010679-0010891.
The Complete GLOBEX2 Handbook, 7/00/1998,
DX637, DTX637, CME-E 014048-CME-E 014286.
MINEX Service Outline User Test/Orientation, Sep.
1992, eS0064647-eS0064670.

App. 237
ORC Instructions for Use Version 2.2.8., 0/0/1999,
eS0064775-eS0032572.
Interactive Brokers, “Trade Futures Online with Interactive Brokers”, May 9, 2005, eS0032571eS0032572.
Nicholas Economides, “Electronic Call Market Trading”, Journal of Portfolio Management, 2/00/1995,
eS0069585-eS0069610.
GL Trading Pad Manual, G0020819-60020826.
TradePad Instuctions (French), 60025748-G0025749.
TradePad.vsd Document, Feb. 9, 1999, G01116960111670.
Trading pad.doc Document, Jan. 26, 1999, G011167100111672.
GL Win et Logiciels complementaires (French),
10//00/99, G009121-6009486.
GL WIN et Logiciels complementaires (French),
7/00/99, 0009875G010238.
Memo re: Dual ACCESS Version 4.5 release, Mar. 21,
1999, 00022956-00022959.
tradepad.txt (French), Mar. 8, 2000, G0025616G0025618.
GL Enhancements Software Version 4.11f, Oct. 29,
1998, G0060853-G0060854.
GL Enhancements Update, Jan. 27, 1999, G010168260101688.
LIFFE Connect Futures Release Note 050399.doc,
Mar. 3, 1998, 60111402-60111407.
Trading Pad.doc, Apr. 30, 1999, G0112117-G0112122.
Trading PadUserManual.doc, Aug. 10, 1999,
G0112123-G0112131.
GL WIN Version 4.51, G0118856-G0118865.
GL Trade Presentation (French), Apr. 25, 1999,
60118989 G0119044.

App. 238
LIFFE Connect Futures Functional Technical Issues
to Resolve, Apr. 12, 2007, G0119049-G0119050.
LIFFE Connect for Equity Options User Guide v4.30,
Nov. 1998, 00119052-00119086.
Member Participation in the Futures Market, Apr. 12,
1999, G0119196-G0119197.
Email from Patricia Gauthier to Sam Page, Jan. 25,
1999, 00119377 G0119380.
LIFFE Connect ISV Circular No: 001.99, Jan. 8, 1999,
600119566 G00119568.
LIFFE Connect ISV Circular No: 14.99, Mar. 2, 1999,
60119583 G0119590.
LIFFE Connect ISV Circular No: 004.99, Jan. 15,
1999, 0119615 G0119616.
LIFFE Connect ISV Circular No: 001.99, Jan. 15,
1999, G0119617 G0119618.
LIFFE Connect ISV Circular No: 008.98, Dec. 28,
1998, 60119631 G0119632.
Screenshot of GL TradePad, G0119660.
LIFFE Connect for Futures Schedule for Project Deliverables, Feb. 4, 1999,G0119681-60119682.
LIFFE Connect for Futures-Project Update #1, Meeting of Jan. 11, 1999, 600119691-G00119697.
LIFFE Connect for Futures-Project Update 2, Meeting of Feb. 10, 1999,60119698-G0119704.
LIFFE Connect for Futures: Project Summary:
Apr. 19, 1999, 00119705-60119717.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999. G0119718-G0119724.
Functional Enhancements for LIFEE Connect for Futures Project, Apr. 12, 1999, 00119725-60119745.
Functional Enhancements for LIFEE Connect for Futures Project, Mar. 3, 1999.

App. 239
Installation, Market Entry Test, and Technical Dress
Rehearsal Summary, Feb. 23, 1999.
GL Trade Checklist-Installation Requirements for
FUTURES, Jan. 1999, 00119795-60119798.
Cahier de charges.doc, Feb. 9, 1999, G0111752G0111758.
Keyboard example, Feb. 3, 2006, G007308-G007310.
GL Brochure, 00021652-21658.
GL Cost and Services, 00/00/1998, G0108876.
GL Win Summary (French), 6/00/1998, G0091004G0091046.
Swiss Exchange SWX—TS User Manual, Dec. 31,
1998, DTX 2215, eS0032293-eS0032547.
Screen No. 100-Order Book & Order Entry 1 (Single
View), eS060637-eS060639.
Globex User Guide, 01/00/97, DDX 633, DTX 633,
eS069819 eS070081.
QuickTrade Document and Brochure, G02102721031.
LIFFE Connect for Futures User Guide v4.5,
6/00/1999, G0025751 25806.
GL Version 4.70 (French Version), Jan. 5, 2000,
G0026505-26533.
GL Version 4.70 (English Version), Jan. 5, 2000,
G0020593-20621.
GL Win and Related Software Manual, Sep. 11,
2000,1) 60025251-25615.
GL Win and Related Software Manual, 2) G002594226267.
GL Win and Related Software Manual, 3) G01023910610.
GL Win et Logiciels complementaires (French),
00009495-9874.

App. 240
Internal Product News doc on QuickTrade,
G0020468-20471.
“Introducing the Company: GL Trade” product offerings and slide presentation (to Reuters), G002653426559.
GL Product Leaflet Re: Mosaic, G0022529-22530.
Thomson Financial leaflet, 09/00/2003, G002244522450.
LIFFE Connect for Futures leaflet, G0023885-23888.
TSE Japanese Document, pp. 4-15.
TSE Japanese Document, pp. 6-15.
Megumi Miyoshi, Japanese Patent Application No.
2001-564025, Apr. 18, 2000.
“Amazon.com Catapults Electronic Commerce to Next
Level with Powerful New Features,” Amazon.com
Press
Release,
Sep.
23,
1997,
DTX1034,
Dezmelyk000012-13.
Apple Advertisement, Scientific American, Sep. 1984,
Scientific American Inc. NY, NY Dezmelyk000014-33.
Memo Re: Downloading the Terminal Program, Aug.
18, 2005.
“Specialist vs Saitori: Market-Making in New York
and Tokyo”, Richard Lindsay and Ulrike Schaede,
DTX 1170, 7-8/00/1992, Silverman000494-Silverman000506.
“Building for Excellence”, MINEX Brochure, DTX
1153, Silver-man000330-Silverman000334.
Chicago Mercantile Exchange (CME) Brochure,
DTX1163, Silver-man000406-Silverman000407.
MEFF Renta Fija Manual, DTX 1165, 10/00/1997, Silverman000410-Silverman000473.

App. 241
O’Hara and Oldfield, “The Microeconomics of Market
Making”, Journal of Financial and Quanitative Analysis, 12/00/86, DTX 1169 Silverman000478-Silverman000493.
B. Weber, “Information Technology in the Major International Financial Markets”, Apr. 7, 1993, DX 79.
Terminal Use Manual—Windows NT Version, Tokyo
International Financial Futures Exchange (TIFFE),
0/0/1994, Silvennan002552-Silverman002616, DTX
1226.
USPTO Press Release, “Electronic Patent Application
Records Replace Paper Files at USPTO”, DTX 2285,
Sep. 19, 2007.
Memorandum Opinion and Order Re: ’132 and ’304
Claim Construction [425], Oct. 31, 2006.
Memorandum Opinion and Order Re: TT’s Motion for
Clarification [475], Feb. 21, 2007.
Memorandum Opinion and Order Re: Non-Infringement [708], Jun. 20, 2007.
Memorandum Opinion and Order Re: Motions for Reconsideration [875], Aug. 27, 2007.
Memorandum Opinion and Order Re: “Single Action”
Ruling [963], Sep. 12, 2007.
Memorandum Opinion and Order Re: Preliminary Injunction [83], Feb. 9, 2005.
Memorandum Opinion and Order Re: eSpeed’s Motion for Summary Judgment of Invalidity Denied
[845], Aug. 21, 2007.
Memorandum Opinion and Order Re: ‘TT’s Motion to
Preclude Prior Sale Defense Denied [873], Aug. 27,
2007.
Memorandum Opinion and Order Re: GL’s Motion for
Reconsideration Denied [994], Sep. 19, 2007.

App. 242
Memorandum Opinion and Order Re: Priority Date
[769], Jul. 12, 2007.
Memorandum Opinion and Order Re: Priority Date
[1013], Sep. 25, 2007.
Memorandum Opinion and Order Re: Prior Public
Use [835], Aug. 16, 2007.
Memorandum Opinion and Order Re: Defendant’s
Motion for Judgment as a Matter of Law on Indefiniteness [1141], Jan. 2, 2008.
Notification of Docket Entry Re: Defendants eSpeed’s
Motion for Judgment as a Matter of Law on Invalidity
is denied [1140], Jan. 3, 2008.
Notification of Docket Entry Re: Defendant eSpeed’s
Motion for a New Trial is denied [1142], Jan. 3, 2008.
Memorandum Opinion and Order Re: Defendant’s
Motion for Judgment as a Matter of Law on Willfulness [1144], Jan. 3, 2008.
Deposition testimony of Hiroyuki Kida dated May 17,
2007 and May 18, 2007 with DDX 617-624, PDX 519524 and PDX 531.
Trial testimony of Hiroyuki Kida dated Sep. 28, 2007
and Oct. I, 2007 with DTX 617.
Deposition testimony of Atsushi Kawashima dated
Nov. 21, 2005 with DDX 178-185.
Trial testimony of Atsushi Kawashima dated Sep. 26,
2007 with DTX 183.
Deposition testimony of Philip Carre dated Jun.
22,2007, Sep. 6, 2007 & Sep. 13, 2007 with DDX 384385; 473;494; 527;537-541; 592; 593A; 595-598; 605;
626; 629; 719-723; 728-732; 897-898; 896.
Deposition testimony of Michael Cartier dated May 9,
2007 with DDX 587-588; DDX 592-593A and PDX
498-500.

App. 243
Deposition testimony of Cristina Dobson dated May
18, 2007 with DDX 625-635; DDX 637; PDX 533 and
PDX 535.
Deposition testimony of Nicholas Garrow dated Jun.
14, 2007 with DDX 116 and DDX 592.
Trial testimony of Nicholas Garrow (via expert witness) dated Oct. 2, 2007.
Deposition testimony of Michael Glista dated Feb. 20,
2007 with DDX 382-386.
Trial testimony of Michael Glista dated Sep. 24, 2007
and Sep. 25, 2007 with DTX 382-386; DTX 524; DTX
570; DTX 579; DIX 592; DIX 3020; DTX 3050; DTX
3057; DTX 3110; PTX 1993; PTX 2065; PTX 2092;
PTX 2094.
Deposition testimony of Laurent Havard dated Apr.
24-26, 2007, May 12, 2007, Jun. 21. 2007 and Sep. 5,
2007 with DDX 506; DDX 508; DDX 517; DDX 539;
DDX 551-568; DDX 570-573; DDX 575; DDX 603;
PDX 462; PDX 464-483; PDX 767-769; PDX 771-774;
PDX 875-877; PDX 882-888 and PDX 893.
Trial Testimony of Laurent Havard dated Sep. 21,
2007 with DTX 384; DTX 520; DTX 561-62; DTX 570;
DTX 573; DTX 575; DTX 593; DTX 750-52; DTX 3011;
DTX 3017-18; DTX 3050; PTX 575; PTX 2064; PTX
2074; PTX 2077; PTX 2079.
Deposition testimony of Jean Cedric Jollant dated
Apr. 26, 2007 and Jun. 13, 2007 with DDX 384; DDX
517; DDX 520; DDX 551-568; DDX 575-577; PDX 465483.
Trial testimony of Jean Cedric Jollant dated Sep. 20,
2007 with DTX 157; DTX 473; DTX 719; DTX 551-64;
DTX 598; DIX 722; DTX 1903; DTX 3009-10: DTX
3014; DTX 3016-18 DTX 3020; DTX 3023; DTX 3025;

App. 244
PTX 166; PTX 520; PTX 526; PTX 539; FIX 573; PTX
575; PTX 579; PTX 2065.
Deposition testimony of Marc Lorin dated Sep. 5, 2007
with DDX 385; DDX 721-722; DDX 730.
Deposition testimony of Christopher Malo dated May
23, 2007 with DDX 524.
Deposition testimony of Fred Mastro dated May 21,
2007 with DDX 638; PDX 538; PDX 540-543.
Trial testimony of Fred Mastro dated Sep. 25, 2007
with DTX 592. Deposition testimony of William
McHorris dated Apr. 10, 2007 with PDX 416-417.
Deposition testimony of Josephine Sheng dated Jun.
26, 2007 with DDX 520; DDX 522; DDX 536; DDX
575; PDX 493; PDX 683683a; PDX 775.
Deposition testimony of Bruno Spada dated Apr. 30,
2007 and May 2, 2007 with DDX 384-385; DDX 51921; DDX 537-38; DDX 579580; DDX 522; DDX 538;
PDX 493-495; PDX 519-522.
Trial testimony of Bruno Spada dated Sep. 24, 2007
with DTX 306; DTX 384; DTX 518-522; DTX 524; DTX
575; DTX 579-580; DTX 593; DTX 626; DTX 628; DTX
646; DTX 1899 DIX 2086; DTX 3020-3021; DTX 30583059; DIX 3061; DTX 3085; PTX 737; PTX 840; FIX
2083; PTX 2087; FIX 2099; PTX 2101.
Deposition testimony of Marcel Tchitchiama dated
May 10, 2007-May 11, 2007 with DDX 156-157; DDX
168; DDX 384-85; DDX 538; DDX 592-93A; DDX 59598; DDX 602-06; DDX 608-11; DTX 494; PDX 503;
PDX 506; PDX 612.
Deposition testimony of Neil Treloar dated Jun. 19,
2007 with DDX 384; DDX 539-39A; DDX 724; DDX
726; PDX 492; PDX 750-752. Trial testimony of Neil
Treloar dated Sep. 21, 2007 and Sep. 24, 2007 with
DTX 2040-2042.

App. 245
Trial testimony of Gerard Varjacques dated Sep. 28,
2007 with PTX 509-510 and PTX 513.
Deposition testimony of Amy Watson dated Jun. 12,
2007 with DDX 626A; DDX 700 and PDX 636.
Deposition testimony of Barbara Wattiez dated Jun.
16, 2007 with DDX 719-723.
Trial testimony of Barbara Wattiez dated Sep. 28,
2007 with DTX 592-593A; DTX 597-598; DTX 718719; DIX 722.
Deposition testimony of Christopher Buist dated Jun.
22, 2006 with PDX 358-364 and DDX 283-284.
Deposition testimony of Walter Buist dated Jun. 23,
2006 with DDX 315; PDX 310-315; PDX 365 and PDX
368-370.
Digital trading facility weekly operations meeting
outline, DX 444, DTX 444, CM 006661-CM 006661,
May 10, 1999.
Chart re DSM QA Test Plain—project plan in progress, DX 432, DTX 432, Nov. 4, 1998.
User interface design specification for WIT capital
digital stock market, DX 433, DTX 433 CM 008441CM 008478, Jan. 18. 1999.
Updated negotiations design to E. Lang from C.
Mauro for review and approval prior to patent application, DX 434, CM 008410-CM 008414, DTX 434,
Jan. 18, 1999.
Notes re final additions/revisions, DX 435, CM
007949-CM 007955, DTX 435, Jan. 2, 1999.
Position paper: On-line training and customer acquisition; WIT Capital DSM product launch and related
schedule to E. Lang, DX 436, DTX 436, CM 006580CM 006590, Feb. 22, 1999.
Meeting outline, DX 428, CM 00750-CM 007501, DTX
428, Sep. 11, 1998.

App. 246
Presentation re WIT Capital Digital stock martket
Phase 1 usability and customer response testing: Preliminary report of findings, DX 429, CM 007446-CM
007466, May 1, 2006.
WIT Capital limit order book to L. Forrest from C.
Mauro, DX 425, CM 007382- CM 007411, DTX 425,
Apr. 20, 1998.
User Interface Design for display options design, DX
426, CM 000249-CM 000287, DTX 426, Jul. 8, 1998.
Letter from EPO to TT Re: Five Recently Filed European Patent Oppositions, Feb. 21, 2006.
Notice of Opposition to a European Patent EP
1319211 BI, Anitra Medienprojekte GmbH, Jan. 13,
2006.
Notice of Opposition to a European Patent by
Deutsche Borse AG, Jan. 12, 2006.
Notice of Opposition to a European Patent by EccoWare Ltd., Jan. 13, 2006.
Notice of Opposition to a European Patent by Rosenthal Collins Group LLC, Jan. 12. 2006.
Notice of Opposition to a European Patent by Tick-It
GmBh, Jan. 13, 2006.
Declaration of Walter Buist, Exhibit 17, Apr. 26,
2007; with Faxed Signature Page.
Letter from J. Walaski to the EPO Re: Change of Address, Dec. 19, 2006.
A. Klein, WallStreet.com- Fat Cat Investing at the
Click of a Mouse, Chapt. 14 “Finding Gold in Tribeca”,
1998; Exhibit 16.
A. Klein, WallStreet.com- Fat Cat Investing at the
Click of a Mouse, Chapt. 14-16, 18, 23, 1998; Exhibit
16 (Cont’d).
WIT Digital Stock Market, User Interface Rev. 9, Exhibit 15.

App. 247
Opposition Trading Technologies, Inc. Application
No. 01920183.9 EP 1319211B1, Exhibit 4 (Japanese
and English Versions), 9/00/ 1997.
System for Buying and Selling Futures and Options
Transaction Terminal Operational Guidlines, TSE
Business Systems Dept., TSE647-995, eS062297eS062380.
Letter from EPO to TT Re: Further European Patent
Opposition, Feb. 23, 2006.
Letter from EPO to TT Re: Five Recently Filed European Patent Oppositions, Feb. 21, 2006.
Letter from EPO to TT Enclosing European Patent
Oppositions, Jan. 25, 2006.
Opposition TT, EP 1 319 211 Bl, Copy set 1, Annex
One- Grounds of Opposition, Jan. 19, 2006.
Deposition Transcript of Atsushi Kawashima, Nov.
21, 2005, Opposition EP 1 319 211 B1 Exhibit 3.
The Application Program Interface (API) Reference
Manual for LIFFE Connect, 9/00/1998, release 3.1, EP
1 319 211 B1 Exhibit 7A, eS0060146-eS0060237.
Deposition Transcript of Paul MacGregor, Nov. 1,
2005, Opposition EP 1 319 211 BI Exhibit 9A.
APT Trading Procedures (ATOM Version) of LIFFE,
Apr. 3, 2001, Opposition EP 1 319 211 B1 Exhibit 9B.
APTplus Trading Procedures, Dec. 28, 1995, Opposition EP 1 319 211 131 Exhibit 9D.
IRIS Investment Support Systems Window Ad, Opposition EP 1 319 211 B1 Exhibit 10.
Fig.2 Substitute Sheet (Rule 26), Opposition EP 1319
211 B1 Exhibit 13A.
U.S. Appl. No. 60/186,322, Opposition EP 1 319 211
BI Exhibit 13B.

App. 248
LIFFE’s New Electronic Trading Platform for Futures, LIFFE 202-261, Opposition EP 1 319 211 B1
Exhibit 8D.
TIFFE Internet Article, “New On-Screen Trading
Terminals”, E2. System for Buying and Selling Futures and Options Transaction Terminal Operational
Guidlines, TSE Business Systems Dept, TSE00647810, eS0622977-eS062366, D1(2).
ORC Instructions for Use, Version 2.2.8., 1999.
Futures/Options Trading System Guidlines for Operating the Trading Terminals, TSE Business Systems
Dept, TSE00628-643, eS062278-eS062293, D1(3).
Securities Industries News, “TT Upgrades Software
Platform”. Aug. 28, 2000 (D6).
Letter to EPO from Karl Barnfather Enclosing Notice
of Opposition (form 2300.1) and Grounds of Opposition (Annex 1), Jan. 12, 2006.
Dow Jones & Reuters Factiva, “Firms Rush to Make
LIFFE Connect Decision”, Dec. 4, 1998, E6.
Dow Jones & Reuters Factiva, “Date Broadcasting
Partners with Alltech Investment to Provide Customers with Online Trading”, Feb. 25, 1999, E8.
Trading Pad Document (E3).
Japanese Document, TSE00609-627, Dec. 1, 2006
(E5), with Translation.
TT X-Trader Brochure, Dec. 1, 2006 (E7).
Letter to J. Walanski from EPO Re: Payment, Apr. 20,
2005.
Letter to J. Walanski from EPO Re: Decision to Grant
If Patent, Mar. 3, 2005.
German Document from Tick-IT GmbH Filing New
European Opposition, Jan. 14, 2006.
Faxed copy of German Document from Tick-IT GmbH
Filing New European Opposition, Jan. 13, 2006.

App. 249
Annex A to Tr’s Reply Brief.
Annex B to Tr’s Reply Brief.
Memo Re: Futures/Options Trading System and Japanese Patent Application No. 2001-564025 (Japanese), Aug. 18, 2005.
Patsystems News Rel. Nov. 6, 2001.
Court’s filing on no prior sale.
Memorandum Opinion and Order Re: No prior use.
Memorandum Opinion and Order Re: Inequitable
Conduct.
Memorandum Opinion and Order Re: Court Reaffirming Priority.
www.tradingteclmologies.com/productsixtrade_full.html (viewed May 22, 2001).
Kharouf, “A trading room with a view,” Fututes, 27,
11, Nov. 1998. USPTO Presentation, NASDAQ Nov.
8, 2001, enclosed pp. 1-13.
Tokyo Stock Exchange, Publication L “Next-Generation Futures Options Trading System” (participants
seminar materials), Sep. 1997.
English Translation of Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading
System” (participants seminar materials), Sep. 1997.
REFCO English Translation of Tokyo Stock Exchange, Publication 1, “Next-Generation Futures Options Trading System” (participants seminar materials), Sep. 1997.
Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the
Trading Terminals”, Aug. 1998. English Translation
of Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the
Trading Terminals”, Aug. 1998.

App. 250
REFCO English Translation of Tokyo Stock Exchange, Publication 2, “Futures/Options Trading System Guidelines for Operating the Trading Terminals’,
Aug. 1998.
Tokyo Stock Exchange, Document 1, “Downloading
the Terminal Program and Sending the Replacement
for the Guidelines for Operating the Trading Terminals”, Jan. 2000.
English Translation of Tokyo Stock Exchange, Document 1, “Downloading the Terminal Program and
Sending the Replacement for the Guidelines for Operating the Trading Terminals”, Jan. 2000.
Tokyo Stock Exchange, Publication 3, “Tokyo Stock
Exchange 506 Anniversary Book of Materials”,
Jul. 31, 2000.
English Translation of Tokyo Stock Exchange, Publication 3, “Tokyo Stock Exchange 50th Anniversary
Book of Materials”, Jul. 31, 2000.
REFCO English Translation Tokyo Stock Exchange,
Publication 3, “Tokyo Stock Exchange 50th Anniversary Book of Materials”, Jul. 31, 2000.
English Translation of Tokyo Stock Exchange Offer
Form, Apr. 18, 2005.
Information Offer Form, Apr. 18, 2005.
Notification of Information Offer Form, Jun. 3, 2005.
“APT: A trading system for the future,” The London
International Financial Futures Exchange (LIFFE),
1990, 11 pages.
Trading Screen, INTEX of Bermuda, 1984, one page.
B.W. Weber, “Information Technology in the Major
International Financial Markets,” Stem School of
Business, New York University, Apr. 7, 1993, pp. 143.

App. 251
Trading Screen, TIFFE Exchange, circa 1989-1990,
one page.
Trading Screen, MEFF Exchange, 1990, one page.
C. Cavaletti, “Order Routing,”, Futures Magazine,
Feb. 1997, pp. 68-70.
“Aurora: The most technologically advanced trading
system available today,” Chicago Board of Trade,
1989, 11 pages.
“One Click Trading Options,” Trading Technologies.
Inc., 1998, one page.
Trading Screen, SWX Exchange, 1990, two pages.
“Expanding futures and options trading around the
world, around the clock,” GLOBEX, 1989, 48 pages.
S. Hansell, “The computer that ate Chicago,” Institutional Investor, Feb. 1989, 5 pages.
“Sydney Futures Exchange Announces Plans to Join
GLOBEX” GLOBEX Report: An Update on the CME
global electronic exchange, vol. II, No. 2, Feb. 10,
1989, 4 pages.
New York Mercantile Exchange (NYMEX) Access
Documents, Feb. 28, 1992, 413 pages.
The Computer Assisted Trading System (CATS)
Traders’ Manual, Toronto Stock Exchange, Sep. 30,
1977, 142 pages.
Market Watch trading screen, date not available, 1
page.
Grummer et al., ‘Preliminary Feasibility Study,” Bermudex Ltd., Nov. 1980, 100 pages.
Peake et al., Appendix C of Preliminary Feasibility
Study, “The ABCs of trading on a national market
system,” Bermudex Ltd., Sep. 1997, 16 pages.
J.W. Peake, Appendix E of Preliminary Feasibility
Study, “The last fifteen meters,”Bermudex Ltd., Jun.
15, 1997, 18 pages.

App. 252
Declaration of Brendan Bradley in Case No. 04 C
5312, Nov. 18, 2004, 27 pages.
Memorandum Opinion and Order of Judge James B.
Moran in Case No. 04 C 5312, Feb. 9, 2005, 22 pages.

App. 253

App. 254

App. 255

App. 256

App. 257

App. 258

App. 259
CLICK BASED TRADING WITH INTUITIVE
GRID DISPLAY OF MARKET DEPTH
PRIORITY
The present application is a continuation of U.S.
patent application Ser. No. 11/415,163, filed May 2,
2006, now issued as U.S. Pat. No. 7,813,996, which is
a continuation of U.S. patent application Ser. No.
10/237,131, filed Sep. 9, 2002, now abandoned, which
is a continuation of U.S. patent application Ser. No.
09/590,692, filed Jun. 9, 2000, now issued as U.S. Pat.
No. 6,772,132, which claims priority to U.S. Provisional Patent Application Ser. No. 60/186,322, filed
Mar. 2, 2000, the contents of which are incorporated
herein by reference.
FIELD OF INVENTION
The present invention is directed to the electronic
trading of commodities. Specifically, the invention
provides a trader with a versatile and efficient tool for
executing trades. It facilitates the display of and the
rapid placement of trade orders within the market
trading depth of a commodity, where a commodity includes anything that can be traded with quantities
and/or prices.
BACKGROUND OF THE INVENTION
At least 60 exchanges throughout the world utilize
electronic trading in varying degrees to trade stocks,
bonds, futures, options and other products. These
electronic exchanges are based on three components:
mainframe computers (host), communications servers, and the exchange participants’ computers (client). The host forms the electronic heart of the fully
computerized electronic trading system. The system’s

App. 260
operations cover order-matching, maintaining order
books and positions, price information, and managing
and updating the database for the online trading day
as well as nightly batch runs. The host is also
equipped with external interfaces that maintain uninterrupted online contact to quote vendors and other
price information systems.
Traders can link to the host through three types of
structures: high speed data lines, highspeed communications servers and the Internet. High speed data
lines establish direct connections between the client
and the host. Another connection can be established
by configuring high speed networks or communications servers at strategic access points worldwide in
locations where traders physically are located. Data
is transmitted in both directions between traders and
exchanges via dedicated high speed communication
lines. Most exchange participants install two lines between the exchange and the client site or between the
communication server and the client site as a safety
measure against potential failures. An exchange’s internal computer system is also often installed with
backups as a redundant measure to secure system
availability. The third connection utilizes the Internet. Here, the exchange and the traders communicate
back and forth through high speed data lines, which
are connected to the Internet. This allows traders to
be located anywhere they can establish a connection
to the Internet.
Irrespective of the way in which a connection is established, the exchange participants’ computers allow
traders to participate in the market. They use software that creates specialized interactive trading

App. 261
screens on the traders’ desktops. The trading screens
enable traders to enter and execute orders, obtain
market quotes, and monitor positions. The range and
quality of features available to traders on their
screens varies according to the specific software application being run. The installation of open interfaces in the development of an exchange’s electronic
strategy means users can choose, depending on their
trading style and internal requirements, the means
by which they will access the exchange.
The world’s stock, bond, futures and options exchanges have volatile products with prices that move
rapidly. To profit in these markets, traders must be
able to react quickly. A skilled trader with the quickest software, the fastest communications, and the
most sophisticated analytics can significantly improve his own or his firm’s bottom line. The slightest
speed advantage can generate significant returns in a
fast moving market. In today’s securities markets, a
trader lacking a technologically advanced interface is
at a severe competitive disadvantage.
Irrespective of what interface a trader uses to enter orders in the market, each market supplies and
requires the same information to and from every
trader. The bids and asks in the market make up the
market data and everyone logged on to trade can receive this information if the exchange provides it.
Similarly, every exchange requires that certain information be included in each order. For example, traders must supply information like the name of the commodity, quantity, restrictions, price and multiple
other variables. Without all of this information, the

App. 262
market will not accept the order. This input and output of information is the same for every trader.
With these variables being constant, a competitive
speed advantage must come from other aspects of the
trading cycle. When analyzing the time it takes to
place a trade order for a given commodity, various
steps contribute in different amounts to the total time
required. Approximately 8% of the total time it takes
to enter an order elapses between the moment the
host generates the price for the commodity and the
moment the client receives the price. The time it takes
for the client application to display the price to the
trader amounts to approximately 4%. The time it
takes for a trade order to be transmitted to the host
amounts to approximately 8%. The remainder of the
total time it takes to place an order, approximately
80%, is attributable to the time required for the trader
to read the prices displayed and to enter a trade order.
The present invention provides a significant advantage during the slowest portion of the trading cycle—while the trader manually enters his order.
Traders recognize that the value of time savings in
this portion may amount to millions of dollars annually.
In existing systems, multiple elements of an order
must be entered prior to an order being sent to market, which is time consuming for the trader. Such elements include the commodity symbol, the desired
price, the quantity and whether a buy or a sell order
is desired. The more time a trader takes entering an
order, the more likely the price on which he wanted to
bid or offer will change or not be available in the market. The market is fluid as many traders are sending

App. 263
orders to the market simultaneously. It fact, successful markets strive to have such a high volume of trading that any trader who wishes to enter an order will
find a match and have the order filled quickly, if not
immediately. In such liquid markets, the prices of the
commodities fluctuate rapidly. On a trading screen,
this results in rapid changes in the price and quantity
fields within the market grid. If a trader intends to
enter an order at a particular price, but misses the
price because the market prices moved before he could
enter the order, he may lose hundreds, thousands,
even millions of dollars. The faster a trader can trade,
the less likely it will be that he will miss his price and
the more likely he will make money.
SUMMARY OF THE INVENTION
The inventors have developed the present invention which overcomes the drawbacks of the existing
trading systems and dramatically reduces the time it
takes for a trader to place a trade when electronically
trading on an exchange. This, in turn, increases the
likelihood that the trader will have orders filled at desirable prices and quantities.
The “Mercury” display and trading method of the
present invention ensure fast and accurate execution
of trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuates. This allows the trader to trade
quickly and efficiently.
Specifically, the present invention is directed to a
graphical user interface for displaying the market
depth of a commodity traded in a market, including a

App. 264
dynamic display for a plurality of bids and for a plurality of asks in the market for the commodity and a
static display of prices corresponding to the plurality
of bids and asks. In this embodiment the pluralities of
bids and asks are dynamically displayed in alignment
with the prices corresponding thereto. Also described
herein is a method and system for placing trade orders using such displays.
These embodiments, and others described in
greater detail herein, provide the trader with improved efficiency and versatility in placing, and thus
executing, trade orders for commodities in an electronic exchange. Other features and advantages of
the present invention will become apparent to those
skilled in the art from the following detailed description. It should be understood, however, that the detailed description and specific examples, while indicating preferred embodiments of the present invention, are given by way of illustration and not limitation. Many changes and modifications within the
scope of the present invention may be made with-out
departing from the spirit thereof, and the invention
includes all such modifications.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 illustrates the network connections between multiple exchanges and client sites;
FIG. 2 illustrates screen display showing the inside market and the market depth of a given commodity being traded:
FIG. 3 illustrates the Mercury display of the present invention;

App. 265
FIG. 4 illustrates the Mercury display at a later
time showing the movement of values when compared
to FIG. 3;
FIG. 5 illustrates a Mercury display with parameters set in order to exemplify the Mercury trading
method; and
FIG. 6 is a flowchart illustrating the process for
Mercury display and trading.
DETAILED DESCRIPTION OF THE PREFERRED
EMBODIMENTS
As described with reference to the accompanying
figures, the present invention provides a display and
trading method to ensure fast and accurate execution
of trades by displaying market depth on a vertical or
horizontal plane, which fluctuates logically up or
down, left or right across the plane as the market
prices fluctuates. This allows the trader to place trade
orders quickly and efficiently. A commodity’s market
depth is the current bid and ask prices and quantities
in the market. The display and trading method of the
invention increase the likelihood that the trader will
be able to execute orders at desirable prices and quantities.
In the preferred embodiment, the present invention is implemented on a computer or electronic terminal. The computer is able to communicate either directly or indirectly (using intermediate devices) with
the exchange to receive and transmit market, commodity, and trading order information. It is able to interact with the trader and to generate contents and
characteristics of a trade order to be sent to the exchange. It is envisioned that the system of the present

App. 266
invention can be implemented on any existing or future terminal or device with the processing capability
to perform the functions described herein. The scope
of the present invention is not limited by the type of
terminal or device used. Further, the specification refers to a single click o f a mouse as a means for user
input and interaction with the terminal display as an
example of a single action of the user. While this describes a preferred mode of interaction, the scope of
the present invention is not limited to the use of a
mouse as the input device or to the click of a mouse
button as the user’s single action. Rather, any action
by a user within a short period of time, whether comprising one or more clicks of a mouse button or other
input device, is considered a single action of the user
for the purposes of the present invention.
The system can be configured to allow for trading
in a single or in multiple exchanges simultaneously.
Connection of the system of the present invention
with multiple exchanges is illustrated in FIG. 1. This
figure shows multiple host exchanges 101-103 connected through routers 104-106 to gateways 107-109.
Multiple client terminals 110-116 for use as trading
stations can then trade in the multiple exchanges
through their connection to the gateways 107-109.
When the system is configured to receive data from
multiple exchanges, then the preferred implementation is to translate the data from various exchanges
into a simple format. This “translation” function is described below with reference to FIG. 1. An applications program interface (“TT API” as depicted in the
figure) translates the incoming data formats from the
different exchanges to a simple preferred data for-

App. 267
mat. This translation function may be disposed anywhere in the network, for example, at the gateway
server, at the individual workstations or at both. In
addition, the storage at gateway servers and at the
client workstations, and/or other external storage
cache historical data such as order books which list
the client’s active orders in the market; that is, those
orders that have neither been filled nor cancelled. Information from different exchanges can be displayed
at one or in multiple windows at the client workstation. Accordingly, while reference is made through
the remainder of the specification to a single exchange
to which a trading terminal is connected, the scope of
the invention includes the ability to trade, in accordance with the trading methods described herein, in
multiple exchanges using a single trading terminal.
The preferred embodiments of the present invention include the display of “Market Depth” and allow
traders to view the market depth of a commodity and
to execute trades within the market depth with a single click of a computer mouse button. Market Depth
represents the order book with the current bid and
ask prices and quantities in the market. In other
words, Market Depth is each bid and ask that was entered into the market, subject to the limits noted below, in addition to the inside market. For a commodity
being traded, the “inside market” is the highest bid
price and the lowest ask price.
The exchange sends the price, order and fill information to each trader on the exchange. The present
invention processes this information and maps it
through simple algorithms and mapping tables to po-

App. 268
sitions in a theoretical grid program or any other comparable mapping technique for mapping data to a
screen. The physical mapping of such information to
a screen grid can be done by any technique known to
those skilled in the art. The present invention is not
limited by the method used to map the data to the
screen display.
How far into the market depth the present invention can display depends on how much of the market
depth the exchange provides. Some exchanges supply
an infinite market depth, while others provide no
market depth or only a few orders away from the inside market. The user of the present invention can
also chose how far into the market depth to display on
his screen.
FIG. 2 illustrates a screen display of an invention
described in a commonly owned co-pending application entitled “Click Based Trading with Market Depth
Display” and having U.S. patent application Ser. No.
09/589,751, which was filed Jun. 9, 2000 and is now
issued as U.S. Pat. No. 6,938,011, and the contents of
which are incorporated herein by reference. This display shows the inside market and the market depth
of a given commodity being traded. Row 1 represents
the “inside market” for the commodity being traded
which is the best (highest) bid price and quantity and
the best (lowest) ask price and quantity. Rows 2-5 represent the “market depth” for the commodity being
traded. In the preferred embodiment of the present
invention, the display of market depth (rows 2-5) lists:
the available next-best bids, in column 203, and asks,
in column 204. The working bid and ask quantity for
each price level is also displayed in columns 202 and

App. 269
205 respectively (inside market—row 1). Prices and
quantities for the inside market and market depth update dynamically on a real time : basis as such information is relayed from the market.
In the screen display shown in FIG. 2, the commodity (contract) being traded is represented in row
1 by the character string “CDH0”. The Depth column
208 will inform the trader of a status by displaying
different colors. Yellow indicates that the program application is waiting for data. Red indicates that the
Market Depth has failed to receive the data from the
server and has “timed out.” Green indicates that the
data has just been updated. The other column headings in this and all of the other figures, are defined as
follows. BidQty . (Bid Quantity): the quantity for each
working bid, BidPrc (Bid Price): the price for each
working bid, AskPrc (Ask Price): the price for each
working ask, AskQty (Ask Quantity): the quantity for
each working ask, LastPrc (Last Price): the price for
the last bid and ask that were matched in the market
and LastQty (Last Quantity): the quantity traded at
the last price. Total represents the total quantity
traded of the given commodity.
The configuration of the screen display itself informs the user in a more convenient and efficient
manner than existing systems. Traders gain a significant advantage by seeing the market depth because
they can see trends in the orders in the market. The
market depth display shows the trader the interest
the market has in a given commodity at different
price levels. If a large amount of bids or asks are in
the market near the : trader’s position, he may feel he
should sell or buy before the inside market reaches

App. 270
the morass of orders. A lack of orders above or below
the inside market might prompt a trader to enter orders near the inside market. Without seeing the market depth, no such strategies could be utilized. Having
the : dynamic market depth, including the bid and ask
quantities and prices of a traded commodity aligned
with and displayed below the current inside market
of the commodity conveys the information to the user
in a more intuitive and easily understandable manner. Trends in the trading of the commodity and other
relevant characteristics are more easily identifiable
by the user through the use of the present invention.
Various abbreviations are used in the screen displays, and specifically, in the column headings of the
screen displays reproduced herein. Some abbreviations have been discussed above. A list of common abbreviations and their meanings is provided in Table
1.

COLUMN
Month
Bid Mbro)
WrkBuYs(2)
BidQty
Thrshaid(6)
BidPrc
Bid Qty Accum
BidPrc Avg
AskPrc Avg
AskQty Accum
AskPrc
ThrshAsk(5)

TABLE I
Abbreviations
DESCRIPTION
Expiration Month/Year
Bid Member ID
Working Buys for entire Group ID
Bid Quantity
Threshold Bid Price
Bid Price
Accumulated Bid Quantity
Bid Price Average
Ask Price Average
Accumulated Ask Quantity
Ask Price
Threshold Ask Price

App. 271
AskQty
WrkSells(2)
Ask Mbr(1)
NetPos
FFNetPos
LastPrc
LastQty
Total
High
Low
Open
Close
Chng
TheoPrc
TheoBid
TheoAsk
QAct
BQQ
BQP
Mid BQQ
Mkt BQP
Quote
Mlt AQQ
Mkt AQP
AQP
AQQ
Imp BidQty(3)
Imp BidPrc(5)
AskQty(3)
Imp AskPrc(5)
Gamma(3)

Ask Quantity
Working Sells for entire Group ID
Ask Member ID
Net Position
Fast Fill Net Position
Last Price
Last Quantity
Total Traded Quantity
High Price
Low Price
Opening Price
Closing Price
Last Price-Last Close
Theoretical Price
Theoretical Bid Price
Theoretical Ask Price
Quote Action (Sends individual
quotes)
Test Bid Quote Quantity
Test Bid Quote Price
Market Bid Quote Quantity
Market Bid Quote Price
Checkbox
activates/deactivates
contract for quoting
Market Ask Quote Quantity
Market Ask Quote Price
Ask Quote Price
Ask Quote Quantity
Implied Bid Quantity
Implied Bid Price
Implied Ask Quantity
Implied Ask Price
Change in Delta given 1 pt change
in underlying

App. 272
Delta(3)
Vola(3)
Vega(3)
Rho(3)
Theta(3)
Click Trd
S (Status)
Expiry

Change in price given 1 pt change
in underlying
Percent volatility
Price change given 1% change in
Vola
Price change given 1% change in interest rate
Price change for every day that
elapses
Activate/deactivate clicks raring by
contract
Auction, Closed, FastMkt, Not
Tradable, Pre-trading, Tradable, S
post-trading
Expiration Month/Year

As described herein, the display and trading
method of the present invention provide the user with
certain advantages over systems in which a display of
market depth, as shown in FIG. 2, is used. The Mercury display and trading method of the present invention ensure fast and accurate execution of trades by
displaying market depth on a vertical or horizontal
plane, which fluctuates logically up or down, left or
right across the plane as the market prices fluctuates.
This allows the trader to trade quickly and efficiently.
An example of such a Mercury display is illustrated
in the screen display of FIG. 3.
The display of market depth and the manner in
which traders trade within the market depth can be
effected in different manners, which many traders
will find materially better, faster and more accurate.
In addition, some traders may find the display of market depth to be difficult to follow. In the display shown

App. 273
in FIG. 2, the market depth is displayed vertically so
that both Bid and Ask prices descend the grid. The
Bid prices descend the market grid as the prices decrease. Ask prices also descend the market grid as
these prices actually increase. This combination may
be considered counterintuitive and difficult to follow
by some traders.
The Mercury display overcomes this problem in an
innovative and logical manner. Mercury also provides
an order entry system, market grid, fill window and
summary of market orders in one simple window.
Such a condensed display materially simplifies the
trading system by entering and tracking trades in an
extremely efficient manner. Mercury displays market
depth in a logical, vertical fashion or horizontally or
at some other convenient angle or configuration. A
vertical field is shown in the figures and described for
convenience, but the field could be horizontal or at an
angle. In turn, Mercury further increases the speed of
trading and the likelihood of entering orders at desired prices with desired quantities. In the preferred
embodiment of the invention, the Mercury display is
a static vertical column of prices with the bid and ask
quantities displayed in vertical columns to the side of
the price column and aligned with the corresponding
bid and ask prices. An example of this display is
shown in FIG. 3.
Bid quantities are in the column 1003 labeled
BidQ and ask quantities are in column 1004 labeled
AskQ. The representative ticks from prices for the
given commodity are shown in column 1005. The column does not list the whole prices (e.g. 95.89), but rather, just the last two digits (e.g. 89). In the example

App. 274
shown, the inside market, cells 1020, is 18 (best bid
quantity) at 89 (best bid price) and 20 (best ask quantity) at 90 (best ask price). In the preferred embodiment of the invention, these three columns are shown
in different colors so that the trader can quickly distinguish between them.
The values in the price column are static; that is,
they do not normally change positions unless a re-centering command is received (discussed in detail later).
The values in the Bid and Ask columns however, are
dynamic; that is, they move up and down (in the vertical example) to reflect the market depth for the
given commodity. The LTQ column 1006 shows the
last traded quantity of the commodity. The relative
position of the quantity value with respect to the Price
values reflects the price at which that quantity was
traded. Column 1001 labeled E/W (entered/working)
displays the current status of the trader’s orders. The
status of each order is displayed in the price row
where it was entered. For example, in cells 1007, the
number next to S indicates the number of the trader’s
ordered lots that have been sold at the price in the
specific row. The number next to W indicates the
number of the trader’s ordered lots that are in the
market, but have not been filled—i.e. the system is
working on filling the order. Blanks in this column indicate that orders are entered or working at that
price. In cells 1008, the number next to B indicates
the number of the trader’s ordered lots that have been
bought at the price in the specific row. The number
next to W indicates the number of the trader’s ordered
lots that are in the market, but have not been filled—
i.e. the system is working on filling the order.

App. 275
Various parameters are set and information is provided in column 1002. For example, “10:48:44” in cell
1009 shows the actual time of day. The L and R fields
in cell 1010 indicate a quantity value, which may be
added to the order quantity entered. This process is
explained below with respect to trading under Mercury. Below the L and R fields, in cell 1011, a number
appears which represents the current market volume.
This is the number of lots that have been traded for
the chosen contract. Cell 1012, “X 10”, displays the
Net Quantity, the current position of the trader on the
chosen contract. The number “10” represents the
trader’s buys minus sells. Cell 1013 is the “Current
Quantity”; this field represents the quantity for the
next order that the trader will send to market. This
can be adjusted with right and left clicks (up and
down) or by clicking the buttons which appear below
the Current Quantity in cells 1014. These buttons increase the current quantity by the indicated amount;
for example, “10” will increase it by 10; “1H” will increase it by 100; “1K” will increase it by 1000. Cell
1015 is the Clear button; clicking this button will
clear the Current Quantity field. Cell 1016 is the
Quantity Description; this is a pull down menu allowing the trader to chose from three Quantity Descriptions. The pull down menu is displayed when the arrow button in the window is clicked. The window includes NetPos, Offset and a field allowing the trader
to enter numbers. Placing a number in this field will
set a default buy or sell quantity. Choosing “Offset” in
this field will enable the L/R buttons of cell 1010.
Choosing “NetPos” in this field will set the current
Net Quantity (trader’s net position) as the trader’s
quantity for his next trade. Cell 1017 are +/- buttons;

App. 276
these buttons will alter the size of the screen—either
larger (+) or smaller (-). Cell 1018 is used to invoke
Net 0; clicking this button will reset the Net Quantity
(cell 1011) to zero. Cell 1019 is used to invoke Net
Real; clicking this button will reset the Net Quantity
(cell 1011) to its actual position.
The inside market and market depth ascend and
descend as prices in the market increase and decrease. For example, FIG. 4 shows a screen displaying
the same market as that of FIG. 3 but at a later interval where the inside market, cells 1101, has risen
three ticks. Here, the inside market for the commodity is 43 (best bid quantity) at 92 (best bid price) and
63 (best ask quantity) at 93 (best ask price). In comparing FIGS. 3 and 4, it can be seen that the price
column remained static, but the corresponding bids
and asks rose up the price column. Market Depth similarly ascends and descends the price column, leaving
a vertical history of the market.
As the market ascends or descends the price column, the inside market might go above or below the
price column displayed on a trader’s screen. Usually
a trader will want to be able to see the inside market
to assess future trades. The system of the present invention addresses this problem with a one click centering feature. With a single click at any point within
the gray area, 1021, below the “Net Real” button, the
system will re-center the inside market on the
trader’s screen. Also, when using a three-button
mouse, a click of the middle mouse button, irrespective of the location of the mouse pointer, will re-center
the inside market on the trader’s screen.

App. 277
The same information and features can be displayed and enabled in a horizontal fashion. Just as
the market ascends and descends the vertical Mercury display shown in FIGS. 3 and 4, the market will
move left and right in the horizontal Mercury display.
The same data and the same information gleaned
from the dynamical display of the data is provided. It
is envisioned that other orientations can be used to
dynamically display the data and such orientations
are intended to come within the scope of the present
invention.
Next, trading commodities, and specifically, the
placement of trade orders using the Mercury display
is described. Using the Mercury display and trading
method, a trader would first designate the desired
commodity and, if applicable, the default quantities.
Then he can trade with single clicks of the right or left
mouse button. The following equations are used by
the system to generate trade orders and to determine
the quantity and price to be associated with the trade
order. The following abbreviations are used in these
formulas: P=Price value of row clicked, R=Value in R
field, L=Value in L field, Qurrent Quantity, Q,=Total
of all quantities in AskQ column at an equal or better
price than P, Qb=Total of all quantities in BidQ column at an equal or better price than P. Nurrent Net
Position, Bo=Buy order sent to market and So=Sell
order sent to market.
Any order Entered Using Right Mouse Button
‫ ݋ܤ‬ൌ ሺܳ௔ ൅ ܴሻܲ
If BidQ field clicked.

(Eq. 1)

App. 278
ܵ‫ ݋‬ൌ ሺܳ௕ ൅ ܴሻܲ

(Eq. 2)

If AskQ field clicked.
Orders Entered Using the Left Mouse Button
If “Offset” mode chosen in Quantity Description
field then:
‫ ݋ܤ‬ൌ ሺܳ௔ ൅ ‫ܮ‬ሻܲ

(Eq. 3)

If BidQ field clicked.
ܵ‫ ݋‬ൌ ሺܳ௕ ൅ ‫ܮ‬ሻܲ

(Eq. 4)

If AskQ field clicked.
If “number” mode chosen in Quantity Description
field then:
‫ ݋ܤ‬ൌ ܳܲ

(Eq. 5)

ܵ‫ ݋‬ൌ ܳܲ

(Eq. 6)

If “NetPos” mode chosen in Quantity Description
field then:
‫ ݋ܤ‬ൌ ܰܲ

(Eq. 7)

ܵ‫ ݋‬ൌ ܰܲ

(Eq. 8)

App. 279
Orders can also be sent to market for quantities
that vary according to the quantities available in the
market; quantities preset by the trader; and which
mouse button the trader clicks. Using this feature, a
trader can buy or sell all of the bids or asks in the
market at or better than a chosen price with one click.
The trader could also add or subtract a preset quantity from the quantities outstanding in the market. If
the trader clicks in a trading cell—i.e. in the BidQ or
AskQ column, he will enter an order in the market.
The parameters of the order depend on which mouse
button he clicks and what preset values he set.
Using the screen display and values from FIG. 5,
the placement of trade orders using the Mercury display and trading method is now described using examples. A left click on the 18 in the BidQ column 1201
will send an order to market to sell 17 lots (quantity
# chosen on the Quantity Description pull down menu
cell 1204) of the commodity at a price of 89 (the corresponding price in the Prc column 1203). Similarly, a
left click on the 20 in the AskQ column 1202 will send
an order to market to buy 17 lots at a price of 90.
Using the right mouse button, an order would be
sent to market at the price that corresponds to the
row clicked for the total quantity of orders in the market that equal or better the price in that row plus the
quantity in the R field 1205. Thus, a right click in the
AskQ column 1202 in the 87 price row will send a sell
order to market at a price of 87 and a quantity of 150.
150 is the sum of all the quantities 30, 97, 18 and 5.30,
97 and 18 are all of the quantities in the market that
would meet or better the trader’s sell order price of 87.
These quantities are displayed in the BidQ column

App. 280
1201 because this column represents the orders outstanding in the market to purchase the commodity at
each corresponding price. The quantity 5 is the quantity pre-set in the R field 1205.
Similarly, a right click in the BidQ column 1201 at
the same price level of 87 would send a buy limit order
to market for a quantity of 5 at a price of 87. The
quantity is determined in the same manner as above.
In this example, though, there are no orders in the
market that equal or better the chosen price there are
no quantities in the AskQ column 1202 that equal or
better this price. Therefore, the sum of the equal or
better quantities is zero (“0”). The total order entered
by the trader will be the value in the R field, which is
5.
An order entered with the left mouse button and
the “Off-set” option chosen in the quantity description
field 1204 will be calculated in the same way as above,
but the quantity in the L field 1206 will be added instead of the quantity in the R field 1205. Thus, a left
click in the BidQ column 1201 in the 92 price row will
send a buy order to market at a price of 92 and a quantity of 96.96 is the sum of all the quantities 45, 28, 20
and 3.45, 28 and 20 are all quantities in the market
that would meet or better the trader’s buy order price
of 92. These quantities are displayed in the AskQ column 1202 because this column represents the orders
outstanding in the market to sell the commodity at
each corresponding price. The quantity 3 is the quantity pre-set in the L field 1206.
The values in the L or R fields may be negative
numbers. This would effectively decrease the total

App. 281
quantity sent to market. In other words, in the example of a right click in the AskQ column 1202 in the 87
price row, if the R field was -5, the total quantity sent
to market would be 140 (30+97+18+(-5)).
If a trader chose the “NetPos” option in the quantity description field 1204, a right click would still
work as explained above. A left click would enter an
order with a price corresponding to the price row
clicked and a quantity equal to the current Net position of the trader. The Net position of the trader is the
trader’s current position on the chosen contract. In
other words, if the trader has bought 10 more contracts than he has sold, this value would be 10. NetPos would not affect the quantity of an order sent with
a right click.
If the trader chose a number value in the quantity
description, a left click would send an order to market
for the current quantity chosen by the trader. The default value of the current quantity will be the number
entered in the quantity description field, but it could
be changed by adjusting the figure in the current
quantity field 1204.
This embodiment of the invention also allows a
trader to delete all of his working trades with a single
click of either the right or left mouse button anywhere
in the last traded quantity (LTQ) column 1207. This
allows a trader to exit the market immediately. Traders will use this feature when they are losing money
and want to stop the losses from pilling up. Traders
may also use this feature to quickly exit the market
upon making a desired profit. The invention also allows a trader to delete all of his orders from the market at a particular price level. A click with either

App. 282
mouse button in the Entered/Working (E/W) column
1208 will delete all working orders in the cell that was
clicked. Thus, if a trader believes that previously sent
orders at a particular price that have not been filled
would be poor trades, he can delete these orders with
a single click.
The process for placing trade orders using the
Mercury display and trading method of the present
invention as described above is shown in the
flowchart of FIG. 6. First, in step 1301, the trader has
the Mercury display on the trading terminal screen
showing the market for a given commodity. In step
1302, the parameters are set in the appropriate fields,
such as the L and R fields and the Current Quantity,
NetPos or Offset fields from the pull down menu. In
step 1303, the mouse pointer is positioned and clicked
over a cell in the Mercury display by the trader. In
step 1304, the system determines whether the cell
clicked is a tradeable cell (i.e. in the AskQ column or
BidQ column). If not, then in step 1305, no trade order
is created or sent and, rather, other quantities are adjusted or functions are performed based upon the cell
selected. Otherwise, in step 1306, the system determines whether it was the left or the right button of
the mouse that was clicked. If it was the right, then
in step 1307, the system will use the quantity in the
R field when it determines the total quantity of the
order in step 1310. If the left button was clicked, then
in step 1308, the system determines which quantity
description was chosen: Offset, NetPos or an actual
number.

App. 283
If Offset was chosen, then the system, in step
1309, will use the quantity in the L field when it determines the total quantity of the order in step 1310.
If NetPos was chosen, then the system, in step 1312,
will determine that the total quantity for the trade order will be current NetPos value, i.e. the net position
of the trader in the given commodity. If an actual
number was used as the quantity description, then, in
step 1311, the system will determine that the total
quantity for the trade order will be the current quantity entered. In step 1310, the system will determine
that the total quantity for the trade order will be the
value of the R field (if step 1307 was taken) or the
value of the L field (if step 1309 was taken) plus all
quantities in the market for prices better than or
equal to the price in the row clicked. This will add up
the quantities for each order in the market that will
fill the order being entered by the trader (plus the L
or R value).
After either steps 1310, 1311 or 1312, the system,
in step 1313, determines which column was clicked,
BidQ or AskQ. If AskQ was clicked, then, in step
1314, the system sends a sell limit order to the market at the price corresponding to the row for the total
quantity as already determined. If BidQ was clicked,
then, in step 1315, the system sends a buy limit order
to the market at the price corresponding to the row
for the total quantity as already determined.
It should be understood that the above description
of the invention and specific examples, while indicating preferred embodiments of the present invention,
are given by way of illustration and not limitation.
Many changes and modifications within the scope of

App. 284
the present invention may be made without departing
from the spirit thereof, and the present invention includes all such changes and modifications.
We claim:
1. A method for facilitating trade order entry, the
method comprising:
receiving, by a computing device, market
data for a commodity, the market data
comprising a current highest bid price
and a current lowest ask price available
for the commodity;
identifying, by the computing device, a plurality of sequential price levels for the
commodity based on the market data,
where the plurality of sequential price
levels includes the current highest bid
price and the current lowest ask price;
displaying, by the computing device, a plurality of graphical locations aligned
along an axis, where each graphical location is configured to be selected by a single action of a user input device to send a
trade order to the electronic exchange,
where a price of the trade order is based
on the selected graphical location;
mapping, by the computing device, the plurality of sequential price levels to the
plurality of graphical locations, where
each graphical location corresponds to
one of the plurality of sequential price
levels, where each price level corresponds to at least one of the plurality of
graphical locations, and where mapping
of the plurality of sequential price levels

App. 285
does not change at a time when at least
one of the current highest bid price and
the current lowest ask price changes;
and
setting a price and sending the trade order
to the electronic exchange in response to
receiving by the computing device commands based on user actions consisting
of:
(1) placing a cursor associated with the
user input device over a desired graphical location of the plurality of graphical
locations and (2) selecting the desired
graphical location through a single action of the user input device.
2. The method of claim 1, where the plurality of
sequential price levels no longer includes at least one
of the current highest bid price and the current lowest
ask price.
3. The method of claim 2, further comprising:
changing the mapping of the plurality of sequential price levels to the plurality of
graphical locations so that one of the plurality of graphical locations corresponds
to the current highest bid price and one
of the plurality of graphical locations corresponds to the current lowest ask price.
4. The method of claim 1, where the plurality of
sequential price levels no longer includes the current
highest bid price and the current lowest ask price.
5. The method of claim 4, further comprising:
changing the mapping of the plurality of sequential price levels to the plurality of
graphical locations so that the at least

App. 286
one of the plurality of graphical locations
corresponds to the current highest bid
price or the current lowest ask price.
6. The method of claim 1, further comprising:
changing the mapping of the plurality of sequential price levels to the plurality of
graphical locations in response to receiving by the computing device a manual recentering command.
7. The method of claim 1, further comprising:
never changing the mapping of the plurality
of sequential price levels to the plurality
of graphical locations unless in response
to receiving by the computing device a
manual re-centering command.
8. The method of claim 1, further comprising:
changing the mapping of the plurality of sequential price levels to the plurality of
graphical locations in response to receiving by the computing device a re-centering command.
9. The method of claim 8, where the re-centering
command consists of a manual re-centering command.
10. The method of claim 1, further comprising:
maintaining the mapping of the plurality of
sequential price levels to the plurality of
graphical locations for a period of time.
11. The method of claim 1, further comprising:
maintaining the mapping of the plurality of
sequential price levels to the plurality of
graphical locations unless in response to
receiving by the computing device a manual re-centering command.

App. 287
12. The method of claim 1, further comprising:
orienting the axis vertically so that the plurality of graphical locations is displayed
vertically.
13. The method of claim 1, further comprising:
displaying, by the computing device, a first
indicator in one of the plurality of graphical locations, the first indicator representing quantity associated with at least
one order to buy the commodity at the
current highest bid price; and
displaying, by the computing device, a second indicator in one of the plurality of
graphical locations, the second indicator
representing quantity associated with at
least one order to sell the commodity at
the current lowest ask price.
14. The method of claim 13, further comprising:
moving the first indicator relative to the plurality of sequential price levels to a different graphical location of the plurality
of graphical locations, the different
graphical location corresponding to a
new highest bid price.
15. The method of claim 13, further comprising:
moving the second indicator relative to the
plurality of sequential price levels to a
different graphical location of the plurality of graphical locations, the different
graphical location corresponding to a
new lowest ask price.
16. The method of claim 1, further comprising:

App. 288
displaying, by the computing device, an indicator in one of the plurality of graphical locations, the indicator representing
quantity associated with at least one order to buy the commodity at the current
highest bid price.
17. The method of claim 1, further comprising:
displaying, by the computing device, an indicator in one of the plurality of graphical locations, the indicator representing
quantity associated with at least one order to sell the commodity at the current
lowest ask price.
18. The method of claim 1, further comprising:
displaying a first number of the plurality of
graphical locations in a bid display region, wherein the trade order is a buy
trade order when the desired graphical
location is selected in the bid display region; and
displaying a second number of the plurality
of graphical locations in an ask display
region, wherein the trade order is a sell
trade order when the desired graphical
location is selected in the ask display region.
19. The method of claim 1, where the single action
consists of a single click of the user input device.
20. The method of claim 1, where the single action
consists of a double click of the user input device.
21. The method of claim 1, further comprising:
sending a trade order to buy or sell the commodity to the electronic exchange; and

App. 289
displaying a working order indicator, where
the working order indicator represents
the trade order to buy or sell the commodity pending at the electronic exchange.
22. The method of claim 21, further comprising:
displaying and mapping the plurality of sequential price levels to a plurality of
graphical locations in a working order
display region;
displaying the working order indicator in
one of the plurality of graphical locations
in the working order display region that
corresponds to a price of the trade order
to buy or sell the commodity.
23. The method of claim 22, further comprising:
receiving a command to delete the trade order pending at the electronic exchange
responsive to selecting the working order
indicator through a single action of the
user input device with a pointer of the
user input device positioned over the
working order indicator.
24. The method of claim 23, wherein the single action that selects the working order indicator consists
of a single click of the user input device.
25. The method of claim 23, wherein the single action that selects the working order indicator consists
of a double click of the user input device.
26. The method of claim 1, further comprising:
receiving a default quantity parameter,
where the trade order is for a quantity
based on the default quantity parameter.

App. 290
27. The method of claim 26, where the default
quantity parameter is received prior to setting the
price and sending the trade order to the electronic exchange.
28. The method of claim 1, where identifying the
plurality of sequential price levels further comprises
generating the price levels based on the market data.
29. The method of claim 1, where identifying the
plurality of sequential price levels further comprises
generating the price levels based on the market data
and a tick value.
30. The method of claim 1, where the plurality of
sequential price levels comprises at least one price
level for which no trade orders are currently pending
at the electronic exchange.
31. The method of claim 1, where each price level
of the plurality of sequential price levels comprises at
least one trade order currently pending at the electronic exchange.
32. The method of claim 1, further comprising:
displaying, by the computing device, the
plurality of sequential price levels in
alignment with the plurality of graphical
locations.
33. The method of claim 1, where each graphical
location of the plurality of graphical locations comprises a graphical cell of a grid.
34. The method of claim 1, wherein the plurality
of graphical locations comprises a first plurality of
graphical locations displayed in a first column and a
second plurality of graphical locations displayed in a
second column.
35. The method of claim 1, wherein the commands
comprise one or more instructions.

App. 291
36. A computer readable medium having stored
therein instructions to execute a method for facilitating trade order entry, the method comprising:
receiving, by a computing device, market
data for a commodity, the market data
comprising a current highest bid price
and a current lowest ask price available
for the commodity,
identifying, by the computing device, a plurality of sequential price levels for the
commodity based on the market data,
where the plurality of sequential price
levels includes the current highest bid
price and the current lowest ask price;
displaying, by the computing device, a plurality of graphical locations aligned
along an axis, where each graphical location is configured to be selected by a single action of a user input device to send a
trade order to the electronic exchange,
where a price of the trade order is based
on the selected graphical location;
mapping, by the computing device, the plurality of sequential price levels to the
plurality of graphical locations, where
each graphical location corresponds to
one of the plurality of sequential price
levels, where each price level corresponds to at least one of the plurality of
graphical locations, and where mapping
of the plurality of sequential price levels
does not change at a time when at least
one of the current highest bid price and

App. 292
the current lowest ask price changes;
and
setting a price and sending the trade order
to the electronic exchange in response to
receiving by the computing device commands based on user actions consisting
of: (1) placing a cursor associated with
the user input device over a desired
graphical location of the plurality of
graphical locations and (2) selecting the
desired graphical location through a single action of the user input device.
*****

App. 293
(10)

Patent No.:

(12)

United States Patent Friesen et al.

(45)

Date of Patent:

(54)

USER INTERFACE FOR AN ELECTRONIC TRADING SYSTEM

(75)

Inventors:

(73)

Assignee:

(*)

Notice:

(21)

Appl. No.:

09/289,550

(22)

Filed:

Apr. 9, 1999

(65)

US 7,212,999 B2

Richard W. Friesen,
Fairfax, CA (US); Peter
C. Hart, San Rafael, CA
(US)
Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by 0
days.

Prior Publication Data
US 2003/0097325 A1

(51)

May 1, 2007

May 22, 2003

Int. Cl.
(2006.01)
G06Q 40/00
(52)
U.S. Cl. ......... 705/37; 705/35; 345/440.2
(58)
Field of Classification Search. 705/37
See application file for complete search history.

App. 294
(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044
4,750,135
4,799,156
4,823,265
4,903,201
5,038,284
5,077,665

A
A
A
A
A
A
A

6/1987
6/1988
1/1989
4/1989
2/1990
8/1991
12/1991

Kalmus et al. ..
Boilen
Shavit et al. ...
Nelson
Wagner
Kramer
Silverman et al.

364/408
364/401

(Continued)
FOREIGN PATENT DOCUMENTS
EP

0 388 162

A2

* 3/1990

(Continued)
OTHER PUBLICATIONS
How the Futures Markets Work, Jake Bernstein,
1989, New York Institute of Finance, pp. 62-67.*
(Continued)
Primary Examiner—Charles R. Kyle
(74) Attorney, Agent, or Firm—McDonnell Boehmen Hulbert & Berghoff LLP
(57)

ABSTRACT

A user interface for an electronic trading exchange is
provided which allows a remote trader to view in real
time bid orders, offer orders, and trades for an item,

App. 295
and optionally one or more sources of contextual data.
Individual traders place orders on remote client terminals, and this information is routed to a transaction
server. The transaction server receives order information from the remote terminals, matches a bid for
an item to an offer for an item responsive to the bid
corresponding with the offer, and communicates outstanding bid and offer information, and additional information (such as trades and contextual data) back
to the client terminals. Each client terminal displays
all of the outstanding bids and offers for an item, allowing the trader to view trends in orders for an item.
A priority view is provided in which orders are displayed as tokens at locations corresponding to the values of the orders. The size of the tokens reflects the
quantity of the orders. An alternate view positions order icons at a location which reflects the value and
quantity of the order. Additionally, contextual data
for the item is also displayed to allow the trader to
consider as much information as possible while making transaction decisions. A pit panel view is also provided in which traders connected to the pit are represented by icons, and are displayed corresponding to
an activity level of the trader.
35 Claims, 11 Drawing Sheets

App. 296

U.S. PATENT DOCUMENTS
5,101,353
5,136,501

A
3/1992
A * 8/1992

Lupien et al.
Silverman et al. 705/37

5,270,922
5,297,031

A
A

12/1993 Higgins
3/1994 Gutterman et al. 364/408

5,297,032

A

3/1994

5,347,452

A * 9/1994

5,375,055

A

12/1994 Togher et al.

364/408

5,619,631
5,689,651

A
A

4/1997 Schott
11/1997 Lozman

395/237

5,774,877

A

6/1998

Trojan et al.

364/408

Bay, Jr.

705/37

Patterson, Jr. et
al.

App. 297
5,793,301

5,844,572

Patterson, Jr. et
al.
A
8/1998 Patterson, Jr. et
al.
A * 12/1998 Schott
345/440

5,845,266
5,915,245

A
A

5,797,002

A

8/1998

5,924,082
5,924,083
5,946,667
5,963,923
5,966,139

12/1998 Lupien et al.
6/1999 Patterson, Jr. et
al.
A
7/1999 Silverman et al.
A
7/1999 Silverman et al.
A
8/1999 Tull, Jr. et al.
A
10/1999 Garber
A * 10/1999 Anupam et al.
345/440

6,012,046
6,014,643

A
1/2000
A * 1/2000

Lupien et al.
Minton

705/36 R

6,035,287
6,098,051
6,101,484

A
3/2000
A
8/2000
A * 8/2000

Stallaert et al.
Lupien et al.
Halbert et al.

705/26

6,131,087

A * 10/2000 Luke et al.

6,134,535
6,161,099

A
10/2000 Belzberg
A * 12/2000 Harrington et al. 705/37

6,188,403

B1 * 2/2001

Sacerdoti et al.

345/339

6,195,647
6,272,474

B1 2/2001
B1 * 8/2001

Martyn et al.
Garcia

705/37

6,282,521

RI

Hownrka

8/2001

705/26

App. 298
6,408,282

B1 * 6/2002

Buist

705/37

6,418,419
6,766,304

B1 7/2002
B2 * 7/2004

Nieboer et al.
Kemp et al.

705/37

6,772,132

B1 * 8/2004

Kemp et al.

705/37

2001/00346
96
2001/00395
27
2002/00230
38
2002/01308
68
2002/01780
96
2003/00094
11
2004/00999
33
2005/01253
28
2005/02567
99
2006/00100
66
2006/00205
38

Al * 10/2001 McIntyre

705/37

Al * 11/2001 Ordish et al.

705/37

Al * 2/2002

Fritsch et al.

705/37

Al * 9/2002

Smith

345/440

Al * 11/2002 Marshall

705/35

Al* 1/2003

Ram et al.

705/37

Al * 5/2004

Kimura

257/675

Al * 6/2005

Schuetter

705/37

Al * 11/2005 Warsaw et al.

705/37

Al * 1/2006

Rosenthal et al. 705/37

Al * 1/2006

Ram et al.

705/37

FOREIGN PATENT DOCUMENTS
JP
WO
WO

2004004287819
WO 92/12488
WO 95/26005

Al *
Al

10/2004
7/1992
9/1995

App. 299
WO
WO

WO 00/52619
WO 01/75733

Al
Al *

9/2000
10/2001

OTHER PUBLICATIONS
Dictionary of Finance and Investment Terms, John
Downes and Jordan Elliot Goodman, 1998, Barron
Educational Services, Inc., p. 329.*
Java Island, copyright 1999 (printed
http://www.isld.com on Jun. 11, 1999).

from

Search Report for PCT/US 00/09369.
Yahoo! Finance—Option Chain SUNW; 2 pages.
APT Brochure, LIFFE Exchange, circa 1990*.
Trading Screen, INTEX of Bermuda, circa 1984*.
Weber, Information Technology in the Major International Financial Markets, Apr. 7, 1993.
Trading Screen, TIFFE Exchange, circa 1989-1990*.
Trading Screen, MEFF Exchange, circa 1990*.
Cavaletti, Order Routing Article, Futures Magazine,
Feb. 1997.
Aurora Article, CBOT, circa 1989*.
One Click Trading Options, Trading Technologies,
circa 1998.
Trading Screen, SWX Exchange, circa 1990*.
Expanding futures and options trading around the
world, around the clock, GLOBEX, circa 1989*.
Hansel!, The computer that ate Chicago. Institutional
Investor, Feb. 1989*.

App. 300
Globex Report: An update on the CME Global electronic exchange, Feb. 10, 1989.
NYMEX Access Documents, New York Mercantile Exchange, Feb. 28, 1992.
Grummer, Peake, Sellers, Preliminary Feasibility
Study, Bermudez Ltd., Nov. 1980.
Peake, Mendellson, The ABCs of trading on a national
market system, Appendix C of Preliminary Feasibility Study, Bermudex Ltd., Sep. 1997.
Peake, The last 15 meters, Appendix E of Preliminary
Feasibility Study, Bermudex Ltd., Jun. 15, 1997.
Declaration of Brendan Bradley in Case No. 04 C
5312. Nov. 18, 2004.
Memorandum Opinion Published Feb. 9, 2005, of
Judge James B. Moran in Case No. 04 C 5312.
CATS Traders’ Manual, Toronto Stock Exchange,
Sep. 30, 1977.
Market Watch, Trading Screen, date not available.
Kharouf, Jim and Carla Cavaletti: “A Trading Room
With a View”; Futures; Nov. 1998; 6 pages, www.futuresmag.com.
Presentation regarding the NASDAQ Stock Market,
Inc.; dated Nov. 8, 2001; 15 pages.
* cited by examiner

App. 301

App. 302

App. 303

App. 304

App. 305

App. 306

App. 307

App. 308

App. 309

App. 310

App. 311

App. 312
USER INTERFACE FOR AN ELECTRONIC
TRADING SYSTEM
TECHNICAL FIELD
The present invention relates generally to the field
of graphical user interfaces and more particularly to
the field of graphical user interfaces for electronic
trading systems.
BACKGROUND OF THE INVENTION
Trading pits are the lifeblood of a market economy.
Quantities of goods and shares in companies are
bought and sold by millions of investors through trading pits on exchanges everyday. When a particular
trading product or item is more valued, the value of
the item is driven up as a result of more aggressive
bidding by the buyers. When an item is less valued,
the value of the item is driven down as a result of
more aggressive offers to sell the item. The successful
trader anticipates the rise or fall of the value of an
item and performs his or her own transaction beforethe rest of the market is aware of the item’s potential
gain or loss in value. Thus, anticipation of the market
and specifically of the future demand for an item of
interest is critical to the success of a trader.
The transactions for each item occur in a trading
pit for that item. The trading pit is a designated area
in an exchange in which the customers submit their
orders, either bids or offers, for the item to a broker in
the pit. The exchange records all transactions and relays or posts to the individual traders the outstanding
bid having the highest value and the outstanding offer having the lowest value for the item, along with
the quantity specified in the order. The exchange does

App. 313
not release information on all outstanding offers and
bids to the traders because, in part, this information
is what gives the market makers an advantage over
the traders and enables the market makers to change
their own trading directions quickly, step in front of
customer orders, and use customer limit orders to protect the market makers from losses. However, for an
individual trader, having only the latest order information for an item complicates the trader’s task of ascertaining trends in the orders for an item because the
trader has very little information about the volume of
offers and bids or the rate at which these volumes are
changing.
Other information is also used by the trader to anticipate the market, including current exchange performances, historical transaction data for the item,
the number of traders at the pit, and the trader’s
sense of the activity of the pit. However, it is often difficult for a trader to quickly assemble this information
from diverse and often unrelated sources or even effectively process all of this information in order to
make an informed transaction decision. From this information, and other external information, the trader
must attempt to determine trends in the buying or
selling for the item in order to anticipate the market
and the demand for a particular item.
Thus, a system is needed in which trend information of market demand for an individual item is
provided to traders in an intuitive format which allows traders to quickly interpret how market demand
is changing to an item. A system is also needed which
provides contextual information about the item or the
market to the trader while the trader is trading on a

App. 314
specific item in a manner which allows the trader to
quickly interpret the information and then act accordingly.
SUMMARY OF THE INVENTION
The present invention is a user interface for an
electronic trading system that allows a remote trader
to view trends in the orders for an item, and provides
the trading information in an easy to see and interpret graphical format. The user interface of the present invention operates in a system in which individual traders place orders including bids and offers, on
remote client terminals, and this information is
muted to a transaction server. The transaction server
receives order information from the remote terminals,
matches a bid for an item to an offer for an item responsive to the bid corresponding with the offer, and
communicates outstanding bid and offer information
back to the client terminals. Thus, in accordance with
the present invention, each client terminal displays
all of the outstanding bids and offers for an item, in
contrast to the conventional systems and methods in
which only the highest bid and lowest offer were
known to the individual trader. This allows the trader
to view trends in orders for an item, and thus better
enables the trader to anticipate demand for the item.
For example, in one embodiment, a graph is
formed with a value axis. Bid icons and offer icons for
all outstanding bids and offers are displayed on the
graph at locations corresponding to the values of the
bids and offers. When an item is being “bid up,” i.e.,
the demand for the item is growing, all of the new bids
are displayed to the remote trader. The trader immediately sees the increasing demand for the item as it

App. 315
occurs, and thus may infer that the item may rise in
value, and can enter an order to buy for the item immediately while the value for the item still appears
low. In contrast, in conventional systems, the trader
only knew of the existence of the highest bid, and
therefore would not know that demand for the item
was increasing. However, by “opening the book,” all of
the outstanding orders are dis-played to all of the remote traders and each trader is able to immediately
see the growing demand and maximize his or her position in the market accordingly.
The user interface of the present invention presents this information in an intuitive format, allowing
the trader to make informed decisions quickly. In a
priority view embodiment, bid and offer icons are displayed corresponding to an axis of values. This results
in the bid icons being displayed on the lower portion
of the screen and the offer icons being displayed on
the upper portion of the screen. The trader is able to
discern immediately the number and volume of bids
and offers outstanding for the item and their difference in value. The bids and offers are preferably displayed in different colors, shapes, or other visual
characteristics, further enhancing the trader’s ability
to quickly ascertain the current state of the market.
The screen is updated frequently to display the most
recent bids and offers. In one embodiment, the icons
are formed having an edge which is angled toward the
axis of values. When all outstanding offers and bids
are displayed, the arrangement of icons naturally
forms the edges of a triangle that points to the value
differential at the axis of values. In yet another embodiment, the trader’s own bids and offers are displayed in a first color or other visual characteristic,

App. 316
and the bids and offers of other traders are displayed
in a second color or visual characteristic. This allows
the trader to quickly determine his or her relative position in the marketplace. Finally, in a preferred embodiment, a size of the icons represents the quantity
of the bid or offer, allowing an easy visual means of
determining the relative quantities each bid and offer
represent.
In a value/quantity view embodiment, an axis of
values and an axis of quantities are used to determine
the location of the bid and offer icons. The icons in this
embodiment are markers or tokens and provide a different look and feel to the trader. Providing alternate
views allow a trader to select a view with which the
trader is most comfortable trading.
A value quantifying analytic is displayed in a further embodiment with respect to the value axis at a
location corresponding to the current value which the
analytic rep-resents. The analytic is preferably displayed as a marker called an action line, in a color or
other visual characteristic different from the other
characteristics used to represent other objects being
displayed. The action line is selected by each individual trader and can reflect value-to-earning ratio, volatility, volume of sales, or any other metric the trader
designs, or can be selected from a listed of predetermined metrics. The action line responds to changes in
the data it measures, updating in essentially real
time. The action line allows the trader to immediately
determine the current valuation of the item relative
to the trader’s own valuation of the item. As the offers

App. 317
or bids approach the action line, the trader is prepared to complete a transaction in accordance with
the trader’s own valuation.
In another aspect of the invention, market data
and other contextual data is displayed while the
trader is viewing one of the aforementioned user interfaces. A historical chart is displayed in the background of a user interface to provide additional information to the trader who is determining the state of
the market and how it may affect the value of the
item. For example, the historical chart may represent
the various market indices, historical values of the
item or others, and any other historical value, quantity, or volume trend. The historical chart can represent the average value of the item over a period of
time, or may represent a value or values for any other
item or group of items. The historical chart is displayed with respect to a vertical axis of values, and is
displayed horizontally responsive to time. The historical chart is updated to provide the latest information
to the trader while the trader is trading. Thus, in accordance with the present invention, the trader is able
to make instantaneous decisions regarding an item
while receiving critical information about other items
or the past performance of the current item and other
indices. This is a major advantage over conventional
methods of trading in which this information is not
provided concurrently, and if presented at all, is difficult to process quickly.
An alternate embodiment provides a trading pit
view that displays trader icons for each trader and positions the trader icons reflective of the activity level
of the trader. Floor brokers and other bystanders are

App. 318
also displayed and identified to allow the trader to understand at a glance the respective positions and activity of all users currently connected to the transaction server for that trading pit. Selecting a trader icon
provides information regarding the trader and can
open up a window to allow the traders to communicate with each other using one or more methods including electronic mail, text chat or communication
by voice over a network connection. The trading pit
view allows the remote trader to immediately ascertain whom the trader is trading against, how active
they are, and allows the trader to better anticipate the
market.
BRIEF DESCRIPTION OF THE DRAWINGS
FIG. 1 is a block diagram of a preferred embodiment of the electronic trading system of the present
invention.
FIG. 2 is a block diagram of a preferred embodiment of the transaction manager of the present invention.
FIGS. 3a-3c are screen shots illustrating an embodiment of a Priority View in accordance with the
present invention.
FIG. 3d illustrates a buy order pop-up window.
FIG. 3e illustrates a sell order pop-up window.
FIG. 4 is a screen shot illustrating an embodiment
of a Value/Quantity View in accordance with the present invention.
FIG. 5 is a flow chart illustrating a preferred embodiment of a method of displaying bid and offer icons
in accordance with the present invention.

App. 319
FIG. 6 is a flow chart illustrating a preferred embodiment of a method of generating a bid order icon
in accordance with the present invention.
FIG. 7 is a flow chart illustrating a preferred embodiment of a method of generating a offer order icon
in accordance with the present invention.
FIG. 8 is a flow chart illustrating an alternate embodiment of generating an order icon.
FIG. 9 is a screen shot illustrating a Pit Panel view
in accordance with the present invention.
FIG. 10 is a flow chart illustrating a preferred embodiment of generating and placing a trader icon in
accordance with the present invention.
FIG. 11 is a screen shot illustrating a communication window in accordance with the present invention.
DETAILED DESCRIPTION OF THE
PREFERRED EMBODIMENT
FIG. 1 illustrates the electronic trading system in
accordance with the present invention. Client terminals 104 are coupled to a transaction manager 100.
The client terminals 104 are personal computers, terminals as part of a network, or any other computing
device. Traders use the client terminals 104 to interact with trading pits that are managed by the transaction manager 100. The transaction manager 100
manages transaction requests generated by the client
terminals 104, routes information to, from, and between the terminals 104 and the transaction manager
100, and stores and retrieves information from a database 108 or databases 108.

App. 320
FIG. 2 illustrates a more specific embodiment of
the transaction manager 100. The clients 104 are coupled to log-in manager 204 to provide to each client
access to the transaction manager 100, and to allow
each client 104 to designate one or more trading pit
220 to which to be connected. The transaction manager 100 hosts one or more transaction servers 200.
Each transaction server 200 is responsible for the
trading of a specified item, essentially supporting a
specific trading pit. The summary information agents
224 for each transaction server 200 provide a current
status of the activity of each pit 220 to a trader connected to the log-in manager 204. The trader can select a pit 220 to which to be connected based upon the
summary information. Once the log-in process is complete, the clients 104 are coupled to a registration
server 212 for the specified trading pit 220. Registration for each pit 220 requires the client 104 to provide
an access key that it received from the login manager
204 during log in.
After registering for a pit 220, the trader is able to
add, modify or delete orders for the item being traded
in the trading pit 220. One type of an order called a
“bid” is an order to buy up to a specific quantity of an
item at or below a specific value. Another type of an
order called an “offer” is an order to sell up to a specific quantity of an item at or above a specific value.
Other types of orders are possible depending on the
type of item being traded in the trading pit 220.
Each pit 220 includes a transaction server 200.
The transaction server 200 receives orders, matches
bids and offers (when a bid and offer are matched it is
called a trade or execution) and routes information to

App. 321
both the database 208 and the client terminals 104
connected to the trading pit 220. The client terminals
104 generate icons for bid and offer orders (called bid
and offer icons), historical charts and trader icons,
and determine the placement of bid and offer icons
and trader icons responsive to the information received from the transaction server 200. The database
208 to which the transaction server 200 is coupled
stores the information corresponding to each trader,
information on every order submitted over a period
(such as start of trading days), information on every
trade over a period (such as last 180 days) and the
information corresponding to the item being traded.
Each trader may have information associated with
the trader’s account stored, including a name, e-mail
account, address, phone number, personal value
quantifying metric or analytic activity level history,
and various other information which is unique to the
individual trader and which may be used by the present invention to create a virtual trading environment.
The information corresponding to every order includes whether the order was a new order, modifications to an existing order or deletion of a previously
submitted order, the type of order (for example, bid or
offer), the value, the quantity, the time and date the
order was submitted, and any other information specific to the order. The information corresponding to
every trade includes the value, quantity, buyer and
seller. The information corresponding to the item being traded includes the highest outstanding bid value
and the lowest outstanding offer value for the item, as
well as a list of the values of all open orders for the
item. The item information is stored on the database

App. 322
208 in a data structure such as an order table. The
server 200 updates the information in the order table
responsive to receiving information from the client
terminals 104. The updated information is then
transmitted back to the client terminals 104. Other
information, such as information used in creating historical charts, may also be stored on database 208. Information which may be global to more than one pit
220, for example, trader personal information, is also
stored on the system database 108, to allow the information to be accessed by each trading pit 220.
For traders registered to the same trading pit 220,
all of their orders (i.e. bids or offers specifying a value
and quantity) are transmitted to the transaction
server 200 for that pit 220. The server 200 analyzes
the orders for matches with outstanding, or open, orders. If them is a match between orders of different
types, for example, between a bid and an offer. then a
transaction is enacted and the client terminals 104
are notified to remove the matched icons. All outstanding orders are transmitted to each client terminal, allowing a trader to view all of the outstanding
orders from all traders for an item on a trading pit at
any given time. The client displays are updated continuously or at specific intervals to provide updated
information regarding which orders are outstanding
and the state of the market in the pit 220. As shown
in FIG. 2, multiple trading pits 220 are provided in
the electronic trading system, and a single trader may
be connected to as many pits 220 at the same time as
desired. The number of trading pits 220 which may be
maintained in accordance with the present invention
is scalable responsive to the number of servers which
are provided in the system. The items of trade include

App. 323
any possible commodity, for example, minerals, futures, or shares in a corporation. Other network configurations can be used to implement the electronic
trading system as is known to those of ordinary skill
in the art.
The client terminals 104 provide the interactive
link between the traders and the trading pits 220, and
display the various user interfaces of the present invention. FIG. 3a illustrates a priority view 312 which
is designed to allow traders to intuitively place orders
300, 304 and view markers 336 representing value
quantifying metrics, and contextual trend data 316 in
accordance with the present invention. In the priority
view embodiment, orders 300, 304 are displayed at a
location corresponding to their value with respect to
the value axis 332. Values may represent price, interest rate, or any other metric by which an item may be
valued. For example, offer 304(1) has a value of
$28.45, and the lowest point of the bottom edge 308 of
the icon 304(1) is aligned with the value $28.45 on the
value axis 332. In this embodiment, the top edges 309
of the bids and bottom edges 308 of the offer icons are
angled. The rightmost bid is the bid having the highest value, and the rightmost offer is the offer having
the lowest value. This allows the edges 308, 309 of the
icons 300, 304 to form a triangle which points to the
separation in value between the last lowest offer and
the last highest bid. The quantity of each order is represented by a size of the icon such as its length or
height. Icons having a larger size represent orders
having a greater quantity. The specific quantity and
other information of an order displayed on the screen
may be known by selecting that order, which invokes
a pop-up window to display the precise value and

App. 324
quantity of the selected order. In an alternate embodiment, the specific order information is displayed in
the order task bar 328, in response to a trader selecting a bid or offer icon provided the order was submitted by the trader selecting the order. Alternatively, if
space permits, the quantity and value may displayed
in the icon itself.
If there are several orders with equal value, the
orders are stacked or placed adjacent to each other responsive to the time at which the order was placed.
For example, bids 300(5), 300(6), 300(7) have equal
values at $29.50. Therefore, all three bid icons 300 are
vertically stacked. A preferred method of stacking
places the oldest orders closest to the horizontal space
which naturally occurs and separates the bids and the
offers. The horizontal separation between the bids
and the offers occurs naturally because all of the bids
displayed are always at a lower value then the displayed offers. If a bid is placed at a value equal to or
exceeding an offer value, a transaction will be made
immediately and the icons removed. For example, in
the stack containing orders 300(7),300(6), and 300(5)
in FIG. 3a, the first and therefore the oldest bid in
time was 300(7), and is placed at the top of the stack,
closest to the horizontal separation between the displayed bids and offers. The other two stacked bids
300(6), 300(5) are positioned below the oldest bid
300(7), corresponding to the time at which they were
submitted, and sorted in order of oldest to newest. In
the stack containing offers 304(2), 304(3), and 304(4),
the oldest offer 304(2) is positioned on the bottom of
the stack closest to the horizontal separation, and the
newest offer 304(4) is positioned on the top of the
stack. The above method of ordering bids and offers is

App. 325
a preferred method, however other ordering schemes
could be used within the scope of the present invention.
The trader using the client terminal 104 in accordance with the present invention, is shown all of the
outstanding orders 300, 304 for the item being traded.
This is one significant difference between the present
invention and conventional systems because a trader
using a system in accordance with the present invention is able to view trends in the bids and offers in
addition to the buying and selling of the item being
traded. For example, in FIG. 3a, a trader can quickly
analyze the outstanding orders 300, 304, and determine that there are an almost equal number of bids
300(8) as offers 304(8). Thus, the trader may infer
that the market is stable, and the value for the item
will not be dramatically driven up or down in the near
future. Accordingly, the trader may decide to take no
action. However, as shown in FIG. 3b, if demand
builds through an increased number of bids being
made, as shown by the display of an increased number of bid icons 300, or bids are being made for large
quantities, as shown by the display of bid icons 300
having a greater size, and if supply recedes as indicated by the display of a reduced number of offers
icons 304, the trader can anticipate that the value for
the item will increase. Consequently, the trader will
place bids for the currently low valued offer 304.
Thus, by viewing all outstanding offer icons 304 and
bid icons 300 as they are made on an item, the trader
can anticipate the market and quickly adjust his or
her trading plans to take advantage of the information. In contrast, in conventional systems, the
trader only knows the last highest bid and the last

App. 326
lowest offer. In the example of FIG. 3a, the trader
would only know the existence of bid 300(1) and offer
304(1). Only the market maker would know of the existence of the other bide and offer. Individual traders
would therefore be unaware of trends in bidding, and
experience greater difficulty in anticipating the market.
The trader can also view the gap between offer
icons 304 and bid icons 300 to determine at what
value sales may be made and for what quantity. In
the example of FIG. 3a, the trader can determine that
there are several bids 300(5), 300(6), 300(7), at a
value slightly less than $27.35. Therefore, if the
trader has a number of items to sell, the trader can
make offers at that value and be assured of a sale of
all of his or her items. However, if this value is too
low, the trader can choose to keep all of his items until
the value of the item has risen, which would be reflected in the display of additional bid icons at a
higher value position in the screen. In contrast, if a
trader was using a conventional system, the trader
would have to offer his items incrementally, without
knowing in advance when sales are likely to be made.
The value axis 332 indicates the value at which an
item is being traded. This value may represent different qualitative measures for an item, such as the raw
price for the item; for bonds, the value could be the
cost for the bond or the implied interest rate for the
bond, or the value be used as a measure for an implied
volatility of the item, for example, a generic measurement of the relative expense of an option. Each trader
can use his own value scale. For example, one trader
may use a bond cost as an axis of values and another

App. 327
may use the implied interest rate of the bond. Regardless of a trader’s choice of value, the different orders
are displayed on the trader’s screen in terms of the
value the trader has chosen. Additionally, the value
scales are completely customizable. For example, a
gold arbitrageur could create a scale that measures
the difference between the futures price of the metal
less the spot cash price of the metal. The arbitrageur
could then apply the cost of carry, including insurance
and storage, to the future/cash price difference to generate an implied interest rate for the gold. Thus, the
value axis for the arbitrageur would be an interest
rate. In another example a trader who is interested in
trading soybean oil could buy and sell soybeans, but,
by using a value axis which accounts for the current
cost of crushing soybeans, storage of soybeans,
transport, etc, can be actually trading in soybean oil.
Thus different traders in the same trading pit 220
would see the same bid and offers but organized with
respect to their own specific value axis. Thus, the present invention provides enormous flexibility in constructing a view of an item’s value which is directly
representative of the trader’s own interest in the item.
The priority view 312 offers several other advantages to a trader. The offers 304 and the bids 300
are displayed in different colors, shapes, textures or
sizes, or other distinguishing visual characteristics, to
allow the trader to quickly ascertain the current state
of the market for this item. Additionally, orders made
by the trader are displayed having a different visual
characteristic than the visual characteristic used to
display orders of other traders. This allows the trader
to easily distinguish between their own orders and the
orders of other traders. For example, in FIG. 3a, the

App. 328
trader is able to immediately determine that offers
304(3) and 304(7) are the trader’s own offers 304, and
therefore should be discounted from any market analysis. In FIG. 3a, the trader can also quickly determine
that the trader himself is the trader with the most
bids 300 in place, which suggests to the trader that
the value for the item may be driven down if the
trader removes his bids 300 from the pit 220.
Orders can be placed by a trader using the user
interface of the present invention in variety of ways.
In one embodiment, as shown in FIG. 3a, the trader
can directly submit an order by using the order task
bar 328. The options to specify value and quantity of
either a bid or offer, and the expiration period are provided. After the information is entered, the trader selects Place Order, and the order is submitted to the
transaction server 200 for the pit 220, and an offer or
bid icon 304, 300 is generated and displayed at the
desired location at the desired size. The order information is communicated to the transaction server 200
and from there to the other client terminals, so that
the new bid/offer appears in the displays of all other
traders in this same pit. In a preferred embodiment,
the trader submits an order by simply selecting either
an offer token 324 or bid token 320 using a pointing
device. After being selected, the trader adjusts the
size of the offer or bid token 324, 320 until the size of
the token matches the desired quantity of the order.
Preferably, a pop-up window or other screen indicator
is displayed to show in numerical terms the quantity
of the current size of the token, to ease the process of
creating a properly sized order token. Next, the token
is dragged to a location on the screen which corresponds to the desired value of the order. Again, a

App. 329
screen indicator displays the current value for the token at its current location as it is being dragged to
allow precise placement of the token at the desired
value.
In the embodiment of FIG. 3a, a value marker 344
follows bid token 320 as it is moved to a location in
the display. The value marker 344 indicates the value
of the new order as the order is being placed. This allows for the trader to easily and precisely move the
token 320, 324 to the desired value. After reaching
the desired value, the trader releases the pointing device button and a Buy pop-up window 350, as shown
in FIG. 3d, is displayed with the bid order information. The Buy pop-up window 350 allows the
trader to modify the order information (value, quantity, expiration), cancel the order or submit the order
with the presently displayed information. If the order
is to sell an item, a Sell pop-up window 354 is displayed, as shown in FIG. 3e. After the order is submitted to the transaction server, it will be displayed on
the screens of all traders in this trading pit connected
to the transaction server 200.
An additional feature of the user interface of the
present invention is the provision of contextual data.
Contextual data comprises historical trading data of
the item, historical or current trading data of other
items, historical or current trading data of an average
of items. For example, the trader may wish to have
the Dow Jones AverageTM displayed on the screen,
and updated in realtime. Viewing contextual data
along with the outstanding offers and bids allows the
trader to better anticipate the market. For example,
if the Dow JonesTM average is used as the contextual

App. 330
data, and is falling sharply, the trader may decide to
begin selling his items even though the value of the
item in the pit 220 has been stable. This allows the
trader to anticipate where the market is headed. Any
type of data useful to the trader can be displayed as
contextual data. The contextual data 316 is preferably displayed as a historical chart 316 along a vertical
axis of values and against a horizontal axis of time.
The historical chart 316 can be displayed against any
time period, for example, hours, minutes, etc. The historical chart 316 is updated periodically as the data
for the item is updated. If the historical chart 316 includes the current item, as shown in FIG. 3a, bar lines
are displayed in the data to indicate the high and low
values of the item for that time period. A volume
graph 340 is displayed at the bottom edge of graph.
The volume graph illustrates the volume of transactions in the pit 220, and gives additional information
to the trader regarding the state of the market for the
item.
Yet another feature of the user interface of the present invention is the display of a marker 336. The
marker 336 is representative of a value quantifying
metric specified by the trader. The metric determines
a current action value for the item which identifies
the value at which the trader should act if the value
of the item rises above the action value or falls beneath the action value. For example, in FIG. 3b, the
value quantifying metric generates an action value of
$68.57. The marker 336 is displayed at this value to
indicate to the trader the location of the action value
in relation to the current bids 300 and offers 304. In
the example of FIG. 3b, the marker is displayed as an
action line 336. As can be seen, the outstanding bids

App. 331
are below the action line 336 and the current offers
are above the action line 336. This indicates to the
trader that no action should be taken.
The value quantifying metric can be an algorithm
or formula based upon factors the trader believes are
important in ascertaining the true worth of an item.
This metric can be set to reflect value-to-earnings ratio, volatility, volume of orders, per cent gain, or any
simple or complex design. The trader can input a custom metric or can select a metric from a predesignated
list of metrics. Metrics may also be purchased from rt
parties and incorporated into the client terminal 104.
This allows new metrics to be added at any time. The
action value displayed by metrics are dynamically determined either by the client terminal 104 or the
server 200, and updated whenever new data is received regarding a component of the metric. Thus, the
trader is given the latest information to update the
trader’s action line 336, allowing the trader to make
current, informed decisions regarding possible orders.
For example, in FIG. 3c, the metric has been updated
from the time of FIG. 3b. The action line 336 has
moved corresponding to the new action value of
$80.21. As can be seen, displaying the updated action
line 336 allows the trader to immediately determine
that the outstanding offers are now below his action
line 336, and therefore that these offers should be
purchased despite the fact that the offers themselves
remained at the same value from the time of FIG. 3b
to the time of FIG. 3c.
As discussed above, a trader may be connected to
several trading pits 220 at once. If a trader has multiple connections, the trader can view the different

App. 332
pits 220 simultaneously, or if the trader wishes to concentrate on a single item, the trader can have only one
pit 220 displayed. Additionally, the trader can disable
the different options for a view to suit the trader’s
preferences, and maximize visibility for a trader’s
particular terminal 104.
FIG. 4 illustrates an alternative view of the user
interface ) in accordance with the present invention.
The value/quality view 420 illustrates the market for
the item using a first axis of values 408 and a second
axis 412 for quality. Thus, the location of each offer
icon 400 and each bid icon 404 represents the value
for the offer or bid and the quantity for which the offer
or bid is made. Optionally, the action line 336 is also
displayed, as well as the contextual data. The alternate view provides a different intuitive perspective on
the state of the market. By providing alternate views,
as shown in FIG. 3c, the electronic trading system of
the present invention allows the different preferences
of different traders to be met. Orders in this view are
placed by selecting an offer token 416 or a bid token
417 and moving the token to a location which corresponds to the desired quantity and value. If the trader
wishes to purchase immediately, the trader can
simply drag a bid token 417 to the location directly
over any offer token, and a window pops up displaying
a bid order with value and quantity equal to that of
the offer token. If the trader wishes to sell immediately, the trader can simply drag an offer token 416
to the location ) directly over any bid token, and a window pops up displaying an offer order with value and
quantity equal to that of the bid token. The trader can
then execute the transaction.

App. 333
FIG. 5 is a flow chart illustrating a preferred embodiment of the user interface in accordance with the
present invention. The client terminal 104, through
data received from the transaction server 200, displays 500 at least one outstanding bid icon corresponding to a quantity and value of the bid. The client
terminal 104 also displays 504 at least one outstanding offer icon corresponding to a quantity and value )
of an offer. Thus, by displaying at least one outstanding bid and offer icon, the “book” is opened and traders
viewing the client terminal can readily spot trends in
supply and demand for an item and quickly anticipate
the market.
FIG. 6 illustrates an embodiment of a method of
generating an order icon in accordance with the priority view 312 of the present invention. First, the client terminal 104 receives 600 the order type. The order can be either a bid or an offer. The trader specifies
the type by selecting an offer or bid token to place the
order, or by manually indicating the ) order type on
the task bar. Second, the client terminal 104 receives
604 a quantity specified for the order. The quantity,
as described above, is specified by the trader either by
entering the number directly into the order task bar
or by adjusting the size of the order token. In an embodiment; where the order information is entered into
the taskbar, an order icon will be generated 608
whose vertical size matches the quantity specified after the order has been processed by the server 200.
The client terminal 104 then receives 612 a value for
the order. Again, the trader can specify the value by
entering the information into the taskbar or can drag
the order token to the location corresponding to the
value. Finally, the client terminal 104 displays 614 an

App. 334
order confirmation window displaying the value,
quantity, and expiration information. The trader can
modify the order in this ; window and then must either cancel the order by closing the window or pressing the cancel button or submit it by pressing the OK
button. The client terminal 104 which receives the
value and quantity and order type information transmits 616 the information to the server 200. The server
200 then processes the order information, and updates the order table.
Once the server 200 transmits updated order information to a client terminal 104, the client terminal
104, in the priority view, determines 618 whether a
slot is open adjacent an existing order which has a
lower value, if the order is a bid, or a higher value, if
the order is an offer. In the priority view 312, the horizontal axis is divided into slots, each slot having a
width equal to an order icon 300, 304 and each slot
separated by a standard set-off unit. Incoming orders
are sorted by the value of the order. For offers, the
offers with the lowest values are positioned closest to
the axis of values 332, and for bids, the bids with the
highest values are positioned closest to the axis of values 332. When a new order is received, the client terminal 104 re-sorts the out-standing orders and places
the order icons 300, 304 in the appropriate positions.
If a new order is equal to an existing order of the same
type, the order is stacked onto the existing order. FIG.
6 illustrates a more detailed methodology of the sorting mechanism, using the example of placing a new
bid. However, the methodology is equally applicable
to placing a new offer.

App. 335
A new bid is designated for the slot adjacent an
existing bid which has the least value of the set of existing bids having values greater than the value of the
new bid. The client terminal 104 determines 618
whether this determined slot has an existing bid
within it. If it does not, the icon is placed 636 at the
determined slot. If the slot does contain an existing
bid, the client terminal 104 determines 620 whether
the existing bid has a value less than the requested
bid. All existing bids that have values less than the
requested bid are moved 640 to the adjacent slot positioned away from the axis of values 332. In the example of FIG. 3a, the adjacent slot would be a slot positioned to the left. All other bids having values less
than the requested bid are shifted 640 correspondingly. If the client terminal determines 624 that the
existing bid has a value equal to the existing bid, the
requested bid is stacked 632 below the existing bid or
bids, away from the horizontal separation between
bids and offers as described above. If the client terminal 104 determines 628 that the existing bid is
greater than the requested bid, a new slot is determined 628 for the requested bid, and the process is
repeated.
As shown in FIG. 7, upon receiving new bid information, the transaction server 200 determines 700
whether there is an existing offer in the order table
having a value less than or equal to the requested bid.
If there is not, the new bid is added to the table, and
the information regarding the new bid is sent 702 to
the client terminals 104 for display. If there is an existing offer whose value is less than or equal to the
requested bid, i.e., if the new bid is the highest value
bid outstanding, the server 200 determines 704

App. 336
whether the existing offer has a quantity which is less
than the quantity represented by the bid. If the offer
does have a quantity less than the bid, the server removes 706 the offer from the order table and adds a
new bid to the order table with the quantity reduced
by the quantity of the offer removed.
The server 200 records 720 a trade between the
trader submitting the new bid and the trader submitting the removed offer, at a value equal to the offer
value and a quantity equal to the offer quantity. All
of the outstanding client terminals 104 are sent the
information regarding the trade. The client terminals
104 then remove the existing offer icon and add a bid
icon which has a size corresponding to the difference
in quantities between the existing offer icon and the
requested bid icon. The transaction server 200 determines 700 again whether there is another existing offer in the order table having a value less than or equal
to the requested bid to determine if another transaction can be made with the quantity remaining in the
bid.
The server 200 also determines 708 whether the
offer has a quantity greater than the quantity of the
requested bid. If it does, the quantity of the offer is
reduced 716 by the quantity of the bid, and the updated offer information is sent 717 to the client terminals 104 for display. A trade is recorded 720 between
the trader submitting the new bid and the trader who
submitted the offer at a value equal to the offer value
and a quantity equal to the bid quantity. All of the
outstanding client terminals 104 are sent the information regarding the trade and update the user interface displays accordingly.

App. 337
If the quantities of the bid and offer are equal, the
offer is removed 712 from the table and the transaction is complete. A trade is recorded 720 between the
trader submitting the new bid and the trader who
submitted the offer at a value equal to the offer value
and a quantity equal to the bid quantity. All of the
outstanding client terminals 104 are sent the information regarding the trade, and update the user interface displays accordingly.
As shown in FIG. 8, in the value/quantity view, the
client terminal 104 receives 800 a value, receives 804
a quantity, and receives 806 an order type for a new
order. A confirmation window is displayed 807, and,
upon confirmation of the order, the order information
is transmitted to the server 200. Again, this may occur responsive to the trader entering in the information directly or dragging an order token to the
proper location and after confirming the order. The
server 200 receives the order information, updates
the order table, and sends the updated information to
the client terminals 104. The client terminals 104 display a new order icon at a location corresponding to
the value and quantity of the order with respect to the
axis of quantities and axis of values. If the new order
is an offer, and there is an existing bid for a value
higher than or equal to the value of the offer, a transaction is completed, and a new offer or a modified bid
token is displayed responsive to the quantities that
the original offer and bid icons represented.
FIG. 9 illustrates a trading pit view 900 called the
pit panel view 900, in accordance with the present invention. The pit panel view 900 provides a visual interface to other members of the pit 220. All users who

App. 338
are currently registered to the pit 220 are displayed
in the pit panel 900. This is critical information to a
trader regarding the activity of the pit 220. If the pit
220 is crowded, the trader can expect volatility in
trading. If the pit 220 is empty, the trader can expect
light trading and relatively stable values for the item.
The pit panel 900 displays trader icons 912, observer icons 904, and floor broker icons 908. Observers are users who are registered to the pit 220 but who
are not actively trading and floor brokers are individuals who have expertise on a pit’s item and traders,
and who assist traders in executing unusual trades,
negotiating a deal with multiple traders, or providing
history and information on traders to others. As the
observers do not trade for themselves, their icons 904
are placed on the outside of the pit icon 916. Floor brokers who do not trade also have their icons 908 placed
on the outside of the pit icon 916.
The trader icons 912 are displayed on the pit icon
916. The pit icon 916 is preferably displayed as a series of concentric polygons, where each polygon represents an activity level or levels. Traders who are more
active are placed closer to the center of the pit icon
916. The most active trader, in the example of FIG. 9,
trader 912(1), is placed in the center of the pit icon
916. In a preferred embodiment, each polygon represents a range of activity levels. For example, the innermost polygon contains the traders with the second
through ninth highest activity levels. The next polygon contains the traders having the tenth through
twenty-sixth highest activity levels, and so forth. By
grouping traders into activity ranges, and thus shilling a trader’s icon out of a polygon only in response

App. 339
to the trader’s activity level shifting out of the range
represented by the polygon, icon changes and consequent flicker in the display of the pit icon 916 are minimized. However, a trader is able to easily ascertain
who the active traders in a pit 220 are and how active
the traders are by noting the relative locations of the
trader icons 912 in the pit icon 916.
Each trader icon 912 has order indicators 913 to
show the quantity of orders a trader has outstanding.
Preferably, there are separate indicators 913 for bids
and offers, each showing the volume of outstanding
bids or offers the trader currently has placed. Other
order indicators 913 may be optionally displayed, for
example, indicating the sum of all quantities of orders
or the volume of orders entered over a specified period
of time. Selecting a trader’s icon 912 will also highlight the trader’s orders on the priority view, value/
quantity view, and other views provided in the system
that display orders and which can all be displayed
concurrently. Double clicking on a trader icon 912
generates a communication window as shown in FIG.
11 which allows the trader to send an email message
1108, send an instant message 1104 as part of a text
chat session, communicate by voice over the network
connection 1112, or set up a later telephone call or
other optional communication to the selected other
trader. Thus, the pit panel 900 provides a sense of
community in the pit 220 by visual representing useful information, and provides additional information
to the trader which the trader can use in anticipating
the market.
FIG. 10 is a flow chart illustrating a preferred embodiment of generating and placing a trader icon in

App. 340
accordance with the present invention. First, a trading pit icon 916 is displayed 1000. Next, the client 104
determines 1004 whether a predetermined period of
time has passed. The pit panel data is updated periodically, and the client 104 waits for that amount of
time before re-generating the display with the new
data. If the server 200 determines 1004 that the predetermined period has expired, a first trader icon is
selected 1008. The client 104 determines 1010
whether the trader is still connected to the server 200
from the data provided by the server 200. If the trader
is not, the trader icon 912 for the trader is removed
1011, and the client 104 determines 1020 whether
there are more traders. If the trader is still connected,
an activity level is determined 1012 for the trader. Activity levels are determined as a combination of the
volume of outstanding orders, the value of outstanding orders, recent activity, or other measures which
determine how active a trader has been. Once the activity level has been determined, the client 104 displays 1016 the icon 912 for the trader at the location
corresponding to the activity level. In an embodiment
where order indicators 913 are displayed, the order
indicators 913 are updated to include the latest order
data. In the preferred embodiment, as discussed
above, the pit icon 916 is comprised of concentric polygons or rings, the traders are ordered by activity levels, and each, polygon represents a range of activity
level orders. After the activity level of a trader is determined, the traders are reordered responsive to
their activity levels, and the trader icon 912 for each
the trader is placed in the polygon designated for the
order of the trader. The client 104 determines 1020 if
there are more traders. If there are not, the client 104

App. 341
determines 1024 if there are bystanders and, if there
are, selects 1028 the first bystander icon 904, 908 and
determines 1032 whether the bystander is connected
using data that is provided by the server 200. If the
bystander is not connected, the bystander icon is removed 1040. If the bystander is connected, the client
104 determines 1036 whether there are more bystanders. If there are not, the client 104 returns to the
step of determining 1004 whether a predetermined
time period has ended, as the pit panel 900 view has
been updated to reflect the current users and their
current activity levels.
We claim:
1. A computer based method for facilitating the
placement of an order for an item and for displaying
transactional information to a user regarding the buying and selling of items in a system where orders comprise a bid type or an offer type, and an order is generated for a quantity of the item at a specific value,
the method comprising:
displaying a plurality of bid indicators, each
corresponding to at least one bid for a
quantity of the item, each bid indicator
at a location along a first scaled axis of
prices corresponding to a price associated with the at least one bid;
displaying a plurality of offer indicators,
each corresponding to at least one offer
for a quantity of the item, each offer indicator at a location along the first scaled
axis of prices corresponding to a price associated with the at least one offer;
receiving market information representing
a new order to buy a quantity of the item

App. 342
for a specified price, and in response to
the received market information, generating a bid indicator that corresponds to
the quantity of the item bid for and placing the bid indicator along the first
scaled axis of prices corresponding to the
specified price of the bid;
receiving market information representing
a new order to sell a quantity of the item
for a specified price, and in response to
the received market information, generating an offer indicator that corresponds
to the Quantity of the item for which the
offer is made and placing the offer indicator along the first scaled axis of prices
corresponding to the specified price of
the offer;
displaying an order icon associated with an
order by the user for a particular quantity of the item;
selecting the order icon and moving the order icon with a pointer of a user input device to a location associated with a price
along the first scaled axis of prices; and
sending an order associated with the order
icon to an electronic trading exchange,
wherein the order is of a bid type or an
offer type and the order has a plurality of
order parameters comprising the particular quantity of the item and the price
corresponding to the location at which
the order icon was moved.

App. 343
2. The method of claim 1 wherein the order icon is
adjustable by the user to reflect the quantity of the
order.
3. The method of claim 1 further comprising:
receiving a request for an order responsive
to a user action specifying a quantity of
the item and price for the order.
4. The method of claim 1 further comprising:
displaying the order icon placed by the user
with a first visual characteristic; and
displaying the bid and offer indicators corresponding to orders placed by other users
with a second visual characteristic.
5. The method of claim 1 further comprising:
displaying each of the plurality of bid and
offer indicators having an edge which is
angled toward the first scaled axis of values.
6. The method of claim 1
wherein the bid indicator is generated such
that a size of the bid indicator corresponds to the quantity of the item bid for.
7. The method of claim 1
wherein the offer indicator is generated
such that a size of the offer indicator corresponds to the quantity of the item for
which the offer is made.
8. The method of claim 1 further comprising:
generating a second axis, perpendicular to
the first scaled axis of prices, representing time;
generating a third axis, perpendicular to the
second axis, representing value; and displaying a historical chart representing

App. 344
values of the item responsive to time and
value with respect to the second and
third axes.
9. The method of claim 1 further comprising:
displaying a plurality of order tokens having
different values;
receiving a selection for an order token; and
moving the order token to a user specified location with respect to the first
scaled axis of prices which corresponds to
the desired price;
thereby enabling placing of the order in accordance with the desired price.
10. The method of claim 1 further comprising visually distinguishing bid indicators from offer indicators.
11. The method of claim 1 further comprising visually distinguishing the order icon from the plurality
of bid and offer indicators.
12. The method of claim 1 further comprising displaying a marker representing a value of interest at a
location associated with a price on the first scaled axis
of prices.
13. The method of claim 12 wherein the location at
which the marker is displayed is updated dynamically.
14. The method of claim 12 wherein the marker
comprises a line.
15. The method of claim 1 wherein the user initiated command comprises selecting the order icon using a pointer device and dragging the order icon to the
location.
16. The method of claim 1 further comprising modifying the order icon based on a transaction.

App. 345
17. The method of claim 1 wherein the size of the
order icon is associated with the quantity of the order.
18. The method of claim 1 wherein the prices on
the first scaled axis of prices are based on a price for
the item.
19. The method of claim 1 wherein the item comprises a commodity.
20. The method of claim 1 wherein the prices on
the first scaled axis of prices represent a qualitative
measure.
21. The method of claim 20 wherein the qualitative measure represents a derivative of price.
22. The method of claim 21 wherein the derivative
of price is an interest rate, a bond cost, an implied interest rate, or implied volatility of the item.
23. The method of claim 20 wherein the qualitative measure represents any metric by which an item
can be valued.
24. The method of claim 20 wherein different qualitative measures can be chosen by the user.
25. The method of claim 20 further comprising receiving a command to select a new qualitative measure and updating the display of the plurality of bid
indicators and the plurality of offer indicators to locations along the first scaled axis of prices corresponding to prices associated with the new qualitative
measure.
26. The method of claim 1 wherein the bid indicator displays the quantity of the item associated with
the bid and the offer indicator displays the quantity
of the item associated with the offer.
27. The method of claim 1 wherein the order icon
displays the quantity of the order placed by the user.

App. 346
28. The method of claim 1 further comprising displaying contextual data along with the plurality of bid
and offer indicators.
29. The method of claim 28 wherein the contextual
data is displayed as a historical chart along the first
scaled axis of prices.
30. The method of claim 28 wherein the contextual
data is displayed as a volume graph.
31. The method of claim 28 wherein the contextual
data indicates the high and low values of the item for
a period of time.
32. The method of claim 1 wherein the first scaled
axis of prices is graduated in intervals such that each
interval represents a particular price.
33. The method of claim 1 further comprising the
step of displaying the prices along the first scaled axis
of prices.
34. The method of claim 1 wherein the each of plurality of bid and offer indicators are graphically represented to the user as icons.
35. A computer readable medium having program
code recorded thereon for execution on a computer for
displaying transactional information to a user regarding the buying and selling of items in a system where
orders comprise a bid type or an offer type, and an order is generated for a quantity of an item at a specific
value, comprising:
a first program code for displaying a plurality of bid indicators, each corresponding
to at least one bid for a quantity of the
item, each bid indicator at a location
along a first scaled axis of prices corresponding to a price associated with the at
least one bid;

App. 347
a second program code for displaying a plurality of offer indicators, each corresponding to at least one offer for a quantity of the item, each offer indicator at a
location along the first scaled axis of
prices corresponding to a price associated with the at least one offer;
a third program code for receiving market
information representing a new order to
buy a quantity of the item for a specified
price, and in response to the received
market information, generating a bid indicator that corresponds to the quantity
of the item bid for and placing the bid indicator along the first scaled axis of
prices corresponding to the specified
price of the bid;
a fourth program code for receiving market
information representing a new order to
sell a quantity of the item for a specified
price, and in response to the received
market information, generating an offer
indicator that corresponds to the quantity of the item for which the offer is
made and placing the offer indicator
along the first scaled axis of prices corresponding to the specified price of the offer;
a fifth program code for displaying an order
icon associated with an order by the user
for a particular quantity of the item;
a sixth program code for selecting the order
icon and moving the order icon with a

App. 348
pointer of a user input device to a location associated with a price along the
first scaled axis of prices; and
a seventh program code for sending an order
associated with the order icon to an electronic trading exchange, wherein the order is of a bid type or an offer type and
the order has a plurality of order parameters comprising the particular quantity
of the item and the price corresponding
to the location at which the order icon
was moved.
*****

App. 349
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.:
APPLICATION NO.:
DATED:
INVENTOR(S):

7,212,999 B2
09/289550
May 1, 2007
Friesen et al.

It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:
Column 1, line 22, replace “before-the rest” with -before the rest-Column 7, line 28, replace “bide and offer” with --bids
and offers-Column 11, line 21, replace “onto the existing order
with --onto the existing order-Signed and Sealed this
Eleventh Day of December, 2007
Jon W. Dudas
Director of the United States Patent and Trademark
Office

App. 350
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.:
7,212,999 B2
APPLICATION NO.: 09/289550
DATED:
May 1, 2007
INVENTOR(S):
Richard W. Friesen et al.
It is certified that error appears in the above-identified patent and that said Letters Patent is hereby corrected as shown below:
The Title Page, showing the illustrative Figure,
should be deleted and substitute therefor the attached title page.
Delete Figs. 2, 3A, 3B, 3D, 3E, 9, 4, 6, 7, 10 and
substitute therefor the drawing sheets, consisting
of Figs. 2, 3A, 3B, 3D, 3E, 9, 4, 6, 7 and 10 as shown
on the attached pages.
Column 6, line 41: please delete “$29.50” and insert --slightly less than $27.35--.
Column 10, line 10: please delete “value/quality”
and insert --value/quantity--.
Column 10, line 12: please delete “quality” and insert --quantity--.
Claim 34, column 16, lines 17-18: please delete “of
plurality of and insert --of the plurality of--.
Signed and Sealed this
Nineteenth Day of April, 2011

App. 351
David J. Kappos
Director of the United States Patent and Trademark
Office

App. 352
(10)

Patent No.:

US 7,212,999 B2

(12)

United States Patent Friesen et al.

(45)

Date of Patent:

(54)

USER INTERFACE FOR AN
ELECTRONIC TRADING SYSTEM

(75)

Inventors:

(73)

Assignee:

(*)

Notice:

(21)

Appl. No.:

09/289,550

(22)

Filed:

Apr. 9, 1999

(65)

Prior Publication Data

May 1, 2007

Richard W. Friesen,
Fairfax, CA (US); Peter
C. Hart, San Rafael, CA
(US)
Trading Technologies
International, Inc., Chicago, IL (US)
Subject to any disclaimer,
the term of this patent is
extended or adjusted under 35 U.S.C. 154(b) by 0
days.

US 2003/0097325 A1

May 22, 2003

(51)
Int. Cl. G06Q 40/00
(2006.01)
(52)
U.S. Cl. ......... 705/37; 705/35; 345/440.2
(58)
Field of Classification Search. 705/37
See application file for complete search history.

App. 353
(56)

References Cited
U.S. PATENT DOCUMENTS

4,674,044
4,750,135
4,799,156
4,823,265
4,903,201
5,038,284
5,077,665

A
A
A
A
A
A
A

6/1987
6/1988
1/1989
4/1989
2/1990
8/1991
12/1991

Kalmus et al. ..
Boilen
Shavit et al. ...
Nelson
Wagner
Kramer
Silverman et al.

364/408
364/401

(Continued)
FOREIGN PATENT DOCUMENTS
EP

0 388 162

A2

* 3/1990

(Continued)
OTHER PUBLICATIONS
How the Futures Markets Work, Jake Bernstein,
1989, New York Institute of Finance, pp. 62-67.*
(Continued)
Primary Examiner—Charles R. Kyle
(74) Attorney, Agent, or Firm—McDonnell Boehmen Hulbert & Berghoff LLP
(57)

ABSTRACT

A user interface for an electronic trading exchange is
provided which allows a remote trader to view in real
time bid orders, offer orders, and trades for an item,

App. 354
and optionally one or more sources of contextual data.
Individual traders place orders on remote client terminals, and this information is routed to a transaction
server. The transaction server receives order information from the remote terminals, matches a bid for
an item to an offer for an item responsive to the bid
corresponding with the offer, and communicates outstanding bid and offer information, and additional information (such as trades and contextual data) back
to the client terminals. Each client terminal displays
all of the outstanding bids and offers for an item, allowing the trader to view trends in orders for an item.
A priority view is provided in which orders are displayed as tokens at locations corresponding to the values of the orders. The size of the tokens reflects the
quantity of the orders. An alternate view positions order icons at a location which reflects the value and
quantity of the order. Additionally, contextual data
for the item is also displayed to allow the trader to
consider as much information as possible while making transaction decisions. A pit panel view is also provided in which traders connected to the pit are represented by icons, and are displayed corresponding to
an activity level of the trader.
35 Claims, 11 Drawing Sheets

App. 355

App. 356

App. 357

App. 358

App. 359

App. 360

App. 361

App. 362

App. 363

